No. 19In the

Supreme Court of the United States
DeRAY MCKESSON,
Petitioner,
v.
JOHN DOE,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
David D. Cole
A merican Civil Liberties
Union Foundation
915 15th Street, NW
Washington, DC 20005
K atie Schwartzmann
Bruce Hamilton
A merican Civil Liberties
Union Foundation of
Louisiana
P.O. Box 56157
New Orleans, LA 70156

David T. Goldberg
Counsel of Record
Donahue, Goldberg, Weaver
& Littleton
109 South Fifth Street,
Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com
Ben Wizner
Vera Eidelman
Brian Hauss
Emerson Sykes
A merican Civil Liberties
Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004

William P. Gibbens
Ian Atkinson
Schonekas, Evans, McGoey
& McEachin, LLC
909 Poydras Street, Suite 1600
New Orleans, LA 70112
Counsel for Petitioner
294849

QUESTION PRESENTED
Do the First Amendment and this Court’s decision
in NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1982), foreclose a state law negligence action making
a leader of a protest demonstration personally liable
in damages for injuries inflicted by an unidentified
person’s violent act there, when it is undisputed that
the leader neither intended, authorized, directed, nor
ratified the perpetrator’s act, nor engaged in or incited
violence of any kind?

ii
CERTIFICATE OF PARTIES, PROCEDINGS
AND RELATED CASES
In addition to the parties on the caption, Black
Lives Matter Network, Inc., was a party to the
proceedings before the Court of Appeals but does not
join this petition.
PROCEEDINGS
Doe v. Mckesson, U.S. District Court for
the Middle District of Louisiana, Civ. Action
No. 16–00742–BAJ–RLB. Judgment entered
September 28, 2017;
Doe v. Mckesson, U.S. Court of Appeals
for the Fifth Circuit, No. 17-30864.
Judgment entered August 8, 2019 (withdrawn
December 16, 2019);
Doe v. Mckesson, U.S. Court of Appeals
for the Fifth Circuit, No. 17-30864.
Judgment entered December 16, 2019; and
Doe v. Mckesson, U.S. Court of Appeals
for the Fifth Circuit, No. 17-30864.
Order denying rehearing en banc, issued
January 28, 2020.
A motion to dismiss a petition for certiorari,
No. 19-730, which sought review of the
(withdrawn) August 8 decision, is currently
before this Court.

iii
TABLE OF CONTENTS
Page
Question Presented ..................................................... i
Parties, Proceedings, and Related Cases .................. ii
Appendix Contents ..................................................... v
Table of Authorities................................................... vi
Opinions Below ........................................................... 1
Jurisdiction ................................................................. 1
Constitutional and Statutory Provisions Involved ... 1
Introduction ................................................................ 2
Statement ................................................................... 5
Reasons for Granting the Petition ........................... 14
I. The Fifth Circuit’s rule defies Claiborne
and contravenes bedrock First
Amendment principles ........................................ 16
A. Claiborne squarely forecloses imposing
liability for third-party wrongdoing
based on a protest leader’s negligence ............... 17
B. Claiborne equally forecloses liability for
third-party wrongs based on directing
some (different) “tortious activity.” ................... 22

iv
C. The Fifth Circuit’s forfeiture-bymisdemeanor theory ignores
First Amendment fundamentals. ....................... 24
II. The critical importance of the rights
Claiborne secures makes this Court’s
intervention necessary ........................................ 29
III. The First Amendment protections
the Fifth Circuit disabled should be
reinstated now, not later .................................. 34
Conclusion ................................................................ 37

v
APPENDIX CONTENTS
Page
APPENDIX A – OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT,
DATED DECEMBER 16, 2019 .............................. 1a
APPENDIX B – OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF LOUISIANA,
DATED SEPTEMBER 28, 2017 .......................... 55a
APPENDIX C –ORDER AND OPINIONS
OF THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
ON DENIAL OF REHEARING EN BANC,
DATED JANAURY 28, 2020................................ 79a
APPENDIX D – OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT,
DATED AUGUST 8, 2019 (WITHDRAWN,
DECEMBER 16, 2019) ......................................... 90a
APPENDIX E – OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT,
DATED APRIL 24, 2019 (WITHDRAWN,
AUGUST 8, 2019) ............................................... 110a

vi
TABLE OF AUTHORITIES
Page(s)
Cases:
Ashcroft v. Free Speech Coalition,
535 U.S. 234 (2002) ............................................. 19
Bartnicki v. Vopper, 532 U.S. 514 (2001) .......... 25, 28
Bell v. Whitten, 722 So.2d 1057
(La. Ct. App. 1998) .............................................. 36
Bill Johnson’s Restaurants, Inc. v. NLRB,
461 U.S. 731 (1983) ............................................. 34
Boyer v. Johnson, 360 So.2d 1164 (La. 1978) .......... 22
Boykin v. La. Transit Co.,
707 So.2d 1225 (La. 1998) ..................................... 8
Brandenburg v. Ohio, 395 U.S. 444 (1969) ......... 3, 19
Brown v. Entm’t Merchants Ass’n,
564 U.S. 786 (2011) ............................................. 19
Brown v. Louisiana, 383 U.S. 131 (1966) ................ 30
Byers v. Edmondson, 712 So. 2d 681
(La. Ct. App. 1998) .............................................. 19

vii
Carey v. Brown, 447 U.S. 455 (1980) ....................... 21
Clark v. Cmty. for Creative Non-Violence,
468 U.S. 288 (1984) ............................................. 10
Cloer v. Gynecology Clinic, Inc.,
528 U.S. 1099 (2000) ..................................... 14, 29
Cox v. Louisiana., 379 U.S. 536 (1965) .................... 30
Cox Broadcasting Corp. v. Cohn,
420 U.S. 485 (1975) ....................................... 35, 36
Dombrowski v. Pfister, 380 U.S. 479 (1965) ............ 36
Eastern Railroad Presidents Conference v. Noerr
Motor Freight Inc., 365 U.S. 127 (1961) ............. 26
Elfbrandt v. Russell, 384 U.S. 11 (1966) ................... 3
The Florida Star v. B.J.F.,
491 U.S. 524 (1989) ............................................. 28
Fort Wayne Books, Inc. v. Indiana,
489 U.S. 46 (1989) ............................................... 37
Forsyth County v. Nationalist Movement,
505 U.S. 123 (1992) ................................. 27, 32, 33

viii
Gann v. Matthews,
873 So.2d 701 (La. Ct. App. 2004) ...................... 36
Gooding v. Wilson, 405 U.S. 518 (1972) .................. 35
Hague v. CIO, 307 U.S. 496 (1939) .......................... 21
Harris v. Pizza Hut of La., Inc.,
455 So.2d 1364 (1984) ......................................... 36
Healy v. James, 408 U.S. 169 (1972) ....................... 19
Herndon v. Lowry, 301 U.S. 242 (1937)............. 19, 32
Juhl v. Airington,
936 S.W.2d 640 (Tex. 1996) .......................... 31, 34
Kolender v. Lawson, 461 U.S. 352 (1983) ................ 33
Lam v. Ngo, 111 Cal. Rptr. 2d 582
(Cal. Ct. App. 2001)............................................. 23
McCullen v. Coakley, 573 U.S. 464 (2014)............... 27
Marsh v. Alabama, 326 U.S. 501 (1946).................. 25
Miami Herald Publishing Co. v. Tornillo,
418 U.S. 241 (1974) ............................................. 37
NAACP v. Button, 371 U.S. 415 (1963) ................... 26

ix
NAACP v. Alabama ex rel. Flowers,
377 U.S. 288 (1964) ............................................. 27
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982) .................................... passim
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ................................. 28, 29, 31
Nieves v. Bartlett, 139 S. Ct. 1715 (2019) ................ 29
Noto v. United States, 367 U.S. 290 (1961) ............. 30
Nwanguma v. Trump,
903 F.3d 604 (6th Cir. 2018) ............................... 31
Rumsfeld v. FAIR, 547 U.S. 47 (2006) ..................... 25
Scales v. United States, 367 U.S. 203 (1961)....... 3, 19
Schenck v. Pro-Choice Network,
519 U.S. 357 (1997) ............................................. 31
Shelton v. Tucker, 364 U.S. 479 (1960) ................... 26
Snyder v. Phelps, 562 U.S. 443 (2011) ..................... 33
Taylor v. Louisiana., 370 U.S. 154 (1962) ............... 30
Terminiello v. City of Chicago, 337 U.S. 1 (1949) ... 29

x
United States v. L. Cohen Grocery Co.,
255 U.S. 81 (1921) ............................................... 32
United States v. Stevens, 559 U.S. 460 (2010)......... 23
Virginia v. Black, 538 U.S. 343 (2003) .................... 25
Wayte v. United States, 470 U.S. 598 (1985) ........... 34
Statutes:
28 U.S.C. § 1332 ......................................................... 6
Louisiana Rev. Statutes § 14:97 ...................... passim
Miscellaneous:
Judgment, Mckesson v. Baton Rouge,
No. 3:16-cv-00520 (M.D. La. Oct. 27, 2017) ....... 24

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fifth Circuit on sua sponte panel rehearing is
reported at 945 F.3d 818 and reproduced at
Pet.App.1a-54a. The opinion of the district court
(Pet.App.55a-78a) is reported at 272 F. Supp.3d 841
(M.D. La. 2017). An order and opinions on denial of
rehearing en banc (Pet.App.79a-89a) is reported at
947 F.3d 874. The court’s earlier (withdrawn)
rehearing and initial opinions (Pet.App.90a-109a and
110a-127a, respectively) are reported at 935 F.3d 253
and 922 F.3d 604.
JURISDICTION
On January 28, 2020, the court of appeals issued
an order denying rehearing en banc of its December
16, 2019 decision. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254.1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the Constitution of the
United States provides, in pertinent part:
Congress shall make no law * * * abridging the
freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to petition
the Government for a redress of grievances.

1 The decision the court of appeals withdrew on December 16,
2019 had been the subject of a petition for certiorari, timely filed
ten days earlier. Petitioner has sought dismissal of that petition,
No. 19-730, pursuant to Supreme Court Rule 46.

Louisiana Civil Code article 2315(A) provides:
Every act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.
Louisiana Rev. Statutes § 14:97 provides:
Simple obstruction of a highway of commerce is
the intentional or criminally negligent placing of
anything or performance of any act on any
railway, railroad, navigable waterway, road,
highway, thoroughfare, or runway of an airport,
which will render movement thereon more
difficult.
INTRODUCTION
Nearly four decades ago, in NAACP v. Claiborne
Hardware Co., the Court established a constitutional
rule limiting state law damages liability for the
“unlawful conduct of others” occurring “in the context
of … activity” protected by the First Amendment. 458
U.S. 886, 916, 927 (1982). That case arose from a longrunning civil rights boycott that included “elements of
majesty,” id. at 888, but also threats and acts of
violence. The Mississippi Supreme Court had
affirmed a judgment holding the boycott’s primary
leader, Charles Evers, personally liable for large
damages on the ground that, under state tort law, the
violence rendered the boycott illegal.
In holding that judgment unconstitutional,
Claiborne recognized both the significance of the
State’s interest in preventing harmful conduct and
the dangers to First Amendment freedoms that
Mississippi’s damages remedy posed: Given the
2

prospect that an individual protest participant—or
someone else present at a demonstration—will engage
in law-breaking, only the most intrepid citizens would
exercise their rights if doing so made them personally
liable for others’ wrongdoing. Claiborne’s answer was
a “federal rule of law” restricting state liability rules
for wrongs arising in “the presence of [First
Amendment] activity.” Id. at 916. States retain
undiminished authority to impose damages on protest
participants and leaders who themselves inflict harm.
But the Constitution forbids holding a protest leader
personally responsible for illegal acts committed by
others unless the leader himself incited or
“authorized, directed, or ratified” the “specific” harminflicting acts. Id. at 927.
Claiborne’s
stringent
personal
culpability
requirement consciously tracked principles this Court
established in landmark decisions recognizing First
Amendment limits on liability for incitement and
association, which similarly arise at the nexus of
protected activity and actual harm. See Brandenburg
v. Ohio, 395 U.S. 444 (1969); Scales v. United States,
367 U.S. 203 (1961); Elfbrandt v. Russell, 384 U.S. 11
(1966). In those cases, as in Claiborne, the
Constitution forbids liability for third-party wrongs
that a speaker foresaw and contributed to, but did not
specifically intend to bring about.
The present case called for a straightforward
application of Claiborne, but it yielded something
strikingly different. Respondent, a police officer, filed
a state law tort suit seeking recovery for injuries he
suffered when struck by a projectile while on duty at
a civil rights demonstration. He sued not the
3

unidentified rock-thrower, but petitioner, a prominent
social justice advocate, for “conducting” the
demonstration “negligently.” Pet.App.10a, 12a. A
Fifth Circuit panel recognized there was no plausible
allegation that petitioner directed, authorized, or
ratified the rock-throwing (or any violence), but ruled
that the First Amendment did not bar holding him
liable for respondent’s injuries. The panel affirmed
that holding in a revised opinion on rehearing, and
again in a third opinion, issued sua sponte four
months after the second, over the dissent of Judge
Willett, who, upon reflection, had concluded that the
court’s rule was “foreclosed squarely by this Court’s
controlling decision [in Claiborne].” Pet.App.44a. The
full court declined to rehear the case, by an 8-8 vote.
The Court should review—and reverse—the Fifth
Circuit’s decision and reinstate the Claiborne rule.
The lower court’s departure from this Court’s
controlling precedent could hardly be more stark.
What the Fifth Circuit held the Constitution to permit
is precisely what Claiborne Hardware ruled it forbids:
Holding a protest leader liable in tort damages for
specific wrongs, committed by someone else, that he
neither authorized nor intended. And the panel, in
announcing and defending its Claiborne-evading
conclusion, cast aside the principle animating
Claiborne’s prohibition against sweeping rules of civil
liability: that the presence of First Amendment
activity demands “precision of regulation.”
The reasons why this Court’s intervention is
needed extend beyond the important interests in
securing compliance with binding precedent.
Restoring the Claiborne protection is critical because
4

the rights of protest it secures are so valuable; and
because those rights are especially vulnerable to
suppression under the tort law regime the Fifth
Circuit approved.
There is no basis for—and great harm in—
withholding review until this case has been litigated
to judgment under the Fifth Circuit’s rule. This Court
has repeatedly recognized that when the First
Amendment entitles a defendant to dismissal, it is no
small matter to compel him to endure protracted
litigation under state law. In fact, the prospect,
adverted to in several opinions below, that petitioner
eventually may prevail on nonconstitutional grounds
is a powerful reason for intervening now. Far from
“mooting” the constitutional ruling that divided the
court below, any such victory for petitioner would
leave in place, and put beyond this Court’s reach, the
Fifth Circuit’s insupportable and disruptive First
Amendment rule.
STATEMENT
1. On July 5, 2016, Alton Sterling, a Black
resident of Baton Rouge, Louisiana, was shot and
killed by on-duty police officers responding to an
anonymous 911 call. In the days after, members of the
city’s Black community took to the streets—including,
on the evening of July 9, the area in front of police
headquarters—to express their anguish, celebrate
Mr. Sterling’s life, and press for accountability and
change. As with protests prompted by police violence
elsewhere, one way those assembled conveyed their
dismay was by insisting, to the police before them, the
community, and the watching world, that “Black
Lives Matter.”
5

The July 9 protest was, on respondent’s own
account, initially peaceful, although after “activist[s]
began pumping up the crowd,” Compl.¶17, some
demonstrators hurled plastic water bottles in the
direction of police, some of whom were in riot gear,
while others, including respondent, were massed to
make arrests. Id.¶¶16,18.2 And when the bottles “ran
out,” an unidentified person threw a “rock like” object
that struck and injured respondent. Id.¶20.
2. Respondent brought this personal injury suit in
federal court, averring that the damages sought
exceeded $75,000, see 28 U.S.C. § 1332, naming as
defendants DeRay Mckesson—petitioner here—and
“Black Lives Matter,” Compl.¶3, described as an
“unincorporated association” on whose “behalf”
Mckesson “staged” the demonstration.
Id.
Respondent did not seek recovery against the
unidentified assailant.3
The complaint did not allege that Mckesson
himself engaged in or directed violence of any kind.
Rather, respondent alleged that Mckesson “knew or
should have known … that violence would result”
from the demonstration he “staged”; was “present
during the protest” and “did nothing to calm the
crowd”; and had “directed” demonstrators to protest
on the public road in front of police headquarters.
Compl.¶¶12,
19, 28. If proven, respondent
2 Given the case’s procedural posture, petitioner treats as
true the well-pleaded factual allegations of the complaint.

Respondent sought to proceed anonymously, but both the
district court and the court of appeals ruled that he failed to state
a lawful basis for doing so. Pet.App.28a n.12.
3

6

maintained, these allegations would give rise to
liability for negligence, civil conspiracy, and
respondeat superior.
3. The district court dismissed the suit, concluding
that “Black Lives Matter” is a “social movement,” not
the sort of entity that may be sued in federal court,
Pet.App.58a-59a, and that the claims against
Mckesson were defeated by Claiborne’s rule governing
civil liability for other persons’ wrongful acts
committed “in the context of constitutionallyprotected activity.” 458 U.S. at 916. Because there
was no plausible allegation that Mckesson personally
“authorized, directed, or ratified” or otherwise
manifested “a specific intent to further” the injurycausing assault, id. at 925-27, the court ruled, the
First Amendment precluded state law damages
liability. Pet.App.61a.
4. A panel of the Fifth Circuit, in an initial
published opinion, a second one issued on rehearing,
and a third issued sua sponte months later when
Judge Willett reconsidered and dissented, reinstated
respondent’s negligence claim.
Each panel opinion began by deciding the viability
under state law of the tort claims. Respondent’s
vicarious liability claim failed, the court held, because
he did not “allege facts that support an inference that
the unknown assailant ‘perform[ed] a continuous
service’” for Mckesson or that the rock-thrower’s
“‘physical movements [were] subject to ***
[Mckesson’s] right to control.” Id.115a. As for civil
conspiracy, the panel concluded that while respondent
did “allege[] facts that support an inference that
Mckesson agreed with unnamed others to
7

demonstrate illegally on a public highway,” the
absence of allegations “that Mckesson colluded with
the unknown assailant to attack Officer Doe [or] knew
of the attack and ratified it” was fatal. Id.116a-117a.
The panel reached a different conclusion
respecting respondent’s effort to hold Mckesson liable
in “negligen[ce,] for organizing and leading the Baton
Rouge demonstration,” when he “knew or should have
known” that an act of violence could occur there.
Id.117a. The court concluded that petitioner owed a
duty to respondent and other officers and bystanders,
stating that Louisiana recognizes a “universal”
obligation “to use reasonable care so as to avoid injury
to another.” Id.118a (quoting Boykin v. La. Transit
Co., 707 So.2d 1225, 1231 (La. 1998)).
In assessing the other elements of the negligence
cause of action, the court attached special significance
to allegations that petitioner and other protesters had
marched onto the road in front of police headquarters,
noting that “[b]locking a public highway is a criminal
act under Louisiana law.” Id.118a (citing La. Rev.
Stat. § 14:97). It was “patently foreseeable,” the court
reasoned, that police would respond “by clearing the
highway and, when necessary, making arrests,” a
development that, in turn, carried a “foreseeable risk
of
violence”
to
“officers,
bystanders,
and
demonstrators.” Id.119a. Thus, although “[i]t may
have been an unknown demonstrator who threw the
hard object,” the court held, “Mckesson’s negligent
actions were the ‘but for’ causes of” respondent’s
injury.” Id.
Having concluded that petitioner could be sued
under state law, the court “t[ook] a step back” to
8

consider the Constitution. Id.120a. The fact that
Mckesson did not participate in or support violence
raised no First Amendment “bar” the court reasoned,
id.121a, because the complaint alleged both
negligence and directing the “tortious and illegal” act
of “occupying [a] public highway,” id., and because
Claiborne permits liability for “the consequences” of
those “tortious activit[ies]”—i.e., the arrests, the
assailant’s hurling the rock, and respondent’s
injuries, id.120a-121a (quoting 458 U.S. at 927)
(emphasis added).
5. Petitioner sought en banc reconsideration,
maintaining that the panel’s decision, which had been
issued without oral argument, was irreconcilable with
Claiborne and other landmark precedents and would
broadly chill exercise of core First Amendment rights.
After calling for and receiving a response—but again
without hearing argument—the court granted panel
rehearing, withdrew the initial opinion, and issued a
substitute.
The new opinion reached the same result and
largely replicated the initial opinion’s discussion of
the nonconstitutional issues. It did, however, expand
on the First Amendment holding. “Even if we assume
that Officer Doe seeks to hold Mckesson ‘liable for the
unlawful conduct of others’ within the meaning of
Claiborne Hardware,” the court explained, the First
Amendment did not require dismissal. Id.101a.
Rather, all respondent needed to do “to counter
Mckesson’s First Amendment defense” was to
“plausibly allege that his injuries” were a
“consequence[]” of some “tortious activity” that
petitioner “authorized, directed, or ratified” “in
9

violation of his duty of care,” id.—a requirement the
court held was met by allegations that he encouraged
misdemeanor traffic-impeding.
The court “perceive[d] no Constitutional issue
with Mckesson[’s] being held liable for injuries caused
by a combination of his own negligent conduct and the
violent actions of another that were [a] foreseeable …
result,” deeming such liability “a standard aspect of
state law,” which Claiborne did not “intend[] to ***
eliminat[e].” Id. 102a.
While acknowledging that the alleged negligence
“took place in the context of a political protest,” id.,
the court posited that “Claiborne Hardware does not
insulate … petitioner from liability *** simply
because he, and those he associated with, also
intended to communicate a message.” Id. Claiborne,
the court emphasized, had recognized that “the use of
weapons, gunpowder, and gasoline may not
constitutionally masquerade under the guise of
advocacy.” Id. (quoting 458 U.S. at 916) (internal
quotation marks and citations omitted). Here,
likewise, “the criminal conduct” Mckesson allegedly
“ordered” was not “protected by the First
Amendment,” because a law prohibiting impeding
highway traffic is “a reasonable time, place, and
manner restriction.” Id.103a (citing Clark v. Cmty. for
Creative Non-Violence, 468 U.S. 288, 293 (1984)).
The opinion expressed confidence that “no First
Amendment protected activity [would be] suppressed
by allowing the consequences of Mckesson’s conduct to
be addressed by state tort law.” Id.

10

6. On December 16, 2019, four months after the
panel’s rehearing opinion and ten days after
Mckesson filed a petition for certiorari, the Fifth
Circuit, sua sponte, withdrew that opinion and issued
a third one, reflecting that the formerly unanimous
panel had become sharply divided.
Judge Willett—who had joined the prior two
opinions in full—explained that he had come to
disagree with the court’s resolution of both the tort
law and First Amendment issues. His dissent began
by raising doubts about the “exotic” negligent protest
tort theory, suggesting that the duty question should
have been certified to the state supreme court. Id.38a,
53a. But “[e]ven assuming that Mckesson could be
sued under Louisiana law for ‘negligently’ leading a
protest at which someone became violent,” id.39a,
Judge Willett explained, such a claim would be
“foreclosed—squarely—by controlling Supreme Court
precedent” and “constitutional fundamentals,” id.44a,
53a.
Emphasizing
that
Claiborne
“impose[d]
restraints” on “what (and whom) state tort law may
punish” for harms occurring in the context of
protected activity and set a very “high[] bar” for
derivative liability, Judge Willett concluded that
respondent’s allegations “utterly fail[ed]” to supply
the constitutionally required “link [between]
Mckesson’s role as leader of the protest demonstration
[and] the mystery attacker’s violent act.” Id.39a, 43a,
50a, 61a.
Judge Willett then disputed the majority’s claims
that its regime was reconcilable with Claiborne. If
liability for an independent actor’s violence could
11

constitutionally be imposed as a “consequence” of a
leader’s “own” negligent oversight of a protest, he
pointed out, the Claiborne Hardware court would
have upheld the damages verdict against Charles
Evers. Id.44a nn.41, 42. And, Judge Willett continued,
the majority’s “alternative liability theory”—that
petitioner could be liable for respondent’s injuries
because he “directed *** [the] specific tortious
activity” of impeding a public highway—fared no
better. Even if encouraging that misdemeanor were
somehow a civil wrong against a police officer, Judge
Willett explained, it is, under Claiborne, a
constitutionally impermissible basis for “expos[ing]
Mckesson to liability” for the rock-thrower’s act of
“violence.” Id.44a, 49a.
Judge Willett concluded by connecting this case to
courageous, though not wholly violence-free, prodemocracy demonstrations taking place in Hong Kong
and to milestones in this Nation’s protest tradition,
noting that the Sons of Liberty are venerated for
“dumping tea into Boston Harbor” and that Martin
Luther King’s Selma-to-Montgomery March involved
“occup[ying] public roadways.” Id.52a. Had the
majority’s views prevailed, he continued, Dr. King
and other leaders of “America’s street-blocking civil
rights movement” could, constitutionally, have been
subject to “ruinous [personal] liability” for any
instance of violence that arose from demonstrators’
confrontations with hostile onlookers and police.
Id.53a.
The revised majority opinion, after confirming
that appellate jurisdiction was proper, responded to
Judge Willett. On negligence, the majority denied it
12

had approved a duty to prevent third-party
criminality—only “a duty not to negligently cause a
third party to commit a crime that is a foreseeable
consequence of negligence.” Id.12a. On the First
Amendment, the majority faulted Judge Willett for
not “close[ly] reading” Claiborne and warned of the
“staggering consequences” of according “immunity”
for “nonviolent tort[s]” that are “[committed] during a
protest.” Id.16a, 20a, 21a & n.8.
7. Six weeks after the panel’s third opinion, the
Fifth Circuit issued an order announcing that one or
more of its members had requested an en banc poll
and that the request had yielded an 8-8 tie.
Several judges added their views. Judge Ho
concurred in denying rehearing, suggesting that
Mckesson was likely to prevail on remand on
Louisiana’s “professional rescuer” rule, which
precludes officers from pursuing negligence claims for
personal injuries resulting “from the very emergency
[they were] hired to remedy.” Id.81a (citation
omitted). On the “more challenging First Amendment
questions,” Judge Ho posited that Claiborne
Hardware was distinguishable because the state tort
liability there was “premised on the content of
expressive activity.” Id.83a. “If the defendants had
advocated in favor of the white merchants,” he
asserted, “no [Mississippi] court would have held
them liable for such speech,” but the Fifth Circuit’s
tort theory would apply “with equal force to pro-police
protestors *** who unlawfully obstruct a public
highway and then break out into violence.” Id.83a,
85a.

13

Judges Higginson and Dennis authored separate
dissenting opinions. Judge Higginson explained why
“[p]rotestors of all types and causes have been
blocking streets in Louisiana for decades,” without
being sued on claims like respondent’s: The possibility
a police officer will be struck by a person opposing an
arrest for simple highway obstruction is outside the
“particular risk” that Section 14:97 addresses.
Pet.App.88a, 89a. Judge Dennis lamented that the
court, by permitting the panel’s “freewheeling form of
strict liability” to stand, had “grievously failed to …
apply the longstanding protections of the First
Amendment.” Id.87a.
REASONS FOR GRANTING THE PETITION
This Court’s intervention is needed now for two
reasons. First, the Fifth Circuit’s constitutional rule
could not be more wrong. The decision below plainly
conflicts with the directly controlling precedent of this
Court in Claiborne—a decision recognized to be
among this Court’s “most significant” First
Amendment precedents. Cloer v. Gynecology Clinic,
Inc., 528 U.S. 1099, 1099 (2000) (Scalia, J., dissenting
from denial of cert.). And the decision below is
likewise irreconcilable with closely related landmark
decisions restricting liability for incitement and guilt
by association. Claiborne held that the First
Amendment forbids holding a protest leader
personally liable for unlawful acts of other persons
that he did not incite, authorize, direct, ratify, or
otherwise specifically intend. The Fifth Circuit held
here that mere negligence suffices. That rule not only
jettisons
Claiborne’s
holding,
it
entirely

14

misunderstands the nature and
underpinnings of this Court’s rule.

constitutional

Second, review is needed here for the same
reasons it was in Claiborne: because the speech and
associational rights at issue are both so integral to
self-government and so “fragile.” 458 U.S. at 931. The
theories of civil damages liability the Fifth Circuit’s
rule permits pose an existential threat to the exercise
of the very First Amendment rights the Claiborne rule
is meant to safeguard. For would-be protesters, a rule
that provides for limitless and standardless personal
liability for wrongs the person did not encourage or
approve, committed by unknown others, is
functionally a rule of compelled silence—particularly
for those who espouse unpopular opinions. Indeed, the
panel majority remarkably made no effort to deny
Judge Willett’s observation that history-making
nonviolent protests led by Dr. Martin Luther King
would have been among the first casualties of the
court’s rule.
The extraordinary course of proceedings below
further attests to the need for this Court’s
intervention. Without ever hearing argument, the
Fifth Circuit panel issued three opinions over an
eight-month span, the last responding to a dissenting
opinion of a member who had come to conclude, after
twice joining the court’s opinions, that its rule
contravened First Amendment fundamentals. Eight
judges then voted for sua sponte en banc
reconsideration, with two describing the tie vote as a
“grievous[ ] fail[ure].” Pet.App.87a. At this juncture,
only this Court can reinstate the important
protections nullified by the Fifth Circuit’s decision.
15

I.

The Fifth Circuit’s decision defies Claiborne
and contravenes bedrock First Amendment
principles.

In overturning the district court’s straightforward
conclusion that respondent’s negligent protest claim
is barred by Claiborne’s stringent rule for derivative
liability in the First Amendment context, the Fifth
Circuit’s opinions offered three distinct, but
overlapping rationales: (1) that recovery was
permissible under Claiborne’s rule for direct liability;
(2) that Claiborne’s intent requirement for derivative
liability may be satisfied by allegations that a protest
leader “directed” something tortious, even if not the
harm-causing behavior; and (3) that a protest leader
loses all First Amendment protection if he does or
directs anything unlawful.
All three rationales fail. First, if this case,
involving injuries inflicted by an unknown thirdparty’s independent violent act, does not trigger the
rule governing liability for “other persons’”
wrongdoing, then nothing does. Second, Claiborne
could hardly be more clear that such derivative
liability is constitutionally permissible only for harms
caused by those “specific tortious activit[ies]” a protest
leader authorizes or directs. 458 U.S. at 927. Third,
Claiborne makes clear that while protest activity is
not immune from all regulation, it may not be subject
to the speech-stifling rules of attenuated damages
liability. No one disputes that Mckesson could be held
responsible for the misdemeanor of impeding traffic
on a public street (or directing others to do so), were
the allegations true. But it does not follow that he
may be held liable for an unidentified person’s violent
16

act he never authorized or incited, merely because the
rock-thrower allegedly was angered by arrests on that
charge. The First Amendment forbids it.
A.

Claiborne squarely forecloses imposing
liability for third-party wrongdoing based
on a protest leader’s negligence.

Claiborne Hardware announced a clear and
definitive rule for suits seeking to hold a protest
leader liable in damages for the “unlawful conduct of
others” in the context of a protest: They are
unconstitutional, unless the leader herself incited,
authorized or otherwise intended the specific harminflicting behavior. See 458 U.S. at 927. The Fifth
Circuit nonetheless held that the absence of any such
culpable connection poses no First Amendment “bar”
to holding petitioner responsible for injuries the
unknown rock-thrower inflicted. Pet.App.22a. It
reasoned that the assault was a “consequence[]” of
petitioner’s “own” “tortious” failure to “conduct” a
protest in a way that took “reasonable care” to avoid
contributing to third-party violence. The negligent
protest theory, the court further insisted, was
constitutional because it applied “a standard aspect of
state law,” that Claiborne “did not “intend[ ] to
…eliminat[e].” Id.16a.
That
conclusion
represents
a
radical
misunderstanding of this Court’s squarely controlling
decision, one that would nullify First Amendment
protections in every case where they matter, including
in Claiborne Hardware itself.
To begin, Claiborne did not, as the majority below
posited, “apply black-letter tort law” to overturn the
17

damages award against Charles Evers. Pet.App.18a.
Rather, this Court held that “the presence of activity
protected by the First Amendment imposes restraints
on the grounds that may give rise to damages liability
and on the persons who may be held accountable for
those damages.” 458 U.S. at 916-17. The Court then
applied that constitutional rule to reject “standard
aspect[s] of [Mississippi] tort law” that would have
been unproblematic in settings not involving First
Amendment activity. The rule is straightforward:
Whatever state law provides, damages liability for
unlawful acts committed in the context of a protest
requires a stringent showing of personal, culpable
involvement. Specifically, a protest leader may
constitutionally be held accountable for harms he
personally “directly and proximately” inflicts and for
those caused by others acts he incited “authorized,
directed, or ratified.” 458 U.S. at 918, 927. Full stop.
Claiborne’s rigorous specific intent requirement
was no slip of the judicial pen. It was the decision’s
central, rigorously supported holding. And it
expressly rested on First Amendment limitations
recognized in historic decisions addressing incitement
and associational liability. Id. at 918-20, 927-28. The
lines of precedent the Court relied upon confronted
almost exactly the same question presented in
Claiborne—and here: whether and how States may
regulate First Amendment activity based on its
contribution to unlawful acts by others. And those
precedents’ answer, arrived at through generations of
struggle, is Claiborne’s: The Constitution forbids
imposing liability for advocacy or association that only
foreseeably leads others to commit unlawful acts;
rather, there must at a minimum be proof a defendant
18

specifically intended the harm to occur. See
Brandenburg, 395 U.S. at 447; Scales, 367 U.S. at 229;
Healy v. James, 408 U.S. 169, 185-86 (1972); cf.
Herndon v. Lowry, 301 U.S. 242, 262 (1937)
(invalidating statute authorizing punishment if a
defendant could have “forecast that, as a result of a
chain of causation” his speech will lead a “group to
resort to force”).
This Court and lower courts, as Judge Willett
explained, have applied these principles in related
settings, rejecting measures that penalize First
Amendment activity based on a judgment that it
contributes to harmful, even seriously criminal
behaviors. See, e.g., Ashcroft v. Free Speech Coal., 535
U.S. 234, 253-57 (2002) (striking down ban on “virtual
child pornography,” notwithstanding congressional
findings that such materials enable sexual abuse of
children); Brown v. Entm’t Merchants Ass’n, 564 U.S.
786, 798 (2011) (invalidating law restricting sales of
video games found to cause young players to behave
aggressively); Byers v. Edmondson, 712 So. 2d 681,
691 (La. App. 1 Cir. 1998) (forbidding negligence claim
based on filmmaker’s contribution to murder, holding
that “[p]roof of intent,” not “mere foreseeability” is
required).4
4 To be clear, the Claiborne rule does not, as the majority
below assumed, confine protester liability to intentional torts. If
a driver of a sound-truck veers onto a sidewalk, injuring a
pedestrian, the driver may be held liable for those damages. The
rule does, however, restrain impositions of derivative liability. If
a citizen attacked a police officer for failing to cite the soundtruck operator for violating a noise ordinance, the officer’s suit
against the driver would be impermissible, even if he could show
such an assault was foreseeable.

19

The version of the “Claiborne rule” the Fifth
Circuit embraced would make the result in Claiborne
Hardware itself inexplicable. It is not true that the
“only potentially tortious conduct at issue [in
Claiborne] was violen[ce],” Pet.App.17a (emphasis
added). Charles Evers did do something that
Mississippi courts held “tortious” and “unlawful”
under state law: he organized a boycott that included
acts and threats of violence. (Indeed, this Court
assumed that such activity could give rise to liability
had it been economically, rather than politically,
motivated, see 458 U.S. at 914). And the damages
verdict this Court held unconstitutional charged
Evers with the “consequences.”
As Judge Willett emphasized, the claim against
Evers could readily have been pleaded under the Fifth
Circuit’s negligent protest theory, claiming that the
losses were a foreseeable consequence of Evers’
breaching a “universal” duty to “conduct” a boycott
free of violence. Such a claim would have been
materially stronger than on the allegations here: The
economic losses on which the Mississippi merchants
recovered were, unlike the personal injuries here,
ones Evers did himself intend; the violent acts
(though not sanctioned by Evers) apparently
contributed to the success of the protest he led, 458
U.S. at 933; and the boycott was conducted through a
formal, hierarchical structure in which the
perpetrators of the violence had a defined, official role.
And Evers ominously reminded boycott defectors that
police could not protect them from retribution in their
homes “at night.” Id. at 902. Here, by contrast, there
is no allegation that Mckesson said anything even
20

remotely supportive of violence; indeed, there is no
allegation as to anything he said during the protest.
The majority and concurrence below strained to
find some basis for distinguishing the two cases,
positing that the cause of action in Claiborne was
invalidated as “content-based,” Pet.App.83a (Ho, J.),
and that this case, unlike Claiborne, involved
“conduct” regulation, id.19a & n.7. Not so. Neither of
the state court opinions in Claiborne gave any
indication that the same damages remedy would have
been unavailable against a Ku Klux Klan leader who
oversaw a boycott of pro-civil-rights businesses that
included comparable instances of violence.5 And the
Mississippi courts did not hold Evers responsible
solely for delivering inflammatory speeches; his
liability was justified by his role as “manager[]” and
“primary leader[]” of the at-times-violent boycott. 458
U.S. at 897, 926. The tort claim here seeks liability
based on petitioner’s leading a street demonstration
calling on officials to discharge their Equal Protection
duties—an activity occupying no less “high [a] rung
[in] the hierarchy of First Amendment [values],”
Carey v. Brown, 447 U.S. 455, 467 (1980), than the
boycott in Claiborne. See Hague v. CIO, 307 U.S. 496,
515 (1939) (Roberts, J.) (noting historic role of streets
for protest).

5

If, by “content-based,” Judge Ho meant only that Evers
would not have been sued had he spoken against the boycott, the
same is true here. Had Mckesson urged protesters to stay home,
he would not have been the demonstration’s “leader,” and suing
him for violence that occurred there would not be merely
unconstitutional. It would be unthinkable.

21

B. Claiborne equally forecloses liability for
third-party harms based on directing some
(different) “tortious activity.”
The Fifth Circuit’s alternative theory for
permitting Mckesson to be sued for respondent’s
personal injuries—because he allegedly directed other
persons’ “tortious and unlawful act” of demonstrating
in the street, in violation of Louisiana Section 14:97—
is no more tenable.
This Court did not hold, as the panel majority
maintained, that the First Amendment may be
“counter[ed]” “simply” by a plaintiff’s alleging that his
“injuries were one of the ‘consequences’ of [some]
‘tortious activity,’” a protest leader “authorized,
directed, or ratified,” Pet.App.15a. Rather, in
language that the opinion below conspicuously
truncated, this Court held that the First Amendment
requires specific intent, not transferred intent. Under
Claiborne, only “a finding that [the leader]
authorized, directed, or ratified specific tortious
activity would justify holding him responsible for the
consequences of that activity.” 458 U.S. at 927
(emphasis added).
Even if leading demonstrators onto a public street
could somehow breach a duty owed respondent, that
was not the specific tortious activity that “proximately
cause[d]” respondent harm. 458 U.S. at 918, 927. He
was injured by a different tortious activity
altogether—the projectile throwing, which Mckesson
concededly did not incite, authorize, or intend. No
speaker of ordinary English would describe
respondent as the “victim” of the highway-impeding—
any more than a police officer slandered while
22

arresting a sit-in protester could claim his
reputational injury was inflicted by an organizer’s
directing a trespass. The manifest concern of Section
14:97 is traffic movement, not rock-throwing—let
alone protecting police officers from the possibility
that an arrest under the statute will incite someone
else to attack an officer.6 Indeed, Louisiana courts
have held that an individual who blocked a car in
order to detain and physically attack its elderly driver
could not be punished under the highway-blocking
law even for his own premeditated violence. See State
v. Winnon, 681 So.2d 463, 468 (La. App. 2d Cir. 1996)
(interpreting provision addressing “aggravated”
violations).
The state appellate decision in Lam v. Ngo, 111
Cal. Rptr. 2d 582 (Cal. Ct. App. 2001), illustrates how
the Claiborne rule properly operates. The court there
recognized that a protest organizer’s violation of a
court-ordered buffer zone could subject him to a
contempt sanction. But it held that that wrongful
activity could not, consistently with the First
Amendment, expose him to liability for other
protesters’ acts of tire-slashing and intimidation—

6 Louisiana, like many jurisdictions, does not treat statutory
violations as automatically “tortious,” recognizing that measures
“may have been designed to protect someone other than the
plaintiff, or to protect the plaintiff from some evil other than the
injury for which recovery is sought.” Boyer v. Johnson, 360 So.2d
1164, 1168–69 (La. 1978). Cf. United States v. Stevens, 559 U.S.
460, 475 (2010) (invalidating statute criminalizing depictions of
“unlawful” animal-killing, noting that laws prohibit killings for
diverse reasons, including ones wholly unrelated to combatting
cruelty).

23

specific unlawful conduct that the leader did not
“authorize[], direct[], or ratif[y].” Id. at 593.
The Claiborne Hardware First Amendment rule is
not a technicality to be “counter[ed]” or “overcome”—
or “dodge[d],” Pet.App.43a, 53a (Willett, J.)—through
artful pleading or semantic ingenuity. It imposes a
stringent limitation on “the grounds” on which and
“persons” on whom States may impose damages
liability for wrongful acts committed in the context of
the First Amendment, 458 U.S. at 916-17, forbidding
damages liability absent a tight “link [between a
defendant’s] role as leader of [a] protest
demonstration [and an] attacker’s violent act.”
Pet.App.43a. The Fifth Circuit’s decision “grievously
failed to … apply th[ose] longstanding protections.”
Pet.App.86a (Dennis, J., dissenting).
C. The
Fifth
Circuit’s
forfeiture-bymisdemeanor
theory
ignores
First
Amendment fundamentals.
The court of appeals’ third justification for
departing from Claiborne—that petitioner allegedly
directed the misdemeanor of protesting in the street—
fares no better. Protesting on a public highway (or
directing others to), the court reasoned, is
“unprotected” against the damages liability sought
here—because it, like the “[t]he use of weapons,
gunpowder, and gasoline,” is “illegal.” Pet.App.16a,
22a (quoting 458 U.S. at 916).7
7 Petitioner was arrested and charged with violating Section
14:97. But the prosecutor dismissed those charges in short
order—and it is a matter of public record that respondent’s
municipal employer settled a civil rights case alleging illegal

24

That thesis, as Judge Willett pointed out,
immediately relegates proud landmarks in the
Nation’s protest tradition to the First Amendment
shadows and misunderstands Claiborne and the
pillars of this Court’s doctrine on which its rule rests.
Civil liability for perpetrating—or authorizing—
“the use of weapons” is constitutionally unproblematic
not because it is criminal, but because it directly
inflicts harms—“consequences”—for which the
weapon-user is personally responsible (and for which
a person directing him is equally culpable), even when
politically motivated. Cf. Rumsfeld v. FAIR, 547 U.S.
47, 65-66 (2006) (affirming that actions do not become
protected “[S]peech” simply because “the person
engaging in the conduct intends thereby to express an
idea”).
But the notion that First Amendment protections
are wholly disabled whenever protest activity offends
some criminal statute is irreconcilable with decisions
dating back generations. As early as Marsh v.
Alabama, 326 U.S. 501 (1946), the Court vindicated
the free speech rights of persons whose exercise
occurred while violating criminal trespass laws. Cf.
Virginia v. Black, 538 U.S. 343 (2003) (vacating on
First Amendment grounds conviction of defendant for
burning a cross on Black family’s private property).
Indeed, in Bartnicki v. Vopper, 532 U.S. 514 (2001),
arrest and agreed, in exchange for dismissal, to pay for
expungement of the record of that arrest and to compensate
petitioner for the time he was detained on that charge. See
Judgment, Mckesson v. Baton Rouge, No. 3:16-cv-00520 (M.D.
La. Oct. 27, 2017).

25

the Court held unconstitutional a civil remedy based
on a violation of a criminal law, notwithstanding that
the
underlying
criminal
prohibition
was
constitutional and that the remedy (unlike here) was
accorded only to the person directly harmed by the
criminal violation.
Nor, contrary to the majority opinion below, can
concerns about avoiding special treatment—or
“immunity”—for wrongs “done for a political reason,”
Pet.App.21a, support carving out an exception to the
Claiborne rule. Claiborne itself is a rule of special
treatment: This Court’s central holding was that the
federal Constitution forbids attributions of liability in
“the presence of [First Amendment] protected
activity,” 458 U.S. at 916-17, that would be
unexceptionable in other contexts. The Court invoked
decisions such as Eastern Railroad Presidents
Conference v. Noerr Motor Freight, Inc., 365 U.S. 127
(1961), which held that general antitrust-law
proscriptions against anticompetitive agreements
could not be applied to petitioning activities, and
NAACP v. Button, 371 U.S. 415 (1963), which
overturned enforcement against civil rights litigators
of a state’s generally permissible professional
regulation.
What this Court’s precedent, properly understood,
requires is not “immunity,” Pet.App.21a, but
“precision of regulation.” Claiborne, 458 U.S. at 916.
Even when pursuing valid and important objectives,
Claiborne affirmed, the government may not “broadly
stifle fundamental personal liberties when the[ir] end
can be more narrowly achieved.” Id. at 920 (quoting
Shelton v. Tucker, 364 U.S. 479, 488 (1960)). That
26

principle allows a State to fine a protest leader who
directs others to impede highway traffic for doing that
and also to impose damages liability on a politically
motivated rock-hurler—but not to make the
trespasser liable in damages for the rock-throwing.
See, e.g., NAACP v. Alabama ex rel. Flowers, 377 U.S.
288, 308 (1964) (invalidating order banishing civil
rights group from State, because illegal conduct at
issue “suggest[ed] no legitimate governmental
objective which [would] require[] such restraint”).
This principle shows the error of assuming, as the
Fifth Circuit did, that the First Amendment allows
holding Mckesson liable for the rock-thrower’s actions
because the ban on impeding traffic is a “time, place,
and manner” restriction. Pet.App.22a. Such measures
are permissible only to the extent they are contentneutral and do not “burden substantially more speech
than is necessary to further the government’s
legitimate interests.” McCullen v. Coakley, 573 U.S.
464, 486 (2014). (Indeed, such laws are subject to
judicial scrutiny because they burden protected
activity.)
Thus, accepting that Section 14:97 is valid and
enforceable does not establish the constitutionality of
the civil liability regime the Fifth Circuit approved,
which makes demonstrating on a public road the
gateway for open-ended damages liability for others’
violent acts. The latter regime has a high “potential
for becoming a means of suppressing a particular
point of view,” see p.32, infra, and is thus “inherently
inconsistent with a valid time, place, and manner
regulation,” Forsyth v. Nationalist Movement, 505
U.S. 123, 130 (1992) (citation omitted). But at the
27

least, justifying so exotic and speech-burdening a
regime would require demonstrating why familiar,
Claiborne-compliant means for addressing violence
are inadequate. See Bartnicki, 532 U.S. at 529 (“The
normal method of deterring unlawful conduct is to
impose an appropriate punishment on the person who
engages in it.”); see also The Florida Star v. B.J.F., 491
U.S. 524 (1989) (invalidating, on narrow-tailoring
grounds, sweeping civil remedy against publisher of
confidential information).
Nor is there anything “[il]logic[al],” Pet.App.21a,
about a First Amendment rule that permits “criminal
liability” for impeding traffic, but not sweeping “civil
liability” for rock-throwing a protest leader did not
support, committed by persons over whom he had no
control. There is a fundamental difference between
direct and derivative liability. And there are many
reasons why “‘[t]he fear of [civil] damage awards ***
may be markedly more inhibiting than the fear of
prosecution under a criminal statute,’” N.Y. Times Co.
v. Sullivan, 376 U.S. 254, 277 (1964)—including that
criminal standards and penalties are fixed in advance
and calibrated to the seriousness of the violation.
This case illustrates the point: It has now reached
its fourth year—and the Fifth Circuit’s main ground
for reinstating respondent’s suit is a “plausible”
allegation
that
Mckesson
committed
a
misdemeanor—notwithstanding that the criminal
charge was dropped in 2016, the record of arrest
expunged, and petitioner (and the other arrested
demonstrators) paid compensation. See n.7, supra.

28

II. The critical importance of the rights
Claiborne secures makes this Court’s
intervention necessary.
This Court’s intervention is needed here for the
same reasons it was in Claiborne: because the rights
at issue are both integral to “self-government,” 458
U.S. at 913, and highly “fragile,” id. at 931. Street
protests have enabled Americans to secure basic
citizenship rights and persuade government officials
to change unwise, unjust, and unconstitutional
policies throughout our nation’s history. Such protests
heighten tension and discomfort. The presence of
third-party violence is no indicator of a leader’s
culpability or of the unworthiness of the views
pressed. Terminiello v. City of Chicago, 337 U.S. 1, 4
(1949) (“[U]nder our system of government,” Free
Speech may “serve its high purpose when it induces a
condition of unrest, creates dissatisfaction with
conditions as they are, or even stirs people to anger.”)
Of the multiple First Amendment errors reflected
in the decision below, the most important may be in
the assertion that “no First Amendment protected
activity [would be] suppressed” by permitting tort
liability in these circumstances. Pet.App.22a. The
fundamental principle driving Claiborne—and the
landmark precedents on which it relies—is that loose
and attenuated liability rules chill the exercise of
First Amendment rights. Rather than safeguarding
“breathing space” for the exercise of constitutional
rights, Sullivan, 376 U.S. at 272, the legal regime the
Fifth Circuit substituted for Claiborne is a veritable
knee on the chest, and “a terrifying deterrent to
legitimate, peaceful First Amendment activity.” Cloer,
29

528 U.S. at 1099 (Scalia, J., dissenting from denial of
cert.).
First, the Fifth Circuit’s constitutional rule
unambiguously permits States to subject protest
leaders to unlimited liability for any unlawful act of
others occurring at demonstrations involving
nonviolent civil disobedience. On that understanding,
many of the Nation’s most celebrated and
consequential exercises of First Amendment rights
would have surrendered all protection against
ruinous personal liability. See, e.g., Brown v.
Louisiana, 383 U.S. 131, 141-42 (1966); Cox v.
Louisiana, 379 U.S. 536 (1965); Taylor v. Louisiana,
370 U.S. 154, 155 (1962). In practice, the Fifth
Circuit’s “criminal violation” exception allows strict
liability for almost every demonstration. The dense
thicket of ordinances enacted to maximize police
officers’ power to make public-order arrests means
“almost anyone can be [accused of] something” in that
setting, Nieves v. Bartlett, 139 S. Ct. 1715, 1730 (2019)
(Gorsuch, J., concurring in part and dissenting in
part).
The Fifth Circuit rule not only dramatically
lowers the culpability requirement Claiborne
established, it fatally undermines the clarity,
certainty, and objectivity that are the cardinal virtues
of this Court’s rule. Under Claiborne, the touchstone
for permissible derivative liability is specific intent: A
leader who does not personally direct, authorize, or
incite violence will not be liable if it occurs. In the
Fifth Circuit, liability depends on a grab-bag of
subjective post-hoc policy judgments by individual
judges and jurors.
30

And, as decided cases attest, the Claiborne rule,
like the First Amendment itself, is viewpoint-neutral.
It offers protection to protesters across the political
spectrum. See Juhl v. Airington, 936 S.W.2d 640, 64243 (Tex. 1996) (citing Claiborne in dismissing
negligence claims against anti-abortion protesters);
Nwanguma v. Trump, 903 F.3d 604, 610 (6th Cir.
2018) (citing Claiborne in affirming dismissal of
negligence suit seeking damages from political
candidate for violent acts committed at campaign
rally). Indeed, it is of particular value to dissenting
protesters—be they same-sex marriage opponents in
Berkeley or gun control proponents in Boise—who
take to the streets to persuade their fellow citizens to
reconsider locally orthodox opinions.
There is no better illustration of the need for
Claiborne protections than the “negligent protesting”
tort the decision below sustained. The theory,
premised on “duties” that “leaders” owe police and
bystanders on a public street, applies particularly to
activity that lies “at the heart of the First
Amendment,” Schenck v. Pro-Choice Network, 519
U.S. 357, 377 (1997). Moreover, the reasons why
“‘[t]he fear of [civil] damage awards *** may be
markedly more inhibiting than the fear of [criminal]
prosecution under a criminal statute,’” Sullivan, 376
U.S. at 277, apply with maximal force.
Citizens who feel passionately enough about an
injustice to risk arrest or misdemeanor fines for
protest activity will balk at damages liability orders of
magnitude larger—based on third party conduct they
cannot control and post-hoc determinations by judges
and juries as to whether liability in any particular
31

case is reasonable as a matter of policy. Such a
radically open-ended regime is the “equivalent of ***
a statute which in terms merely penalize[s] and
punishe[s] all acts detrimental to the public interest
when unjust and unreasonable in the estimation of
the court and jury.” Herndon, 301 U.S. at 263 (quoting
United States v. L. Cohen Grocery Co., 255 U.S. 81, 89
(1921)).
Moreover, any rule that holds protest leaders
personally liable for foreseeable but unintended thirdparty misconduct will have unequal speechsuppressive
effects,
disadvantaging
would-be
protesters with the fewest means and those who
would address subjects that arouse virulent
opposition—or impassioned support or both (or are
particularly unpopular with police). Under the Fifth
Circuit regime, like the one held unconstitutional in
Forsyth County, leaders “wishing to express views”
that stir strong feelings among “bottle throwers ***
[must expect] to pay more.” 505 U.S. at 134.
Indeed, nothing in the majority opinion’s
exposition of the negligence tort confines a leader’s
state-law duty to accounting for unwelcome, but
foreseeable violence on his “side.” As Judge Willett
highlighted, some of the violent acts that occurred at
Dr. King’s 1968 Memphis march—unlike what
occurred in Birmingham—were committed by persons
parading with him. Pet.App.53a-54a. But if liability is
authorized for all violent acts that are a foreseeable
“consequence” of protest tactics precipitating tension
with law enforcement, Dr. King would have been
answerable in damages not only for unlawful conduct
of his allies, but for Bull Connor’s depredations. And
32

if Forsyth County does preempt imposition of tort
liability on a heckler’s-veto basis, the resulting
regime, making a leader personally liable for
foreseeable violent acts of “sympathizers,” would be
viewpoint-based guilt by association, flouting the
principle that a shared belief in an ultimate lawful
goal is an impermissible basis for imposing
responsibility for someone’s else’s wrongdoing. See,
e.g., Noto v. United States, 367 U.S. 290, 299-300
(1961).
Furthermore, vague rules, this Court has often
recognized, not only have powerful chilling effects;
they also invite “discriminatory enforcement.”
Kolender v. Lawson, 461 U.S. 352, 357 (1983). It would
be surprising if a jury determined the various
negligence elements the same way in a case where an
injury arose at a demonstration expressing a locally
popular viewpoint and one where the defendant is
perceived as an “outside activist” and the injured
party, a local police officer. As Snyder v. Phelps
explained, when liability turns on “[a] highly
malleable standard,” there is “a real danger of [the
jury’s] becoming an instrument for the suppression of
[First Amendment activity].” 562 U.S. 443, 458 (2011).
Even when imposition of an adverse jury verdict
is, objectively, a low risk, litigation itself will be a
burdensome ordeal for a protest leader named as a
civil defendant, who has no entitlement to courtprovided counsel. Worse yet, these burdens may be—
and often are—imposed intentionally, for the purpose
of suppressing disfavored points of view. However
imperfectly upheld, prosecutors are under a
constitutional obligation not to initiate cases based on
33

political disagreement. See Wayte v. United States,
470 U.S. 598, 608 (1985). Private parties, in contrast,
may bring suit, select defendants, and make litigation
decisions with the aim of inflicting hardship on
speakers and movements whose political views they
disapprove. See Bill Johnson’s Restaurants, Inc. v.
NLRB, 461 U.S. 731, 744 (1983).8
III. The First Amendment protections the Fifth
Circuit disabled should be reinstated now,
not later.
The clarity and seriousness of the errors below,
and the fragile, but fundamental nature of the rights
at stake, support deciding the question presented
now, either through summary reversal or plenary
review.
This is not a situation where further “percolation”
would be beneficial or justifiable. The First
Amendment issue “percolated” for many years, with
baleful consequences, before this Court decided it in
1982, announcing a clear rule that squarely controls
respondent’s lawsuit. And until the Claiborne rule is
reinstated there, the 33 million residents of Fifth
Circuit States must exercise their First Amendment
rights under the threat of lawsuits and damages
awards this Court has held unconstitutional. Even in
circuits where the Claiborne rule has not been
Justice Gonzalez’s concurrence in Juhl v. Airington
identified a reason why suits by police officers injured on duty
are especially troubling: Protesters whose convictions were held
unconstitutional “could … then be sued by the arresting officers
for negligence”—a “back-door attack [on First Amendment
rights] by state actors.” 936 S.W.2d at 648.
8

34

discarded, the Fifth Circuit’s decision works harm, by
providing protest opponents with a roadmap for
burdensome suits that likewise “dodge” this Court’s
settled precedent and is thus a deterrent to protest.
These disruptive effects should be stanched, not
encouraged.
The most potent effects will occur in “cases” that
never make their way into court, let alone to this
Court. Persons who, as a result of the Fifth Circuit’s
rule, “refrain from exercising their right[]” to
demonstrate, Gooding v. Wilson, 405 U.S. 518, 521
(1972), will not be sued for negligent protesting. And
while vague or overbroad statutory provisions can be
challenged and enjoined before speech is chilled, there
is no plausible mechanism, other than a decision of
this Court, for would-be speakers to obtain judicial
assurance they will be constitutionally protected
against liability for unintended, but foreseeable thirdparty wrongdoing.
Nor, contrary to the suggestions in various
opinions below, are this case’s early procedural
posture, see Pet.App.14a—or the prospect that
petitioner may defeat liability on the facts or on state
law grounds—reason for withholding review. The
First Amendment issue has been conclusively decided,
and there is nothing tentative or fact-specific about
the Fifth Circuit’s resolution of it. Even assuming
petitioner eventually will prevail on some ground, the
First Amendment question here is whether the case
should proceed “at all.” Cox Broadcasting Corp. v.
Cohn, 420 U.S. 469, 485 (1975). It is no small matter
to require petitioner to engage in lengthy litigation
under a rule of law this Court foreclosed decades ago.
35

And the terms of the Fifth Circuit’s remand suggest a
potentially lengthy slog: The majority opinion opened
the door to respondent’s adding new parties and
claims and directed the district court to consider
respondent’s efforts to subject petitioner to discovery
in light of the ruling. See Pet.App.27a & n.11.
“Vindication of freedom of expression [should not]
await the outcome of protracted litigation.”
Dombrowski v. Pfister, 380 U.S. 479, 487 (1965).
Indeed, the plethora of apparent errors regarding
state law identified by Judges Willett, Ho, and
Higginson support the need for review here.9 A victory
for petitioner on state-law grounds would be a defeat
for the First Amendment rights of protesters in the
Fifth Circuit, for whom the divided decision would
remain the binding, final word, leaving protesters
“operating in the shadow of *** a rule of law *** the
constitutionality of which is”—at the least—“in
serious doubt.” Cox, 420 U.S. at 486.
For similar reasons, the scenario that Judge
Willett preferred—where the state supreme court
would have first decided the duty question, thereby
9

As those opinions highlighted, Louisiana tort law does not
impose a “duty to protect others from the criminal activities of
third persons.” Harris v. Pizza Hut of La., Inc., 455 So.2d 1364,
1371 (1984), unless the parties have a preexisting “special
relationship.” Pet.App.32a (Willett, J.). Nor does state law allow
police officers to recover for injuries suffered in performing their
job responsibilities. See, e.g., Bell v. Whitten, 722 So.2d 1057 (La.
Ct. App. 1998); Gann v. Matthews, 873 So.2d 701 (La. Ct. App.
2004); Pet.App.80a-82a (Ho, J., concurring). See also id.87a
(Higginson, J., dissenting from denial) (explaining that risk to
arresting officers is outside any tort duty that Section 14:97 could
impose).

36

(potentially) obviating a First Amendment decision—
no longer has anything to offer. This Court has long
emphasized that the general policies favoring leaving
constitutional questions unresolved do not apply in
the First Amendment setting. It is “intolerable” not
ideal, to “leave unanswered,” Miami Herald Publ’g
Co. v. Tornillo, 418 U.S. 241, 246-47 (1974), important
questions concerning the “limits the First Amendment
places on state” law. Fort Wayne Books, Inc. v.
Indiana, 489 U.S. 46, 56 (1989). But at this point, a
resounding victory on the duty issue under Louisiana
law would not “moot” the First Amendment issue,
Pet.App.31a-32a, but rather cement in place the Fifth
Circuit’s rule (which would still govern Mississippi
and Texas cases)—and put it beyond this Court’s
reach and power to correct.10
CONCLUSION
The petition for a writ of certiorari should be
granted and the Fifth Circuit’s decision summarily
reversed, or, in the alternative, the Court should set
the case for plenary review.

10 Even for Louisiana, a favorable ruling would unlikely be
the panacea Judge Willett envisioned: It would remain possible
that the court would rule for Mckesson in a fact-specific way or a
categorical way that left important questions unanswered: If, for
example, the state court agreed with Judge Ho as to police-officer
plaintiffs, the regime the Fifth Circuit announced would
continue to govern protest-leader liability where an assailant’s
rock-throwing injures an opponent or bystander.

37

Respectfully submitted,
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Ben Wizner
Vera Eidelman
Brian Hauss
Emerson Sykes
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
William P. Gibbens
Ian Atkinson
SCHONEKAS, EVANS, MCGOEY
& MCEACHIN, LLC
909 Poydras Street, Suite 1600
New Orleans, LA 70112

MARCH 2020

38

David T. Goldberg
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON
109 S. 5th Street, Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com
Katie Schwartzmann
Bruce Hamilton
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
OF LOUISIANA
P.O. Box 56157
New Orleans, LA 70156

APPENDIX

1a
In the
United States Court of Appeals for the Fifth Circuit.
No. 17-30864
OFFICER JOHN DOE, Police Officer,
Plaintiff-Appellant
v.
DERAY MCKESSON; BLACK LIVES MATTER;
BLACK LIVES MATTER NETWORK,
INCORPORATED, Defendants-Appellees
Appeal from the United States District Court for the
Middle District of Louisiana
December 16, 2019
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
We WITHDRAW the court’s prior opinion of
August 8, 2019, and substitute the following opinion.
During a public protest against police
misconduct in Baton Rouge, Louisiana, an
unidentified individual hit Officer John Doe with a
heavy object, causing him serious physical injuries.
Following this incident, Officer Doe brought suit
against “Black Lives Matter,” the group associated
with the protest, and DeRay Mckesson, one of the
leaders of Black Lives Matter and the organizer of the
protest. Officer Doe later sought to amend his
complaint to add Black Lives Matter Network, Inc.
and #BlackLivesMatter as defendants. The district
court dismissed Officer Doe’s claims on the pleadings

2a
under Federal Rule of Civil Procedure 12(b)(6), and
denied his motion to amend his complaint as futile.
Because we conclude that the district court erred in
dismissing the case against Mckesson on the basis of
the pleadings, we REMAND for further proceedings
relative to Mckesson. We further hold that the district
court properly dismissed the claims against Black
Lives Matter. We thus REVERSE in part, AFFIRM in
part, and REMAND for further proceedings
consistent with this opinion.
I.
On July 9, 2016, a protest illegally blocked a
public highway in front of the Baton Rouge Police
Department headquarters.1 This demonstration was
one in a string of protests across the country, often
associated with Black Lives Matter, concerning police
practices. The Baton Rouge Police Department
prepared by organizing a front line of officers in riot
gear. These officers were ordered to stand in front of
other officers prepared to make arrests. Officer Doe
was one of the officers ordered to make arrests.
DeRay Mckesson, associated with Black Lives
Matter, was the prime leader and an organizer of the
protest.
In the presence of Mckesson, some protesters
began throwing objects at the police officers.
Specifically, protestors began to throw full water
bottles, which had been stolen from a nearby
convenience store. The dismissed complaint further
1 This case comes to us on a motion to dismiss, so we treat
all well-pleaded facts as true.

3a
alleges that Mckesson did nothing to prevent the
violence or to calm the crowd, and, indeed, alleges
that Mckesson “incited the violence on behalf of
[Black Lives Matter].” The complaint specifically
alleges that Mckesson led the protestors to block the
public highway. The police officers began making
arrests of those blocking the highway and
participating in the violence.
At some point, an unidentified individual picked
up a piece of concrete or a similar rock-like object and
threw it at the officers making arrests. The object
struck Officer Doe’s face. Officer Doe was knocked to
the ground and incapacitated. Officer Doe’s injuries
included loss of teeth, a jaw injury, a brain injury, a
head injury, lost wages, “and other compensable
losses.”
Following the Baton Rouge protest, Officer Doe
brought suit, naming Mckesson and Black Lives
Matter as defendants. According to his complaint, the
defendants are liable on theories of negligence,
respondeat superior, and civil conspiracy. Mckesson
subsequently filed two motions: (1) a Rule 12(b)(6)
motion, asserting that Officer Doe failed to state a
plausible claim for relief against Mckesson; and (2) a
Rule 9(a)(2) motion, asserting that Black Lives
Matter is not an entity with the capacity to be sued.
Officer Doe responded by filing a motion to
amend. He sought leave to amend his complaint to
add factual allegations to his complaint and Black
Lives Matter Network, Inc. and #BlackLivesMatter
as defendants.
II.
The district court granted both of Mckesson’s

4a
motions, treating the Rule 9(a)(2) motion as a Rule
12(b)(6) motion, and denied Officer Doe’s motion for
leave to amend, concluding that his proposed
amendment would be futile. With respect to Officer
Doe’s claims against #BlackLivesMatter, the district
court took judicial notice that it is a “hashtag” and
therefore an “expression” that lacks the capacity to be
sued. With respect to Officer Doe’s claims against
Black Lives Matter Network, Inc., the district court
held that Officer Doe’s allegations were insufficient to
state a plausible claim for relief against this entity.
Emphasizing the fact that Officer Doe attempted to
add a social movement and a “hashtag” as
defendants, the district court dismissed his case with
prejudice. Officer Doe timely appealed.
III.
When considering a motion to dismiss under Rule
12(b)(6), we will not affirm dismissal of a claim unless
the plaintiff can prove no set of facts in support of his
claim that would entitle him to relief. Alexander v.
Verizon Wireless Servs., L.L.C., 875 F.3d 243, 249 (5th
Cir. 2017). “We take all factual allegations as true
and construe the facts in the light most favorable to
the plaintiff.” Id. (citing Kelly v. Nichamoff, 868 F.3d
371, 374 (5th Cir. 2017)). To survive, a complaint
must consist of more than “labels and conclusions” or
“naked assertions devoid of further factual
enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007) (internal quotation marks and
brackets omitted)). Instead, “the plaintiff must plead
enough facts to nudge the claims across the line from
conceivable to plausible.” Hinojosa v. Livingston, 807
F.3d 657, 684 (5th Cir. 2015) (internal quotation

5a
marks, brackets, and ellipses omitted) (quoting Iqbal,
556 U.S. at 680).2
A district court’s denial of a motion to amend is
generally reviewed for abuse of discretion. Thomas v.
Chevron U.S.A., Inc., 832 F.3d 586, 590 (5th Cir.
2016). However, where the district court’s denial of
leave to amend was based solely on futility, we
instead apply a de novo standard of review identical
in practice to the Rule 12(b)(6) standard. Id. When a
party seeks leave from the court to amend and justice
requires it, the district court should freely give it.
Fed. R. Civ. P. 15(a)(2).
Federal Rule of Civil Procedure Rule 9(a)(2) states that, if
a party wishes to raise an issue regarding lack of capacity to be
sued, “a party must do so by a specific denial.” Rule 12(b) does
not specifically authorize a motion to dismiss based on a lack of
capacity. Nonetheless, we have permitted Rule 12(b) motions
arguing lack of capacity. See, e.g., Darby v. Pasadena Police
Dep’t, 939 F.2d 311 (5th Cir. 1992). Where the issue appears on
the face of the complaint, other courts have done the same and
treated it as a Rule 12(b)(6) motion. See, e.g., Klebanow v. N.Y.
Produce Exch., 344 F.2d 294, 296 n.1 (2d Cir. 1965) (“Although
the defense of lack of capacity is not expressly mentioned in
[R]ule 12(b), the practice has grown up of examining it by a
12(b)(6) motion when the defect appears upon the face of the
complaint.”); Coates v. Brazoria Cty. Tex., 894 F. Supp. 2d 966,
968 (S.D. Tex. 2012) (“Whether a party has the capacity to sue or
be sued is a legal question that may be decided at the Rule 12
stage.”); see also 5A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 1294 (3d ed. 2018) (“An
effective denial of capacity ... creates an issue of fact. Such a
denial may be made in the responsive pleading or, if the lack of
capacity ... appears on the face of the pleadings or is discernible
there from, the issue can be raised by a motion to dismiss for
failure to state a claim for relief.” (footnotes omitted)). Thus, we
review the district court’s dismissal for lack of capacity de novo
and apply the Rule 12(b)(6) standard.
2

6a
IV.
We start with whether we have jurisdiction to
hear this case, raising sua sponte its potential
absence. Neither the district court nor any party
addressed this issue in prior proceedings or on appeal.
Officer Doe sued Mckesson and Black Lives Matter.3
The complaint alleges that Black Lives Matter is a
national unincorporated association, Doe v. Mckesson,
272 F. Supp. 3d 841, 849 (M.D. La. 2017), which, for
diversity purposes, is a citizen of every state where a
member is a citizen, Getty Oil Corp. v. Ins. Co. of N.
Am., 841 F.2d 1254, 1258 (5th Cir. 1988). Officer Doe,
as the party invoking federal jurisdiction, bore the
burden of establishing jurisdiction. Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 377
(1994). But the complaint fails to allege with
sufficiency the membership of Black Lives Matter.4
Such failure to establish diversity jurisdiction
normally warrants remand—if there was some reason
to believe that jurisdiction exists, i.e., some reason to
believe both that Black Lives Matter’s citizenship
could be demonstrated with a supplemented record
3 We are addressing here Officer Doe’s claims against Black
Lives Matter Network, Inc., the potential unincorporated
association, not against #BlackLivesMatter, the hashtag.

In his Proposed Amended Complaint, Officer Doe did
allege that Black Lives Matter is a “chapter-based national
unincorporated association that is organized under the laws of
the State of California, though it allegedly is also a partnership
that is a citizen of California and Delaware.” Doe, 272 F. Supp.
3d at 851 (internal quotations omitted). But since an association,
or a partnership for that matter, is considered a citizen of every
state in which its constituent members/partners are citizens,
Officer Doe still failed to allege Black Lives Matter’s citizenship
by omitting the citizenship of its constituent members.
4

7a
and that it is diverse from the plaintiff—or dismissal
of the case. See MidCap Media Fin., LLC v. Pathway
Data, Inc., 929 F.3d 310, 316 (5th Cir. 2019).
Yet we need not resort to either here. Even
assuming arguendo that Black Lives Matter were
nondiverse and thus that the parties were nondiverse
at the time of filing this lawsuit, such “lack of
[diversity] jurisdiction can be cured when the
non-diverse party is dismissed in federal court.” 16
Front Street, L.L.C. v. Miss. Silicon, L.L.C., 886 F.3d
549, 556 (5th Cir. 2018). This “method of curing a
jurisdictional defect ha[s] long been an exception to
the time-of-filing rule.” Grupo Dataflux v. Atlas Glob.
Grp., L.P., 541 U.S. 567, 572 (2004); see, e.g.,
Caterpillar, Inc. v. Lewis, 519 U.S. 61, 73 (1996)
(holding that “diversity became complete” when a
nondiverse party settled and was dismissed from the
case and that therefore “[t]he jurisdictional defect
was cured”) (emphasis removed); McGlothin v. State
Farm Mut. Ins. Co., 925 F.3d 741, 744 (5th Cir. 2019)
(holding that the dismissal of nondiverse defendants
for failure of service of process “created complete
diversity; and, therefore, the district court had
jurisdiction”) (citations omitted).
Here, the district court took judicial notice that
Black Lives Matter was a social movement and
therefore a non-juridical entity lacking the capacity to
be sued. Doe, 272 F. Supp. 3d at 850; see infra Part
V.C. The court subsequently dismissed Black Lives
Matter as a defendant. Doe, 272 F. Supp. 3d at 850. If
complete diversity did not exist before, this dismissal
created the complete diversity (since Officer Doe and
Mckesson are citizens of different states) necessary
for jurisdiction in this case. For that reason, we have

8a
jurisdiction to hear this case.5
V.
A.
We next address Officer Doe’s claims against
DeRay Mckesson. The district court did not reach the
merits of Officer Doe’s underlying state tort claims,
but instead found that Officer Doe failed to plead
facts that took Mckesson’s conduct outside of the
bounds of First Amendment protected speech and
association. Because we ultimately find that
Mckesson’s conduct at this pleading stage was not
necessarily protected by the First Amendment, we
will begin by addressing the plausibility of Officer
Doe’s state tort claims. We will address each of Officer
Doe’s specific theories of liability in turn—vicarious
liability, negligence, and civil conspiracy, beginning
with vicarious liability.
1.
Louisiana Civil Code article 2320 provides that
“[m]asters and employers are answerable for the
damage occasioned by their servants and overseers,
in the exercise of the functions in which they are
employed.” A “servant,” as used in the Civil Code,
“includes anyone who performs continuous service for
another and whose physical movements are subject to
the control or right to control of the other as to the
manner of performing the service.” Ermert v.
Hartford Ins. Co., 559 So. 2d 467, 476 (La. 1990).
Officer Doe’s vicarious liability theory fails at the
5

All three judges on this panel agree with this conclusion.

9a
point of our beginning because he does not allege facts
that support an inference that the unknown assailant
“perform[ed] a continuous service” for, or that the
assailant’s “physical movements [were] subject to the
control or right to control” of, Mckesson. Therefore,
under the pleadings, Mckesson cannot be held liable
under a vicarious liability theory.
2.
We now move on to address Officer Doe’s civil
conspiracy theory. Civil conspiracy is not itself an
actionable tort. Ross v. Conoco, Inc., 828 So. 2d 546,
552 (La. 2002). Instead, it assigns liability arising
from the existence of an underlying unlawful act. Id.
In order to impose liability for civil conspiracy in
Louisiana, a plaintiff must prove that (1) an
agreement existed with one or more persons to
commit an illegal or tortious act; (2) the act was
actually committed; (3) the act resulted in plaintiff’s
injury; and (4) there was an agreement as to the
intended outcome or result. Crutcher-Tufts Res., Inc.
v. Tufts, 992 So. 2d 1091, 1094 (La. Ct. App. 2008); see
also La. Civ. Code art. 2324. “Evidence of ... a
conspiracy can be actual knowledge, overt actions
with another, such as arming oneself in anticipation
of apprehension, or inferred from the knowledge of
the alleged co-conspirator of the impropriety of the
actions taken by the other co-conspirator.” Stephens v.
Bail Enf’t, 690 So. 2d 124, 131 (La. Ct. App. 1997).
Officer Doe’s complaint is vague about the
underlying conspiracy to which Mckesson agreed, or
with whom such an agreement was made. In his
complaint, Officer Doe refers to a conspiracy “to incite
a riot/protest.” Disregarding Officer Doe’s conclusory
allegations, we find that Officer Doe has not alleged

10a
facts that would support a plausible claim that
Mckesson can be held liable for his injuries on a
theory of civil conspiracy. Although Officer Doe has
alleged facts that support an inference that Mckesson
agreed with unnamed others to demonstrate illegally
on a public highway, he has not pled facts that would
allow a jury to conclude that Mckesson colluded with
the unknown assailant to attack Officer Doe or knew
of the attack and specifically ratified it. The closest
that Officer Doe comes to such an allegation is when
he states that Mckesson was “giving orders”
throughout the demonstration. But we cannot infer
from this quite unspecific allegation that Mckesson
ordered the unknown assailant to attack Officer Doe.
Lacking an allegation of this pleading quality, Officer
Doe’s conspiracy claim must and does fail.
3.
Finally, we turn to Officer Doe’s negligence
theory. Officer Doe alleges that Mckesson was
negligent for organizing and leading the Baton Rouge
demonstration because he “knew or should have
known” that the demonstration would turn violent.
We agree as follows.
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.” The Louisiana Supreme Court has adopted
a “duty-risk” analysis for assigning tort liability
under a negligence theory. This theory requires a
plaintiff to establish that (1) the plaintiff suffered an
injury; (2) the defendant owed a duty of care to the
plaintiff; (3) the duty was breached by the defendant;
(4) the conduct in question was the cause-in-fact of
the resulting harm; and (5) the risk of harm was

11a
within the scope of protection afforded by the duty
breached. Lazard v. Foti, 859 So. 2d 656, 659 (La.
2003). Whether a defendant owes a plaintiff a duty is
a question of law. Posecai v. Wal-Mart Stores, Inc.,
752 So. 2d 762, 766 (La. 1999); see Bursztajn v. United
States, 367 F.3d 485, 489 (5th Cir. 2004) (“Under
Louisiana law, the existence of a duty presents a
question of law that ‘varies depending on the facts,
circumstances, and context of each case and is limited
by the particular risk, harm, and plaintiff involved.’ ”
(quoting Dupre v. Chevron U.S.A., Inc., 20 F.3d 154,
157 (5th Cir. 1994))). There is a “universal duty on the
part of the defendant in negligence cases to use
reasonable care so as to avoid injury to another.”
Boykin v. La. Transit Co., 707 So. 2d 1225, 1231 (La.
1998). Louisiana courts elucidate specific duties of
care based on consideration of
various moral, social, and economic factors,
including the fairness of imposing liability; the
economic impact on the defendant and on
similarly situated parties; the need for an
incentive to prevent future harm; the nature of
defendant’s activity; the potential for an
unmanageable flow of litigation; the historical
development of precedent; and the direction in
which society and its institutions are evolving.
Posecai, 752 So. 2d at 766.
We first note that this case comes before us from a
dismissal on the pleadings alone. In this context, we
find that Officer Doe has plausibly alleged that
Mckesson breached his duty of reasonable care in the
course of organizing and leading the Baton Rouge
demonstration. The complaint alleges that Mckesson

12a
planned to block a public highway as part of the
protest. And the complaint specifically alleges that
Mckesson was in charge of the protests and was seen
and heard giving orders throughout the day and night
of the protests. Blocking a public highway is a
criminal act under Louisiana law. See La. Rev. Stat.
Ann. § 14:97. Indeed, the complaint alleges that
Mckesson himself was arrested during the
demonstration. It was patently foreseeable that the
Baton Rouge police would be required to respond to
the demonstration by clearing the highway and, when
necessary, making arrests. Given the intentional
lawlessness of this aspect of the demonstration,
Mckesson should have known that leading the
demonstrators onto a busy highway was likely to
provoke a confrontation between police and the mass
of demonstrators, yet he ignored the foreseeable
danger to officers, bystanders, and demonstrators,
and notwithstanding, did so anyway.
By ignoring the foreseeable risk of violence that
his actions created, Mckesson failed to exercise
reasonable care in conducting his demonstration.
This is not, as the dissenting opinion contends, a
“duty to protect others from the criminal activities of
third persons.” See Posecai, 752 So. 2d at 766.
Louisiana does not recognize such a duty. It does,
however, recognize a duty not to negligently cause a
third party to commit a crime that is a foreseeable
consequence of negligence. See Brown v. Tesack, 566
So. 2d 955 (La. 1990). The former means a business
owner has no duty to provide security guards in its
parking lot if there is a very low risk of crime. See
Posecai, 752 So. 2d at 770. The latter means a school
can be liable when it negligently disposes of
flammable material in an unsecured dumpster and

13a
local children use the liquid to burn another child. See
Brown, 566 So. 2d at 957. That latter rule applies
here too: Mckesson owed Doe a duty not to negligently
precipitate the crime of a third party. And a jury could
plausibly find that a violent confrontation with a
police officer was a foreseeable effect of negligently
directing a protest.6
Officer Doe has also plausibly alleged that
Mckesson’s breach of duty was the cause-in-fact of
Officer Doe’s injury and that the injury was within
the scope of the duty breached by Mckesson. It may
have been an unknown demonstrator who threw the
hard object at Officer Doe, but by leading the
demonstrators onto the public highway and
provoking a violent confrontation with the police,
Mckesson’s negligent actions were the “but for”
causes of Officer Doe’s injuries. See Roberts v. Benoit,
605 So. 2d 1032, 1052 (La. 1992) (“To meet the
cause-in-fact element, a plaintiff must prove only that
the conduct was a necessary antecedent of the
accident, that is, but for the defendant’s conduct, the
incident probably would not have occurred.”).
Furthermore, as the purpose of imposing a duty on
Mckesson in this situation is to prevent foreseeable
violence to the police and bystanders, Officer Doe’s
injury, as alleged in the pleadings, was within the
scope of the duty of care allegedly breached by
Mckesson.
The dissenting opinion attempts to distinguish Brown by
pointing out that “we are dealing with the criminal acts of an
adult, not a child.” But the dissenting opinion does not explain
why the child/adult distinction should matter. The potential for
future violent actions by adults can be just as foreseeable as the
potential for future violent actions by children.
6

14a
The amended complaint only bolsters these
conclusions. It specifically alleges that Mckesson led
protestors down a public highway in an attempt to
block the interstate. The protestors followed. During
this unlawful act, Mckesson knew he was in violation
of law and livestreamed his arrest. Finally, the
plaintiff’s injury was suffered during this unlawful
action. The amended complaint alleges that it was
during this struggle of the protestors to reach the
interstate that Officer Doe was struck by a piece of
concrete or rock-like object. It is an uncontroversial
proposition of tort law that intentionally breaking,
and encouraging others to break, the law is relevant
to the reasonableness of one’s actions.
We iterate what we have previously noted: Our
ruling at this point is not to say that a finding of
liability will ultimately be appropriate. At the motion
to dismiss stage, however, we are simply required to
decide whether Officer Doe’s claim for relief is
sufficiently plausible to allow him to proceed to
discovery. We find that it is.
B.
Having concluded that Officer Doe has stated a
plausible claim for relief against Mckesson under
state tort law, we will now take a step back and
address the district court’s determination that Officer
Doe’s complaint should be dismissed based on the
First Amendment. The Supreme Court has made
clear that “[t]he First Amendment does not protect
violence.” N.A.A.C.P. v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). Nonetheless, the district court
dismissed the complaint on First Amendment
grounds, reasoning that “[i]n order to state a claim
against Mckesson to hold him liable for the tortious

15a
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
‘authorized, directed, or ratified specific tortious
activity.’” Doe, 272 F. Supp. 3d at 847 (quoting
Claiborne Hardware, 458 U.S. at 927). The district
court then went on to find that there were no
plausible allegations that Mckesson had done so in
his complaint.
The district court appears to have assumed that
in order to state a claim that Mckesson was liable for
his injuries, Officer Doe was required to allege facts
that created an inference that Mckesson directed,
authorized, or ratified the unknown assailant’s
specific conduct in attacking Officer Doe. This
assumption, however, does not fit the situation we
address today. Even if we assume that Officer Doe
seeks to hold Mckesson “liable for the unlawful
conduct of others” within the meaning of Claiborne
Hardware, the First Amendment would not require
dismissal of Officer Doe’s complaint. 458 U.S. at 927.
In order to counter Mckesson’s First Amendment
defense at the pleading stage, Officer Doe simply
needed to plausibly allege that his injuries were one
of the “consequences” of “tortious activity,” which
itself was “authorized, directed, or ratified” by
Mckesson in violation of his duty of care. See id. (“[A]
finding that [the defendant] authorized, directed, or
ratified specific tortious activity would justify holding
him responsible for the consequences of that
activity.”). Our discussion above makes clear that
Officer Doe’s complaint does allege that Mckesson
directed the demonstrators to engage in the criminal
act of occupying the public highway, which quite
consequentially provoked a confrontation between the

16a
Baton Rouge police and the protesters, and that
Officer Doe’s injuries were the foreseeable result of
the tortious and illegal conduct of blocking a busy
highway.
We focus here on the fact that Mckesson
“directed ... specific tortious activity” because we hold
that Officer Doe has adequately alleged that his
injuries were the result of Mckesson’s own tortious
conduct in directing an illegal and foreseeably violent
protest. In Mckesson’s petition for rehearing, he
expresses concern that the panel opinion permits
Officer Doe to hold him liable for the tortious conduct
of others even though Officer Doe merely alleged that
he was negligent, and not that he specifically
intended that violence would result. We think that
Mckesson’s criticisms are misplaced. We perceive no
constitutional issue with Mckesson being held liable
for injuries caused by a combination of his own
negligent conduct and the violent actions of another
that were foreseeable as a result of that negligent
conduct. The permissibility of such liability is a
standard aspect of state law. See Restatement (Third)
of Torts: Liability for Physical and Emotional Harm
§ 19 (2010) (“The conduct of a defendant can lack
reasonable care insofar as it foreseeably combines
with or permits the improper conduct of the plaintiff
or a third party.”). There is no indication in Claiborne
Hardware or subsequent decisions that the Supreme
Court intended to restructure state tort law by
eliminating this principle of negligence liability.
A close reading of Claiborne Hardware makes
this clear. In that case, the Mississippi Supreme
Court had found defendants liable for malicious
interference with plaintiff’s business when they

17a
executed a sustained boycott against white-owned
businesses for the purpose of securing “equal rights
and opportunities for Negro citizens.” See Claiborne
Hardware, 458 U.S. at 899 (internal quotations
omitted). That holding depended on the conclusion
that “force, violence, or threats” were present. See id.
at 895 (citing 393 So. 2d 1290, 1301 (Miss. 1980)).
This was a departure from the holding of the state
chancery court. As the United States Supreme Court
clarified, “[t]he Mississippi Supreme Court did not
sustain the chancellor’s imposition of liability on a
theory that state law prohibited a nonviolent,
politically motivated boycott.” Id. at 915. This
distinction is key: Before the United States Supreme
Court, the only unlawful activities at issue involved
“force, violence, or threats.” If the “force, violence,
[and] threats” had been removed from the boycott, the
remaining conduct would not have been tortious at
all.
This posture is central to understanding what
Claiborne Hardware did, and more importantly, did
not, hold. When Claiborne Hardware speaks of
violence, it speaks of the only unlawful activity at
issue in the case. Consider its observation that
“[w]hile the State legitimately may impose damages
for the consequences of violent conduct, it may not
award compensation for the consequences of
nonviolent, protected activity.” Id. at 918. It could not
award compensation for the consequences of
nonviolent activity because the only potentially
tortious conduct at issue was violent. Indeed, the
court expressly declined to reach the question of how
it would have ruled if the nonviolent aspects of the
boycott had been found to be tortious violations of an
appropriately tailored state law. See id. at 915 n.49.

18a
Yet the dissenting opinion reads Claiborne
Hardware as creating a broad categorical rule:
“Claiborne Hardware ... insulates nonviolent
protestors from liability for others’ conduct when
engaging in political expression, even intentionally
tortious conduct, not intended to incite immediate
violence.” How does it reach this conclusion? It relies
on the Claiborne Hardware chancery court opinion
that grounded liability in nonviolent protest. But the
Mississippi Supreme Court and the United States
Supreme Court grounded liability solely in the
presence of “force, violence or threats.” Id. at 895. The
United States Supreme Court did not invent a
“violence/nonviolence distinction” when it explained
that “[w]hile the State legitimately may impose
damages for the consequences of violent conduct, it
may not award compensation for the consequences of
nonviolent, protected activity.” Id. at 918. It merely
applied black-letter tort law: Because the only
tortious conduct in Claiborne Hardware was violent,
no nonviolent conduct could have proximately caused
the plaintiff’s injury. See id. (“Only those losses
proximately caused by unlawful conduct may be
recovered.”).
For the same reason, the Claiborne Hardware
opinion makes frequent reference to unlawful conduct
when, under the dissenting opinion’s view, it should
have spoken of violence. See, e.g., id. at 920 (“For
liability to be imposed by reason of association alone,
it is necessary to establish that the group itself
possessed unlawful goals and that the individual held
a specific intent to further those illegal aims.”); id. at
925 (“There is nothing unlawful in standing outside a
store and recording names.”); id. at 926
(“Unquestionably, these individuals may be held

19a
responsible for the injuries that they caused; a
judgment tailored to the consequences of their
unlawful conduct may be sustained.”); id. at 927
(“There are three separate theories that might justify
holding Evers liable for the unlawful conduct of
others.”); id. at 933 (“At times the difference between
lawful and unlawful collective action may be
identified easily by reference to its purpose.”). In
every instance, if the Court were creating a
violence/nonviolence distinction it would have
replaced “unlawful” with “violent.” It did not, because
it created no such demarcation. Rather, it addressed
the case before it, where the only tortious conduct was
violent.7
This supposed violence/nonviolence distinction
also does not square with the case law. Take New
York Times Co. v. Sullivan, 376 U.S. 254 (1964). That
case held that a public officer cannot “recover[]
damages for a defamatory falsehood relating to his
official conduct unless he proves that the statement
The dissenting opinion concedes that the First
Amendment does not “protect[] individuals from all liability as
long as their speech was nonviolent.” Rather, the dissenting
opinion contends, “Claiborne Hardware supports the proposition
that an individual cannot be held liable for violence if his speech
did not ‘authorize[], direct[], or ratif[y]’ violence.” But the basis of
potential liability in this case is Mckesson’s actions and conduct
in directing the illegal demonstration, not his speech and
advocacy. Elsewhere, the dissenting opinion describes its thesis
this way: “encouraging [] unlawful activity cannot expose
Mckesson to liability for violence because he didn’t instruct
anyone to commit violence.” But that still overreads Claiborne
Hardware; if this were the rule, then a protest leader who
directs protesters to occupy an empty business could not be held
liable for a violent confrontation that foreseeably follows
between a protester and a business owner or police officer.
7

20a
was made with ‘actual malice’—that is, with
knowledge that it was false or with reckless disregard
of whether it was false or not.” Id. at 279-80. But
defamation is a nonviolent tort, and statements made
about public officers are often shouted during political
protests. If the dissenting opinion’s interpretation is
correct, then it would seem that even the narrow
“actual malice” exception to immunity was eliminated
by Claiborne Hardware, at least for statements made
during a protest.
Neither do recent cases vindicate this
understanding. The Seventh Circuit examined a
boycott similar to the one in Claiborne Hardware, this
time a boycott by a union of a hotel and those doing
business with the hotel. See 520 S. Mich. Ave. Assocs.,
Ltd. v. Unite Here Local 1, 760 F.3d 708 (7th Cir.
2014). The court found that it was “undisputed that
the Union delegations all attempted to communicate
a message on a topic of public concern.” Id. at 723. But
the court nonetheless held that the boycotters could
be found liable if they had crossed the line into illegal
coercion, because “prohibiting some of the Union’s
conduct under the federal labor laws would pose no
greater obstacle to free speech than that posed by
ordinary trespass and harassment laws.” Id. The
court’s benchmark for liability was illegality, not
violence. The court concluded that if “the Union’s
conduct in this case is equivalent to secondary
picketing, and inflicts the same type of economic
harm, it too may be prohibited without doing any
harm to First Amendment liberties.” Id. The
dissenting opinion cannot be squared with this
outcome.
Finally, the violence/nonviolence distinction does

21a
not make sense. Imagine protesters speaking out on a
heated political issue are marching in a downtown
district. As they march through the city, a protester
jaywalks. To avoid the jaywalker, a car swerves off
the street, and the driver is seriously injured. If the
dissenting opinion’s interpretation of Claiborne
Hardware is correct, the First Amendment provides
an absolute defense to liability for the jaywalker in a
suit by the driver. The dissenting opinion says that
“preventing tortious interference is not a proper
justification for restricting free speech (unlike
preventing violence)” because Claiborne Hardware
cemented a “violence/nonviolence distinction.” The
theory seems to be that because tortious interference
is nonviolent, it cannot be tortious if done for a
political reason. So too with every nonviolent tort?
What about nonviolent criminal offenses done for a
political reason? The dissenting opinion does not
seem to believe that engaging in a protest provides a
protestor immunity for violating La. Rev. Stat. Ann.
§ 14:97. What is the logic behind immunizing
protestors from nonviolent civil liability while
retaining their nonviolent criminal liability?8
We of course acknowledge that Mckesson’s
negligent conduct took place in the context of a
political protest. It is certainly true that “the presence
of activity protected by the First Amendment imposes
restraints on the grounds that may give rise to
damages liability and on the persons who may be held
accountable for those damages.” Claiborne Hardware,
458 U.S. at 916-17. But Claiborne Hardware does not
The dissenting opinion does not engage with our reading
of Claiborne Hardware, nor does it grapple with the staggering
consequences of its approach.
8

22a
insulate the petitioner from liability for his own
negligent conduct simply because he, and those he
associated with, also intended to communicate a
message. See id. at 916 (“[T]he use of weapons,
gunpowder, and gasoline may not constitutionally
masquerade under the guise of advocacy.” (internal
quotation
marks
and
citations
omitted)).
Furthermore, although we do not understand the
petitioner to be arguing that the Baton Rouge police
violated the demonstrators’ First Amendment rights
by attempting to remove them from the highway, we
note that the criminal conduct allegedly ordered by
Mckesson was not itself protected by the First
Amendment, as Mckesson ordered the demonstrators
to violate a reasonable time, place, and manner
restriction by blocking the public highway. See Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 293
(1984) (reasonable time, place, and manner
restrictions do not violate the First Amendment). As
such, no First Amendment protected activity is
suppressed by allowing the consequences of
Mckesson’s conduct to be addressed by state tort law.
Thus, on the pleadings, which must be read in a
light most favorable to Officer Doe, the First
Amendment is not a bar to Officer Doe’s negligence
theory. The district court erred by dismissing Officer
Doe’s complaint—at the pleading stage—as barred by
the First Amendment. 9 We emphasize that this
9 We emphasize, however, that our opinion does not suggest
that the First Amendment allows a person to be punished, or
held civilly liable, simply because of his associations with others,
unless it is established that the group that the person associated
with “itself possessed unlawful goals and that the individual
held a specific intent to further those illegal aims.” Claiborne
Hardware, 458 U.S. at 920. But we also observe that, in any

23a
means only that, given the facts that Doe alleges, he
could plausibly succeed on this claim. We make no
statement (and we cannot know) whether he will.
C.
Now we turn our attention to whether Officer Doe
has stated a claim against Black Lives Matter. The
district court took judicial notice that “‘Black Lives
Matter,’ as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African-American
citizens by law enforcement officers.” Based on this
conclusion, the district court held that Black Lives
Matter is not a “juridical person” capable of being
sued. See Ermert, 559 So. 2d at 474. We first address
the district court’s taking of judicial notice, then
Black Lives Matter’s alleged capacity to be sued.
Federal Rule of Evidence 201 provides that a
court may take judicial notice of an “adjudicative fact”
if the fact is “not subject to reasonable dispute” in that
it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate
and ready determination by resort to sources whose
accuracy cannot be questioned. Fed. R. Evid. 201(b).
“Rule 201 authorizes the court to take notice only of
‘adjudicative facts,’ not legal determinations.” Taylor
v. Charter Med. Corp., 162 F.3d 827, 831 (5th Cir.
event, Officer Doe’s allegations are sufficient to state a claim
that Black Lives Matter “possessed unlawful goals” and that
Mckesson “held a specific intent to further those illegal aims.”
See id. Officer Doe alleges that Black Lives Matter “plann[ed] to
block a public highway,” and, in his amended complaint, that
Mckesson and Black Lives Matter traveled to Baton Rouge “for
the purpose of ... rioting.” (emphasis added).

24a
1998). In Taylor, we held that another court’s
state-actor determination was not an “adjudicative
fact” within the meaning of Rule 201 because
“[w]hether a private party is a state actor for the
purposes of § 1983 is a mixed question of fact and law
and is thus subject to our de novo review.” Id. at
830-31. We further held that the state-actor
determination was not beyond reasonable dispute
where it “was, in fact, disputed by the parties” in the
related case. Id. at 830.
We think that the district court was incorrect to
take judicial notice of a mixed question of fact and law
when it concluded that Black Lives Matter is a “social
movement, rather than an organization or entity of
any sort.” The legal status of Black Lives Matter is
not immune from reasonable dispute; and, indeed, it
is disputed by the parties—Doe claiming that Black
Lives Matter is a national unincorporated
association, and Mckesson claiming that it is a
movement or at best a community of interest. This
difference is sufficient under our case law to preclude
judicial notice.
We should further say that we see the cases
relied on by the district court as distinguishable. Each
deals with judicial notice of an aspect of an entity, not
its legal form. See United States v. Parise, 159 F.3d
790, 801 (3d Cir. 1998) (holding that the court could
take judicial notice of the aims and goals of a
movement); Atty. Gen. of U.S. v. Irish N. Aid. Comm.,
530 F. Supp. 241, 259-60 (S.D.N.Y. 1981) (stating the
court could take “notice that the IRA is a ‘Republican
movement,’ at least insofar as it advocates a united
Ireland” (emphasis added)); see also Baggett v. Bullitt,
377 U.S. 360, 376 n.13 (1964) (noting that “[t]he lower

25a
court took judicial notice of the fact that the
Communist Party of the United States ... was a part
of the world Communist movement” (emphasis
added)).
Now, we move on to discuss the merits of Officer
Doe’s contention that Black Lives Matter is a suable
entity. He alleges that Black Lives Matter “is a
national unincorporated association with chapter [sic]
in many states.” Under Federal Rule of Civil
Procedure 17(b), the capacity of an entity “to sue or be
sued is determined ... by the law of the state where
the court is located.” Under Article 738 of the
Louisiana
Code
of
Civil
Procedure,
“an
unincorporated association has the procedural
capacity to be sued in its own name.” The Louisiana
Supreme Court has held that “an unincorporated
association is created in the same manner as a
partnership, by a contract between two or more
persons to combine their efforts, resources, knowledge
or activities for a purpose other than profit or
commercial benefit.” Ermert, 559 So. 2d at 473.
“Interpretation of a contract is the determination of
the common intent of the parties.” La. Civ. Code Ann.
art. 2045. To show intent, “the object of the contract of
association must necessarily be the creation of an
entity whose personality ‘is distinct from that of its
members.’” Ermert, 559 So. 2d at 474 (quoting La.
Civ. Code Ann. art. 24). Louisiana law does not
provide for a public display of the parties’ intent. Id.
Louisiana courts have looked to various factors
as indicative of an intent to create an unincorporated
association, including requiring dues, having
insurance, ownership of property, governing
agreements, or the presence of a formal membership

26a
structure. See Bogue Lusa Waterworks Dist. v. La.
Dep’t of Envtl. Quality, 897 So. 2d 726, 728-29 (La. Ct.
App. 2004) (relying on organization’s unfiled articles
of incorporation); Friendship Hunting Club v.
Lejeune, 999 So. 2d 216, 223 (La. Ct. App. 2008)
(relying on organization’s required dues and
possession of an insurance policy); see also Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc.,
686 F. Supp. 2d 663, 675 (E.D. La. 2010) (relying on
organization’s formal and determinate membership
structure). Lacking at least some of these indicators,
Louisiana courts have been unwilling to find an
intent to create an unincorporated association. See,
e.g., Ermert, 559 So. 2d at 474-75 (finding that
hunting group was not an unincorporated association
because it did not own or lease the property that it
was based on, required the permission of one of its
alleged members to use the property, and lacked
formal rules or bylaws).
Officer Doe has not shown in his complaint a
plausible inference that Black Lives Matter is an
unincorporated association. His only allegations are
that Black Lives Matter: (1) was created by three
women; (2) has several leaders, including Mckesson;
(3) has chapters in many states; and (4) was involved
in numerous protests in response to police practices.
He does not allege that it possesses property, has a
formal membership, requires dues, or possesses a
governing agreement. As such, the complaint lacks
any indication that Black Lives Matter possesses the
traits that Louisiana courts have regarded as
indicative of an intent to establish a juridical entity.
We have no doubt that Black Lives Matter involves a
number of people working in concert, but “an
unincorporated association .... does not come into

27a
existence or commence merely by virtue of the
fortuitous creation of a community of interest or the
fact that a number of individuals have simply acted
together.” Id. at 474. Therefore, we find that the
district court did not err in concluding that Officer
Doe’s complaint has failed plausibly to allege that
Black Lives Matter is an entity capable of being
sued.10
VI.
In sum, we hold that Officer Doe has not
adequately alleged that Mckesson was vicariously
liable for the conduct of the unknown assailant or
that Mckesson entered into a civil conspiracy with the
purpose of injuring Officer Doe. We do find, however,
that Officer Doe adequately alleged that Mckesson is
liable in negligence for organizing and leading the
Baton Rouge demonstration to illegally occupy a
highway. We further find that in this context the
district court erred in dismissing the suit on First
Amendment grounds. As such, Officer Doe has
pleaded a claim for relief against DeRay Mckesson in
his active complaint. 11 The district court therefore
erred by concluding that it would be futile for Doe to
amend his complaint. We also hold that the district
10 We do not address whether Officer Doe could state a
claim against an entity whose capacity to be sued was plausibly
alleged, nor do we address whether Mckesson could be held
liable for the actions of that entity under state law.

Officer Doe has complained of the lack of discovery in this
case, particularly related to his claims against the corporate
defendants. Officer Doe is free to argue before the district court
that he is entitled to discovery. The district court may then
decide whether, in the light of our remand, discovery would be
appropriate.
11

28a
court erred by taking judicial notice of the legal status
of “Black Lives Matter,” but nonetheless find that
Officer Doe did not plead facts that would allow us to
conclude that Black Lives Matter is an entity capable
of being sued. Therefore, the judgment of the district
court is AFFIRMED in part, REVERSED in part, and
the case is REMANDED for further proceedings
consistent with this opinion.12
12 On appeal, Officer Doe also argues that the district court
erred in denying his request to proceed anonymously as John
Doe. He argues that the public nature of his job puts him and his
family in danger of additional violence. At the district court, he
listed a number of examples of acts of violence against police
officers by individuals who may have some connection with
Black Lives Matter. In its order, the district court walked
through three factors common to anonymous-party suits that we
have said “deserve considerable weight.” Doe v. Stegall, 653 F.2d
180, 186 (5th Cir. 1981). These are: (1) whether the plaintiff is
“challeng[ing] governmental activity”; (2) whether the plaintiff
will be required to disclose information “of the utmost intimacy”;
and (3) whether the plaintiff will be “compelled to admit [his]
intention to engage in illegal conduct, thereby risking criminal
prosecution.” Id. at 185. The district court concluded that none of
these factors applied to the facts of this case. In response to
Officer Doe’s argument regarding potential future violence, the
district court noted that the incidents Officer Doe listed did not
involve Officer Doe and were not related to this lawsuit. In fact,
at oral argument before the district court regarding his motion,
Officer Doe conceded that he had received no particularized
threats of violence since filing his lawsuit. The district court
instead saw the incidents Officer Doe listed as evidence of “the
generalized threat of violence that all police officers face.” As a
result, the district found that Doe had not demonstrated a
privacy interest that outweighs the “customary and
constitutionally embedded presumption of openness in judicial
proceedings.” Id. at 186. We agree with the district court and
affirm the denial of Doe’s motion to proceed anonymously. In so
holding, we emphasize what the Supreme Court said decades
ago: “What transpires in the court room is public property.”

29a
AFFIRMED in part, REVERSED in part, and
REMANDED.

Craig v. Harney, 331 U.S. 367, 374 (1947).

30a

DON R. WILLETT, Circuit Judge, concurring in part,
dissenting in part:
I originally agreed with denying Mckesson’s First
Amendment defense. 1 But I have had a judicial
change of heart. Further reflection has led me to see
this case differently, as explained below. Admittedly,
judges aren’t naturals at backtracking or
about-facing. But I do so forthrightly. Consistency is a
cardinal judicial virtue, but not the only virtue. In my
judgment, earnest rethinking should underscore,
rather than undermine, faith in the judicial process.
As Justice Frankfurter elegantly put it 70 years ago,
“Wisdom too often never comes, and so one ought not
to reject it merely because it comes late.”2
***
Officer John Doe was honoring his oath to serve
and protect the people of Baton Rouge when an
unidentified violent protestor hurled a rock-like
object at his face. Officer Doe risked his life to keep
his community safe that day—same as every other
day he put on the uniform. He deserves justice.
Unquestionably, Officer Doe can sue the rock
thrower. But I am unconvinced he can sue the protest
leader. First, it is unclear whether DeRay Mckesson
owed Officer Doe a duty under Louisiana law to
protect him from the criminal acts of others. I would
certify
that
threshold—and
potentially
1 Doe v. Mckesson, 922 F.3d 604 (5th Cir.), superseded on
panel rehearing, 935 F.3d 253 (5th Cir. 2019) (Mckesson II).

Henslee v. Union Planters Nat. Bank & Trust Co., 335
U.S. 595, 600 (1949) (Frankfurter, J., dissenting).
2

31a
dispositive—issue to the Supreme Court of Louisiana.
Second, the Constitution that Officer Doe swore to
protect itself protects Mckesson’s rights to speak,
assemble, associate, and petition. First Amendment
freedoms, of course, are not absolute—and there’s the
rub: Did Mckesson stray from lawfully exercising his
own rights to unlawfully exorcising Doe’s. I don’t
believe he did.3
I.
Respectfully, the majority opinion is too quick to
conclude that Mckesson’s organization and leadership
of the Black Lives Matter protest amounted to
negligence. Under Louisiana law, a person generally
has “no duty to protect others from the criminal
activities of third persons.” 4 And to determine
whether to impose such a duty, “the court must make
a policy decision in light of the unique facts and
circumstances presented.” 5 This case raises
consequential questions of Federal constitutional
law—but only potential questions. If Louisiana law
does not impose a duty on protest organizers to
protect officers from the criminal violence of
individual protestors, then the First Amendment
Although I now dissent on the First Amendment issue, I
still agree with the majority opinion that: (1) we have
jurisdiction over this appeal; (2) Mckesson cannot be held
vicariously liable for the assailant’s actions; (3) Officer Doe failed
to state a civil conspiracy claim; (4) Officer Doe failed to
adequately allege that Black Lives Matter is an unincorporated
association capable of being sued under Louisiana law; and (5)
Officer Doe is not entitled to proceed anonymously.
3

4

Posecai v. Wal-Mart Stores, Inc., 752 So. 2d 762, 766 (La.

1999).
5

Id.

32a
issues, however important, are moot.
The majority opinion concludes that Mckesson, as
protest organizer, can be held liable for Officer Doe’s
injuries because the Constitution “does not insulate
[Mckesson] from liability for his own negligent
conduct simply because he, and those he associated
with, also intended to communicate a message.” 6
Putting aside whether the Constitution, in fact,
supports precisely that,7 the starting-point question
is whether Mckesson’s conduct was negligent at all.
And step one of that inquiry is determining whether a
duty exists—a pure question of law.8
The majority concludes that the foreseeable risk
of violence alone imposed a duty on Mckesson to
exercise reasonable care to avoid that violence. But I
am unaware of any Louisiana case imposing a duty to
protect against the criminal acts of a third party
absent a special relationship that entails an
independent duty.9 The majority, as it must, accepts
6

Maj. Op. at 21a–22a.

7 See N.A.A.C.P. v. Claiborne Hardware Co., 458 U.S. 886,
908 (1982) (“The right to associate does not lose all
constitutional protection merely because some members of the
group may have participated in conduct or advocated doctrine
that itself is not protected.”). Claiborne Hardware, in part,
addresses what protest conduct can give rise to tort liability
consistent with the First Amendment, something that requires
“precision of regulation” even when holding someone liable for
his own actions in connection with protected speech. Id. at 916.
8

Lazard v. Foti, 859 So. 2d 656, 659 (La. 2003).

9 See Carriere v. Sears, Roebuck and Co., 893 F.2d 98, 101
(5th Cir. 1990) (“Ordinarily, Louisiana law imposes no duty to
protect against the criminal acts of third persons. However, a
duty to protect against foreseeable criminal misconduct may
arise from a special relationship.” (internal citations omitted));

33a

Wellons v. Grayson, 583 So. 2d 1166, 1168-69 (La. App. 1 Cir.
1991) (explaining that, for a party to have an obligation to
protect against the criminal acts of others, “some special
relationship must exist in order for that duty to arise”). For
instance, in Posecai, the Supreme Court of Louisiana examined
whether a business owed a duty to its customers to protect
against criminal acts that were reasonably foreseeable to occur
in the business’s parking lot. 752 So. 2d at 766. Importantly, the
business unquestionably owed some duty to the customer
because the customer was an invitee on the property; the
question was how far that duty extended. And because, on
balance, the risk of criminal activity was reasonably foreseeable
and the burden of imposing a duty to protect against that risk
was minimal, the court chose to impose a duty on the business.
Id. at 768.
Consider also Brown v. Tesack, relied upon by the majority.
566 So. 2d 955 (La. 1990). In Brown, there was no question that
the school had a duty to properly dispose of hazardous materials.
Id. at 957. The school “specifically recognized” that certain
flammable liquids created an unreasonable risk to the children
who played on the school’s property. Id. As in Posecai, the
question before the Supreme Court of Louisiana was whether
this pre-existing duty extended to protecting against the acts of
third parties (i.e., one child abusing the flammable liquids and
burning another child). Id. The court concluded that because the
harm that occurred was not only a foreseeable consequence of a
breach of the school’s already existing duty, but was a “foreseen”
harm, protecting against the risk of children taking and
misusing the hazardous liquids was within the scope of the
school’s underlying duty to properly dispose of the liquids. Id. at
957-58. Further, the underlying duty in Brown was tied to the
heightened standard of care involving children, which is not an
issue in our case. See id. at 957 (“A duty was owed both to these
children and to their potential victims …. We agree ... that
‘children who possess a flammable substance can be expected to
light it, to attract other children to join in the play and to commit
criminal acts or engage in other misadventures.’” (quoting
Brown, 556 So.2d at 89 (Plotkin, J., dissenting) (“[T]here is no
difference between the recognizable risk of a minor’s misuse of

34a
that Louisiana does not recognize such a duty.
Instead, it argues, Louisiana law imposes a “duty not
to negligently cause a third party to commit a crime
that is a foreseeable consequence of negligence.” 10
Respectfully, this is a semantic distinction without an
analytic difference. And it is a distinction
unsupported by Louisiana law. 11 Doe asserts that
an inherently dangerous object and the likelihood that the minor
will cause personal or property damages to others[.]”))).
Here, the harm to Officer Doe was not within the scope of
the highway-obstruction statute that the majority alleges Doe
violated, and Mckesson owed no pre-existing duty to Doe
because of a special relationship between them. Finally, the
majority opinion, while quoting the multi-factor balancing
analysis required by the Louisiana Supreme Court in Posecai,
never gets around to actually applying it. Rather, the majority
simply assumes that because the harm was foreseeable, a duty
necessarily exists. Louisiana law requires more.
10

Maj. Op. at 12a.

11 The majority opinion attempts to distinguish between a
duty to protect against a crime and a duty not to precipitate one.
But I have certainly not found any case that describes such a
difference or recognizes the majority’s proposed duty. See, e.g.,
Harris v. Pizza Hut of La., Inc., 45 So.2d 1364, 1369-70 (La.
1984) (“Louisiana has for some time employed the duty-risk
analysis to determine legal responsibility in tort claims. The
pertinent inquiries are: ... II. Whether there was a duty on the
part of the defendant which was imposed to protect against the
risk involved .... (emphasis added)). And, despite the majority’s
contention otherwise, both Posecai and Brown concern a duty to
protect against the criminal acts of others, which exists only
where there is a pre-existing special relationship that itself
imposes a duty. See Posecai, 752 So. 2d at 766; Brown, 566 So.2d
at 957 (“[A]ll rules of conduct ... exist for purposes. They are
designed to protect some persons under some circumstances
against some risks ... (quoting Wex Malone, Ruminations on
Cause-In-Fact, 9 Stan. L. Rev. 60, 73 (1956)) (emphasis and
ellipses in original)). The majority opinion never grapples with

35a
Mckesson “did nothing to calm the crowd,” but under
Claiborne Hardware, a duty to repudiate “cannot
arise unless, absent repudiation, an individual could
be found liable for those acts.” 12 Duty is the first
inquiry. And possibly the last.
Recently, in another Louisiana tort case, we
stressed, “If guidance from state cases is lacking, ‘it is
not for us to adopt innovative theories of recovery
under state law.’”13 Wise words. I would be chary of
making policy decisions that create or expand
Louisiana tort duties. Given the fateful First
Amendment issues, and the dearth of on-point
guidance from Louisiana courts, I would certify this
res nova negligence question to the Supreme Court of
Louisiana: Does a protest’s foreseeable risk of
violence impose a duty upon the protest organizer,
such that he can be held personally liable for injuries
inflicted by an unknown assailant? Because if there’s
no duty, there’s no negligence. And if there’s no
negligence, there’s no case. And if there’s no case,
there’s no need to fret about the First Amendment.
This is not a federal constitutional case unless it
is first a state tort case. As such, certification is
counseled, if not compelled, by the twin doctrines of
constitutional avoidance and abstention. We recently
Louisiana’s unequivocal expression that for a person to be held
liable for the consequences of others’ actions, there must be a
pre-existing duty between the acting and the liable parties. This
necessity does not go away simply because the majority has
rephrased the duty at issue.
12

458 U.S. at 925 n.69.

Meador v. Apple, Inc., 911 F.3d 260, 264 (5th Cir. 2018)
(quoting Mayo v. Hyatt Corp., 898 F.2d 47, 49 (5th Cir. 1990)).
13

36a
remarked that “the doctrine of constitutional
avoidance is rooted in basic considerations of
federalism,” 14 adding that where a ruling on
constitutionality “could be avoided by interpretation
of Louisiana law, we must give due consideration to
this non-constitutional ground for decision.” 15 This
caution is less prudish than prudent, and has a
venerable, generations-long pedigree. The Supreme
Court, almost 80 years ago, held that “where
uncertain questions of state law must be resolved
before a federal constitutional question can be
decided, federal courts should abstain until a state
court has addressed the state questions.” 16
After all, state judiciaries are equal partners in
our shared duty “to say what the law is.”17 Bombshell
federal cases dominate most headlines. But as this
same panel recently emphasized, “American justice is
dispensed—overwhelmingly—in state, not federal,
judiciaries.”18 How much? “[A] whopping 96 percent
of all cases.” 19 As Justice Scalia self-deprecatingly
14

St. Joseph Abbey v. Castille, 700 F.3d 154, 168 (5th Cir.

2012).
15

Id. at 167.

Ctr. for Individual Freedom v. Carmouche, 449 F.3d 655,
667 (2006) (citing Railroad Comm’n v. Pullman Co., 312 U.S.
496, 501 (1941)).
16

17

Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803).

Thompson v. Dallas City Attorney’s Office, 913 F.3d 464,
470-71 (5th Cir. 2019) (citing Jennifer W. Elrod, Don’t Mess with
Texas Judges: In Praise of the State Judiciary, 37 HARV. J.L. &
PUB. POL’Y 629 (2013)).
18

19 New NCSC Video Explains That State Courts Are Where
the Action Is, NAT. CTR. FOR STATE COURTS (Nov. 28, 2018),
https://www.ncsc.org/Newsroom/at-the-Center/2018/Nov-28.asp

37a
observed, state law (and state courts) matter far more
to citizens’ everyday lives: “If you ask which court is of
the greatest importance to an American citizen, it is
not my court.”20
State
judiciaries
are
fundamental,
not
ornamental, and have been since the Founding, when
Hamilton lauded them as “the immediate and visible
guardian of life and property.”21 (Indeed, the federal
judiciary didn’t even exist for the first several years
after independence.) Hamilton’s reassurance has
endured for 232 years. Earlier this year, we again
extolled the front-and-center role of state judiciaries:
“For most Americans, Lady Justice lives in the halls
of state courts.”22
In this case, Louisiana law poses a threshold,
potentially decisive question. Only the Supreme
Court of Louisiana can adjudicate it authoritatively.
Certification—inviting the state high court’s
definitive word—serves the dual goals of abstention
and avoidance by obviating (perhaps) the need to
confront the First Amendment at all. Avoiding
unnecessary federal constitutional rulings honors our
bedrock commitment to federalism. On this point, we
x.
Thompson, 913 F.3d at 471 (quoting Justice Scalia
Honors U.S. Constitution, GEO. WASH. TODAY (Sept. 18,
2013),
https://gwtoday.gwu.edu/justice-scalia-honors-us-constitution).
20

21

THE FEDERALIST NO. 17 (Alexander Hamilton).

Thompson, 913 F.3d at 470 (citing John Schwartz, Critics
Say Budget Cuts for Courts Risk Rights, N.Y. TIMES, Nov. 27,
2011, at A18 (quoting a former justice of the Colorado Supreme
Court)).
22

38a
have not minced words: “[T]he Supreme Court has
long recognized that concerns for comity and
federalism may require federal courts to either
abstain from deciding federal constitutional issues
that are entwined with the interpretation of state law
or certify the questions of state law to the state’s
highest court for an authoritative interpretation of
them before reaching the merits of the cases.” 23
Indeed, as the Supreme Court has itself stressed, our
carefully wrought system of federalism is best served
by avoiding “the friction of a premature constitutional
adjudication.” 24 And certification of state-law
questions may be particularly important in First
Amendment cases.25
To my mind, there is no need for Erie guesses or
crystal balls. Federal-to-state certification is a
remarkable device: workable, efficient, and
guaranteed to yield a doubt-free answer. Zero
guesswork, Erie or otherwise. And this case, by any
traditional measure, hits the certification bull’s-eye:
The state-law answer is uncertain, and the
federal-law question is (maybe) unnecessary. The
first adjudication of this unresolved issue, one that
portends far-reaching impact given the ubiquity of
“negligent protests,” should be decisive and
authoritative, one on which the people of Louisiana
can rely.
True, certification is entirely discretionary, not
23

Carmouche, 449 F.3d at 667.

24

Pullman, 312 U.S. at 500.

See Clay Calvert, Certifying Questions in First
Amendment Cases: Free Speech, Statutory Ambiguity, and
Definitive Interpretations, 60 B.C.L. REV. 1349, 1352 (2019).
25

39a
obligatory.
And
the
tipping
point
for
certification-worthiness
eludes
mathematical
precision; it’s wholly subjective, with a patent,
eye-of-the-beholder flavor. 26 But this case seems a
Certification 101 exemplar that calls for cooperative
judicial federalism. If consequential state-law ground
is to be plowed, I believe the Supreme Court of
Louisiana should do the plowing.
It is principally the role of state judges to define
and delimit state causes of action. And state supreme
courts have an irreplaceable duty: to be supreme and
to speak supremely. We should let them do so,
particularly when doing so may obviate a knotty
federal question. I would leave this ruling on
Louisiana negligence law to those elected to rule on
Louisiana negligence law. I would seek conclusive
word from the conclusive court as to what state law
prescribes and proscribes. I would not guess, predict,
or speculate. I would certify.
II.
Even assuming that Mckesson could be sued
under Louisiana law for “negligently” leading a
protest at which someone became violent, the First
Amendment “imposes restraints” on what (and
whom) state tort law may punish.27 Just as there is
Disclosure: My dozen years as a state high court jurist
likely make me more inclined to certify (as does my judgment
that the majority reaches the wrong constitutional result). As
this is a federal constitutional case only if it is first a viable state
negligence case, a state supreme court justice would reasonably
think it her job to decide an unsettled state-law issue of
far-reaching significance.
26

27 Claiborne Hardware, 458 U.S. at 916-17 (“Specifically,
the presence of activity protected by the First Amendment

40a
no “hate speech” exception to the First Amendment,28
“negligent” speech is also constitutionally protected.29
And under Claiborne Hardware (and a wealth of
precedent since), raucous public protest—even
“impassioned” and “emotionally charged” appeals for
the use of force—is protected unless clearly intended
to, and likely to, spark immediate violence.30
imposes restraints on the grounds that may give rise to damages
liability and on the person who may be held accountable for
those damages.”). As to what activity may be subject to liability,
the Court held: “While the State legitimately may impose
damages for the consequences of violent conduct, it may not
award compensation for the consequences of nonviolent,
protected activity. Only those losses proximately caused by
unlawful conduct may be recovered.” Id. at 918. As to who can be
held liable for that violent conduct, the Court held: “Civil
liability may not be imposed merely because an individual
belonged to a group, some members of which committed acts of
violence. For liability to be imposed by reason of association
alone, it is necessary to establish that the group itself possessed
unlawful goals and that the individual held a specific intent to
further those illegal aims.” Id. at 920.
28 Matal v. Tam, 137 1744 (2017) (making clear that
viewpoint discrimination—including against hateful speech that
demeans—is unconstitutional).

See, e.g., New York Times Co. v. Sullivan, 376 U.S. 254,
278-80 (1964) (prohibiting public officials from recovering
damages for negligently made “defamatory falsehoods” because
permitting liability for such negligence would impose a “pall of
fear and timidity ... upon those who would give voice to public
criticism,” creating “an atmosphere in which the First
Amendment freedoms cannot survive”).
29

30 458 U.S. at 927-28 (citing Brandenburg v. Ohio, 395 U.S.
444, 447 (1969) (protecting speech of Ku Klux Klan leader who
threatened “revengeance” if “suppression” of the white race
continued, and defining “incitement” to mean speech that is
“directed to inciting or producing imminent lawless action and is
likely to incite or produce such action”)).

41a
In Claiborne Hardware, involving a years-long
and sometimes violent boycott that tortiously
interfered with white-owned businesses, the Court
unanimously held that the “highly charged political
rhetoric” of Charles Evers—who “unquestionably
played the primary leadership role in the
organization of the boycott”—was constitutionally
protected even though Evers vilified and urged
violence against boycott breakers, warning, “if we
catch any of you going in any of them racist stores,
we’re gonna break your damn neck.” 31 The Court
made clear that the First Amendment does not
protect words “that provoke immediate violence”32 or
“that create an immediate panic.” 33 But “mere
advocacy of the use of force or violence does not
remove speech from the protection of the First
Amendment.” 34 Because Evers only advocated for
violence, but did not provoke or incite imminent acts
of violence, the Court said his fiery words “did not
exceed the bounds of protected speech.”35 The Court
noted there was “no evidence—apart from the
speeches
themselves—that
Evers
authorized,
ratified, or directly threatened acts of violence.”36 In
this case, there is not even a competent allegation of
such behavior.
Officer Doe does not assert that Mckesson
31

Id. at 926-28.

32

Id. at 927.

33

Id.

34

Id. (emphasis in original).

35

Id. at 929.

36

Id.

42a
perpetrated violence himself. Rather, he asserts that
Mckesson “incited the violence.” But Doe’s barebones
complaint specifies no words or actions by Mckesson
that may have done so. For Rule 12(b)(6) purposes, we
accept well-pleaded facts as true and view them in the
light most favorable to the plaintiff. 37 But “a legal
conclusion couched as a factual allegation” need not
be accepted as true. 38 Gauzy allegations that offer
only “labels and conclusions” or “naked assertion[s]
devoid of further factual enhancement” do not
suffice.39 Doe’s allegations—“[t]hreadbare recitals of
the elements of a cause of action, supported by mere
SGK Props., L.L.C. v. U.S. Bank Nat’l Ass’n, 881 F.3d
933, 943 (5th Cir. 2018). Confusingly, the majority opinion relies
on Officer Doe’s proposed amended complaint even though the
district court denied Doe’s request to file an amended complaint.
The controlling complaint for the purposes of our analysis should
be Doe’s original complaint. See Matter of Life Partners
Holdings, Inc., 926 F.3d 103, 112 n.2 (5th Cir. 2019) (accepting
facts as alleged in Third Amended Complaint, even where
district court improperly denied plaintiff’s request to file its
Proposed Fourth Amended Complaint, because the Third
Amended Complaint was “the live pleading at the time of
dismissal”); Stem v. Gomez, 813 F.3d 205, 209, 215-17 (5th Cir.
2016) (relying on facts as alleged in original complaint where
district court denied leave to amend); Leal v. McHugh, 731 F.3d
405, 407 & n.1 (5th Cir. 2013) (same). But even if I accepted the
facts alleged in Doe’s Amended Complaint as true, the First
Amendment would still prohibit imposing liability against
Mckesson for the violent acts of others because, as the majority
agrees, Mckesson did not authorize, direct, or ratify any violent
conduct.
37

38

Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007).

Edionwe v. Bailey, 860 F.3d 287, 291 (5th Cir. 2017)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). The
majority opinion rightly disregards Doe’s “conclusory
allegations” against Black Lives Matter. See Maj. Op. at 8.
39

43a
conclusory statements”—fail the 12(b)(6) plausibility
standard.40
Doe strings together various unadorned
contentions—that Mckesson was “present during the
protest,” “did nothing to calm the crowd,” “directed”
protestors to gather on the public street in front of
police headquarters, and “knew or should have known
... that violence would result” from the protest that
Mckesson “staged.” Even taking these impermissibly
conclusory allegations as true, the complaint lacks
sufficient factual detail to state a claim for negligence,
much less to overcome Mckesson’s First Amendment
defense. For example, Doe does not allege:
• What orders Mckesson allegedly gave, how
he led the protest, or what he said or did to incite
violence.
• How Mckesson “controlled” or “directed”
the unidentified assailant who injured Officer
Doe.
• How statements that Mckesson made to
the media after the protest amount to a
ratification of violence.
Without these and other fleshed-out facts, the
complaint utterly fails to link Mckesson’s role as
leader of the protest demonstration to the mystery
attacker’s violent act. In short, Doe’s skimpy
complaint is heavy on well-worn conclusions but light
on well-pleaded facts.

40

Iqbal, 556 U.S. at 678.

44a
Indeed, the lone “inciteful” speech quoted in
Doe’s complaint is something Mckesson said not to a
fired-up protestor but to a mic’ed-up reporter—the
day following the protest: “The police want protestors
to be too afraid to protest.” Tellingly, not a single
word even obliquely references violence, much less
advocates it. Temporally, words spoken after the
protest cannot possibly have incited violence during
the protest. And tacitly, the majority opinion seems to
discard the suggestion that Mckesson uttered
anything to incite violence against Officer Doe.
With “speech” off the table, the majority seems to
endorse an alternative liability theory—that
Mckesson “authorized, directed, or ratified specific
tortious activity”41 by leading others to block a public
highway. The majority credits Doe’s abstract,
one-sentence contention that Mckesson “knew or
should have known that violence would result.” 42
Mind you, Doe’s complaint contains no specific
allegations that Mckesson advocated imminent
violence, just this bald, conclusory assertion that he
negligently allowed violence to occur.
This novel “negligent protest” theory of liability
seems incompatible with the First Amendment and
foreclosed—squarely—by controlling Supreme Court
precedent. Even assuming, for argument’s sake, that
41 Claiborne Hardware, 458 U.S. at 927 (“[A] finding that
[Evers] authorized, directed, or ratified specific tortious activity
would justify holding him responsible for the consequences of
that activity.”).

See Maj. Op. at 21a–22a (“But Claiborne Hardware does
not insulate the petitioner from liability for his own negligent
conduct simply because he, and those he associated with, also
intended to communicate a message.” (emphasis in original)).
42

45a
Mckesson directed others to stand in the highway43
and that violating this criminal law constitutes a
tort,44 I disagree with the suggestion that directing
any tort would strip a protest organizer of First
Amendment protection. Even Evers of Claiborne
Hardware would be liable under the majority’s
analysis. After all, the economic harm inflicted in
Claiborne Hardware was “the result of [Evers’s] own
tortious conduct in organizing a foreseeably violent
protest.” 45 Evers engaged in the tort of “malicious
interference with the plaintiff’s business.”46 He even
threatened during a meeting that “any ‘uncle toms’
who broke the boycott would ‘have their necks broken’
43 The majority opinion states that “Officer Doe’s complaint
does allege that Mckesson directed the demonstrators to engage
in the criminal act of occupying the public highway,” adding that
Doe “specifically alleges that Mckesson led protestors down a
public highway in an attempt to block the interstate.” But the
lone assertion of purposeful highway-blocking in Doe’s scanty
complaint is this sentence: “DEFENDANTS conspired to violate
the law by planning to block a public highway.” Even if
“planning” equates to directing, the majority properly holds that
Doe failed to state a claim that Mckesson engaged in any
conspiracy. Id. at 260.
44

La. Rev. Stat. Ann. § 14:97.

45 Maj. Op. at 16a (emphasis in original). Similarly, in
Eastern Railroad Presidents Conference v. Noerr Motor Freight
Inc., the Supreme Court held that a campaign with an
anticompetitive purpose and effect was permissible under the
First Amendment, even though the Sherman Act prohibits
individuals from restraining trade or creating monopolies,
because “[t]he right of petition is one of the freedoms protected
by the Bill of Rights, and we cannot, of course, lightly impute to
Congress an intent to invade these freedoms.” 365 U.S. 127, 138
(1961).
46

Claiborne Hardware, 458 U.S. at 891.

46a
by their own people.” 47 And violence was not just
foreseeable; “several” clashes had already occurred. 48
Despite all that, the Supreme Court ruled Evers to be
constitutionally protected. Because Evers did not
specifically direct violence, the Supreme Court was
unwilling to find him liable for violence. 49 And
because preventing tortious interference is not a
proper justification for restricting free speech (unlike
preventing violence), it refused to hold Evers liable
for the economic harms resulting from the boycott he
led.50
47

Id. at 900 n.28.

48

Id. at 903.

49

Id. at 927.

50 Id. at 914-15 (“[T]he petitioners certainly foresaw—and
directly intended—that the merchants would sustain economic
injury as a result of their campaign[;] ... however ... [t]he right of
the States to regulate economic activity could not justify a
complete prohibition against a nonviolent, politically motivated
boycott designed to force governmental and economic change
and to effectuate rights guaranteed by the Constitution itself ….
We hold that the nonviolent elements of petitioners’ activities
are entitled to the protection of the First Amendment.”). The
majority opinion overlooks these statements by the Supreme
Court and instead points to proceedings that occurred in the
state chancery and supreme courts to argue that the tortious
conduct that Evers unequivocally led was not at issue before the
Claiborne Hardware Court. But the Court never made such an
assertion. To the contrary, the Supreme Court observed that it
was not deciding “the extent to which a narrowly tailored statute
designed to prohibit certain forms of anticompetitive conduct or
certain types of secondary pressure may restrict protected First
Amendment activity. No such statute is involved in this case.
Nor are we presented with a boycott designed to secure aims
that are themselves prohibited by a valid state law.” Id. at 915
n.49. The Supreme Court did not here say that no one committed
tortious conduct; the Court affirmed that a generic statute

47a
In other words, when the Supreme Court
observed that Evers could be held liable if he
“authorized, directed, or ratified specific tortious
activity,” it was clarifying that Evers could be held
liable for violence he directly incited because violence
is a tortious activity that unequivocally falls outside
51
First
Amendment
protection.
This
52
violence/nonviolence distinction is cemented later
against tortious interference is not the type of narrowly tailored
law that can restrict protected First Amendment speech. And
because it is not such a narrowly tailored law, directing others to
violate it could not impose liability on Evers generally, and it
certainly could not impose liability on him for the violence of
others. Id. at 914-15; see also Brandenburg, 395 U.S. at 448 (“A
statute which fails to draw [a] distinction [between teaching
about the need for violence and “steeling” a group to commit
violence] impermissibly intrudes upon the freedoms guaranteed
by the First and Fourteenth Amendments. It sweeps within its
condemnation speech which our Constitution has immunized
from governmental control.”).
Claiborne Hardware, 458 U.S. at 927. This is not to say
the First Amendment protects individuals from all liability as
long as their speech was nonviolent. Instead, Claiborne
Hardware supports the proposition that an individual cannot be
held liable for violence if his speech did not “authorize[], direct[],
or ratif[y]” violence. Id. (“[A] finding that [Evers] authorized,
directed, or ratified specific tortious activity would justify
holding him responsible for the consequences of that activity.”
(emphasis added)).
51

52 The
majority opinion latches onto the phrase
“violence/nonviolence distinction” and appears to oversimplify it.
As reiterated throughout this dissent, see, e.g., supra note 51, I
do not contend that the First Amendment protects individuals
from all tortious activity as long as it is nonviolent. Instead, I
affirm the Supreme Court’s holding that a person cannot be held
liable for violent conduct that he did not intentionally incite or
commit. And it is violent conduct that is at issue here. Certainly,
a libeler can be held liable for the reputational harms caused by

48a
in Claiborne Hardware when the Court restates the
same three-verb standard to explain why Evers could
not be liable despite his intentionally tortious
activity, including speech that advocated violence:
“[A]ny such theory fails for the simple reason that
there is no evidence—apart from the speeches
themselves—that Evers authorized, ratified, or
directly threatened acts of violence.”53 The takeaway
seems clear: The First Amendment only allows civil
liability for violent conduct that “occurs in the context
of constitutionally protected activity” when that
activity involves violence or threats of violence.54
The majority opinion avers (though, notably, the
his libelous speech, see Gertz v. Robert Welch, Inc., 418 U.S. 323,
348-50 (1974), because defamation statutes are proper, narrowly
tailored restrictions on the First Amendment. But a libeler may
not be held liable for the violent acts of others that the libeler did
not intend to incite with his libelous speech. See Brandenburg,
395 U.S. at 447-48; Herceg v. Hustler Magazine, Inc., 814 F.2d
1017, 1024 (5th Cir. 1987) (refusing to impose civil liability
against Hustler for “inciting” accidental asphyxiation, observing
that “[m]ere negligence ... cannot form the basis of liability
under the incitement doctrine”); see also Brown v. Entm’t
Merchants Ass’n, 564 U.S. 786, 798 (2011) (holding that even if
violent video games make people more aggressive, California
could not prohibit their sale to children). And even if the libeler
could be held so responsible, generic negligence statutes do not
meet the first necessary condition of being narrowly tailored
restrictions on free speech. See infra, note 56. Without a doubt,
Evers defamed certain targets of his speech, yet the Court still
refused to hold him liable for violence. See, e.g., Claiborne
Hardware, 458 U.S. at 935-36 (describing specific local store
owners as “racists” and “bigots” and implying they were
murderers, rapists, and liars).
53

Id. at 929.

54

Id. at 916.

49a
complaint does not) that Mckesson directed
protestors to block a public highway. 55 But
encouraging that unlawful activity cannot expose
Mckesson to liability for violence because he didn’t
instruct anyone to commit violence.56 The Supreme
Court requires “extreme care” when attaching
liability to protest-related activity.57 The majority’s
“tortious conduct + foreseeable violence = liability for
violence” formula—with no parsing between violent
55

See supra note 43.

Claiborne Hardware, 458 U.S. at 916, 921, 927. The
majority opinion summarily concludes that Louisiana’s
road-blocking statute is a proper time, place, manner restriction,
Maj. Op. at 18. But absent briefing from the parties, I am
uncomfortable reaching such a consequential constitutional
conclusion. See, e.g., Cox v. Louisiana, 379 U.S. 536, 553-58
(1965) (invalidating a Baton Rouge ordinance that criminalized
blocking public streets and only allowed parades or meetings
with prior permission of an official who had unfettered
discretion).
56

Also, to the extent that a tort duty can arise from the
violation of statutes against obstructing highways, “recovery will
be allowed only if a rule of law on which plaintiff relied included
within its limits protections against the particular risk that
plaintiff’s interests encountered.” Lazard, 859 So. 2d at 661. And
Louisiana’s prohibitions on highway-blocking “have as their
focus the protection of other motorists.” State v. Winnon, 681 So.
2d 463, 466 (La. App. 2 Cir. 1996). More attenuated harm is
likely outside the scope of a defendant’s duty under La. Rev.
Stat. Ann. § 14:97. See, e.g., Thomas v. Ballard, 577 So. 2d 149,
151 (La. App. 1 Cir. 1991). I could find no Louisiana case
extending the scope of the negligence duty created by La. Rev.
Stat. Ann. § 14:97 beyond the traffic-accident context. And I thus
doubt that an intentional assault on a police officer is the
“particular risk” addressed by the statute. Lazard, 859 So. 2d at
661.
57

Claiborne Hardware, 458 U.S. at 927.

50a
tortious conduct (actionable) and nonviolent tortious
conduct (nonactionable)—is at odds with the
“precision of regulation” required to overcome the
First Amendment.58 Indeed, if it were that easy to
plead around Claiborne Hardware and hold protest
leaders personally liable for the violence of an
individual protestor, there would be cases galore
holding as much. The majority opinion cites none.
The bar set by Claiborne Hardware is much
higher than the majority opinion gives it credit for.
For example, plaintiffs may only recover “losses
proximately caused by unlawful conduct.” 59 This
requires naming “specific parties who agreed to use
unlawful means” and “identifying the impact of such
unlawful conduct.”60 Doe’s complaint does not allege
specific facts indicating an agreement or any kind of
agency relationship between Mckesson and the
unidentified protestor, or that Mckesson encouraged
or incited violent acts. Officer Doe does not allege
facts supporting that Mckesson had an affirmative
duty to intervene, and under Claiborne Hardware,
protest organizers cannot be held strictly liable for
the violent actions of rogue individuals.61
To reconcile the majority opinion (negligently
disregarding potential violence is not protected) with
Claiborne Hardware (intentionally advocating
violence is protected), we must accept that one who
58

Id. at 916, 921

59

Id. at 918.

60

Id. at 933-34.

Id. at 920 (“Civil liability may not be imposed merely
because an individual belonged to a group, some members of
which committed acts of violence.”)..
61

51a
expressly and purposely calls for violence is somehow
not behaving negligently to the risk that violence may
result. But “[m]ere negligence ... cannot form the
basis of liability under the incitement doctrine[.]” 62
To hold otherwise seems fanciful, as does allowing
common-law tort principles to trump constitutional
free-speech principles. 63 Claiborne Hardware held
that Evers’s leadership of an intentionally tortious
and foreseeably violent boycott did not forfeit his
First Amendment defense. Reading Claiborne
Hardware as authorizing liability for violence on the
basis of urging any unlawful activity—no matter how
attenuated from the violence that ultimately
occurred—paints with startlingly broad strokes.
Holding Mckesson responsible for the violent acts
of others because he “negligently” led a protest that
carried the risk of potential violence or urged the
blocking of a road is impossible to square with
Supreme Court precedent holding that only tortious
activity meant to incite imminent violence, and likely
to do so, forfeits constitutional protection against
liability for violent acts committed by others.64 With
greatest respect, I disagree with the majority
opinion’s First Amendment analysis—both its
substance and its necessity.
III
62

Hustler Magazine, Inc., 814 F.2d at 1024.

63 See Perry Educ. Ass’n v. Perry Local Educators’ Ass’n, 460
U.S. 37, 45, (1983) (“For the State to enforce a content-based
exclusion it must show that its regulation is necessary to serve a
compelling state interest and that it is narrowly drawn to
achieve that end …. ”).
64

See, supra, note 52.

52a
In Hong Kong, millions of defiant pro-democracy
protesters have taken to the streets, with
demonstrations growing increasingly violent. In
America, political uprisings, from peaceful picketing
to lawless riots, have marked our history from the
beginning—indeed, from before the beginning. The
Sons of Liberty were dumping tea into Boston Harbor
almost
two
centuries
before
Dr.
King’s
Selma-to-Montgomery march (which, of course,
occupied public roadways, including the full width of
the bloodied Edmund Pettus Bridge).
***
Officer Doe put himself in harm’s way to protect
his community (including the violent protestor who
injured him). And states have undeniable authority to
punish protest leaders and participants who
themselves commit violence. The rock-hurler’s
personal liability is obvious, but I do not believe that
Mckesson’s is—for at least two reasons.
First, this is a negligence case, and I would not
take it as a given that Mckesson owed an identifiable
legal duty under Louisiana law. If no duty was owed,
then no First Amendment analysis is necessary.
Before weighing United States Supreme Court
precedent on a fateful Federal question, I would
invite the Louisiana Supreme Court to issue
precedent on a fundamental State question. The tort
analysis may well obviate the constitutional analysis.
Second, even assuming that Mckesson owed a
duty, Doe’s skeletal complaint does not plausibly
assert that Mckesson forfeited First Amendment
protection by inciting violence. Not one of the three
elements
of
“incitement”—intent,
imminence,

53a
likelihood—is competently pleaded here.65 Nor does
the complaint competently assert that Mckesson
directed, intended, or authorized this attack. Our
Constitution explicitly protects nonviolent political
protest. And Claiborne Hardware, among “our most
significant First Amendment” cases, 66 insulates
nonviolent protestors from liability for others’ conduct
when engaging in political expression, even
intentionally tortious conduct, not intended to incite
immediate violence. The Constitution does not
insulate violence, but it does insulate citizens from
responsibility for others’ violence.
“Negligent protest” liability against a protest
leader for the violent act of a rogue assailant is a
dodge of Claiborne Hardware and clashes head-on
with constitutional fundamentals. Such an exotic
theory
would
have
enfeebled
America’s
street-blocking civil rights movement, imposing
ruinous financial liability against citizens for
exercising core First Amendment freedoms.67
Dr. King’s last protest march was in March 1968,
in support of striking Memphis sanitation workers. It
was prelude to his assassination a week later, the day
See Brandenburg, 395 U.S. at 447 (“[T]he constitutional
guarantees of free speech ... do not permit a State to forbid or
proscribe advocacy of the use of force or of law violation except
where such advocacy is directed to inciting or producing
imminent lawless action and is likely to incite or produce such
action.”).
65

66 Cloer v. Gynecology Clinic, Inc., 528 U.S. 1099 (2000)
(Scalia, J., dissenting from denial of petition for a writ of
certiorari).

The march from Selma to Montgomery—54 miles, 54
years ago—was no sidewalk stroll.
67

54a
after his “I’ve Been to the Mountaintop” speech. Dr.
King’s hallmark was nonviolent protest, but as he led
marchers down Beale Street, some young men began
breaking storefront windows. The police moved in,
and
violence
erupted,
harming
peaceful
demonstrators and youthful looters alike. Had Dr.
King been sued, either by injured police or injured
protestors, I cannot fathom that the Constitution he
praised as “magnificent”—“a promissory note to
which every American was to fall heir” 68 —would
countenance his personal liability.
Summing up: I would certify the threshold
negligence question to the Supreme Court of
Louisiana. Failing that, and given the flimsiness of
Doe’s complaint, I would hold that the First
Amendment shields Mckesson from tort liability for
the rock thrower’s criminal act. In all other respects, I
concur.

Martin Luther King, Jr., I Have a Dream (Aug. 28, 1963),
in I HAVE A DREAM: WRITINGS AND SPEECHES THAT
CHANGED THE WORLD 101 (James M. Washington ed., 1992).
68

55a
United States District Court, M.D. Louisiana.
Officer John DOE
v.
DeRay MCKESSON et al.
Civil Action No.: 16–00742–BAJ–RLB
RULING AND ORDER
Signed September 28, 2017
BRIAN A. JACKSON, CHIEF JUDGE.
Before the Court are Defendant DeRay
Mckesson's Motion to Dismiss (Doc. 15) (“Defendant's
Rule 12 Motion”), Defendant DeRay Mckesson's
Motion to Dismiss Pursuant to Federal Rule of Civil
Procedure 9(a) (Doc. 43) (“Defendant's Rule 9
Motion”), and Plaintiff's Motion to File Amended
Complaint for Damages (Doc. 52) (“Plaintiff's Motion
to Amend”). Plaintiff filed a memorandum in
opposition to Defendant's Rule 12 Motion, (see Doc.
21), Defendant DeRay Mckesson filed a reply
memorandum in support of the Motion, (see Doc. 29),
and Plaintiff filed a surreply in opposition to the
Motion, (see Doc. 38). Plaintiff also filed a
memorandum in opposition to Defendant's Rule 9
Motion. (See Doc. 44). The Court held oral argument
on Defendant's Rule 12 and Rule 9 Motions.
“[T]he practice of persons sharing common views
banding together to achieve a common end is deeply
embedded in the American political process.” Citizens
Against Rent Control/Coal. for Fair Hous. v. City of
Berkeley, 454 U.S. 290, 294 (1981). Because of its
nature as a fundamental guarantee under the First

56a
Amendment to the United States Constitution, “[t]he
right to associate does not lose all constitutional
protection merely because some members of [a] group
may have participated in conduct,” such as violence,
“that itself is not protected.” NAACP v. Claiborne
Hardware Co., 458 U.S. 886, 908 (1982). Thus, when a
tort is committed in the context of activity that is
otherwise protected by the First Amendment, courts
must use “precision” in determining who may be held
liable for the tortious conduct so that the guarantees
of the First Amendment are not undermined. Id. at
916 (quoting NAACP v. Button, 371 U.S. 415, 438
(1963)).
Plaintiff’s alleged injuries in this case—which he
claims to have suffered in the line of duty as a police
officer while responding to a demonstration—are not
to be minimized. Plaintiff has failed, however, to state
a plausible claim for relief against an individual or
entity that both has the capacity to be sued and falls
within the precisely tailored category of persons that
may be held liable for his injuries, which he allegedly
suffered during activity that was otherwise
constitutionally protected. For the reasons explained
herein, Defendant DeRay Mckesson’s Motion to
Dismiss (Doc. 15) and Defendant DeRay Mckesson’s
Motion to Dismiss Pursuant to Federal Rule of Civil
Procedure 9(a) (Doc. 43) are GRANTED, Plaintiff’s
Motion to File Amended Complaint for Damages (Doc.
52) is DENIED, and this matter is DISMISSED
WITH PREJUDICE.
I. BACKGROUND
In his Complaint, Plaintiff—a Baton Rouge Police
Department officer—alleges that he responded to a
demonstration that took place on July 9, 2016, at the

57a
intersection of Airline Highway and Goodwood
Boulevard. (See Doc. 1 at ¶¶ 12, 15–16). Plaintiff
avers that Defendant DeRay Mckesson (“Mckesson”)
“le[]d the protest,” “acting on behalf of” Defendant
“Black Lives Matter.” (Id. at ¶ 3). Plaintiff asserts
that “Black Lives Matter” is a “national
unincorporated association,” of which Mckesson is a
“leader and co-founder.” (Id.).
Although Plaintiff alleges that Mckesson and
“Black Lives Matter” “were in Baton Rouge for the
purpose of demonstrating, protesting[,] and rioting to
incite others to violence against police and other law
enforcement officers,” (id. at ¶ 11), Plaintiff concedes
that the demonstration “was peaceful” when it
commenced, (id. at ¶ 17). Plaintiff avers that “the
protest turned into a riot,” (id. at ¶ 18), however,
when “activist[s] began pumping up the crowd,” (id.
at ¶ 17). Thereafter, demonstrators allegedly “began
to loot a Circle K,” taking “water bottles” from the
business and “hurl[ing]” them at the police officers
who were positioned at the demonstration. (Id. at ¶
18). Once the demonstrators had exhausted their
supply of water bottles, Plaintiff asserts that an
unidentified demonstrator “picked up a piece of
concrete or [a] similar rock[-]like substance and
hurled [it] into the police.” (Id. at ¶ 20). Plaintiff
allegedly was struck by this object, causing several
serious injuries. (Id. at ¶ 21).
Plaintiff alleges that Mckesson “was in charge of
the protests” and “was seen and heard giving orders
throughout the day and night of the protests.” (Id. at
¶ 17). Mckesson, according to Plaintiff, “was present
during the protest and ... did nothing to calm the
crowd”; instead, Mckesson allegedly “incited the

58a
violence on behalf of ... Black Lives Matter.” (Id. at ¶
19).
Plaintiff brought suit, naming Mckesson and
“Black Lives Matter” as Defendants. In his
Complaint, Plaintiff states claims in negligence and
respondeat superior, asserting that Mckesson and
“Black Lives Matter” “knew or should have known
that the physical contact[,] riot[,] and demonstration
that they staged would become violent ... and ... that
violence would result.” (Id. at ¶ 28). The unidentified
demonstrator who threw the object that allegedly
struck Plaintiff, he avers, was “a member of ... Black
Lives Matter” and was “under the control and
custody” of Mckesson and “Black Lives Matter.” (Id.
at ¶ 20). Therefore, according to Plaintiff, Mckesson
and “Black Lives Matter” “are liable in solido for the
injuries caused to” Plaintiff by the unidentified
demonstrator. (Id. at ¶ 31).
Mckesson thereafter filed Defendant’s Rule 12
Motion, asserting that Plaintiff failed to state a
plausible claim for relief against him, as well as
Defendant’s Rule 9 Motion, asserting that “Black
Lives Matter” is not an entity that has the capacity to
be sued. Plaintiff responded by filing Plaintiff’s
Motion to Amend, seeking leave of court to amend his
complaint to add “# BlackLivesMatter” and Black
Lives Matter Network, Inc., as Defendants and to
supplement his Complaint with additional factual
allegations.
II. DISCUSSION
The Court finds that Plaintiff’s Complaint suffers
from numerous deficiencies; namely, the Complaint
fails to state a plausible claim for relief against

59a
Mckesson and it names as a Defendant a social
movement that lacks the capacity to be sued. In an
attempt to ameliorate these deficiencies, Plaintiff has
sought leave of court to amend his Complaint to name
two additional Defendants—“# BlackLivesMatter”
and Black Lives Matter Network, Inc.—and to plead
additional factual allegations. Plaintiff’s proposed
amendment, however, would be futile: Plaintiff fails
to remedy the deficiencies contained in his initial
Complaint with respect to his claims against
Mckesson
and
“Black
Lives
Matter,”
“#
BlackLivesMatter”—a hashtag—lacks the capacity to
be sued, and Plaintiff fails to state a plausible claim
for relief against Black Lives Matter Network, Inc.
Plaintiff’s claims, therefore, must be dismissed, and
Plaintiff must be denied the opportunity to amend his
Complaint.
A. Defendant’s Rule 12 Motion
Setting aside his conclusory allegations, Plaintiff
has pleaded facts that merely demonstrate that
Mckesson exercised his constitutional right to
association and that he solely engaged in protected
speech at the demonstration that took place in Baton
Rouge on July 9, 2016. Because Plaintiff has failed to
plead sufficient, nonconclusory factual allegations
that would tend to demonstrate that Mckesson
exceeded the bounds of protected speech, Mckesson
cannot be held liable for the conduct of others with
whom he associated, and Plaintiff thus has failed to
state a plausible claim for relief against Mckesson.
1. Legal Standard
A motion to dismiss filed pursuant to Federal
Rule of Civil Procedure 12(b)(6) tests the sufficiency

60a
of a complaint against the legal standard set forth in
Rule 8, which requires “a short and plain statement of
the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2).
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “Determining whether a complaint states a
plausible claim for relief [is] a context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679.
“[F]acial plausibility” exists “when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. at 678.
Thus, a complaint need not set out “detailed
factual allegations,” but a complaint must contain
something more than “’labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of
action.’” Id. (quoting Twombly, 550 U.S. at 555).
When conducting its inquiry, the Court must “accept[]
all well-pleaded facts as true and view[] those facts in
the light most favorable to the plaintiff.” Bustos v.
Martini Club Inc., 599 F.3d 458, 461 (5th Cir. 2010)
(quoting True v. Robles, 571 F.3d 412, 417 (5th Cir.
2009)). “[T]he tenet that a court must accept as true
all of the allegations contained in a complaint is
inapplicable to legal conclusions,” and therefore
“[t]hreadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice” to survive a Rule 12(b)(6) motion to
dismiss. Iqbal, 556 U.S. at 678.

61a
2. Analysis
“The First Amendment does not protect
violence.” Claiborne Hardware, 458 U.S. at 916,
(“Certainly violence has no sanctuary in the First
Amendment, and the use of weapons ... may not
constitutionally masquerade under the guise of
‘advocacy.’” (quoting Samuels v. Mackell, 401 U.S. 66,
75 (1971) (Douglas, J., concurring))). “[T]he presence
of activity protected by the First Amendment,”
however, “imposes restraints on the grounds that
may give rise to damages liability and on the persons
who may be held accountable for those damages.” Id.
at 916-–17. Thus, while a person may be held liable in
tort “for the consequences of [his] violent conduct,” a
person cannot be held liable in tort “for the
consequences of nonviolent, protected activity.” Id. at
918. “Only those losses proximately caused by
unlawful conduct may be recovered.” Id.
“The First Amendment similarly restricts the
ability” of a tort plaintiff to recover damages from “an
individual solely because of his association with
another.” Id. at 918–19. “Civil liability may not be
imposed merely because an individual belonged to a
group, some members of which committed acts of
violence.” Id. at 920. “For liability to be imposed by
reason of association alone, it is necessary to establish
that the group itself possessed unlawful goals and
that the individual held a specific intent to further
those illegal aims.” Id. To impose tort liability on an
individual for the torts of others with whom he
associated, a plaintiff must prove that (1) the
individual “authorized, directed, or ratified specific
tortious activity”; (2) his public speech was “likely to
incite lawless action” and the tort “followed within a

62a
reasonable period”; or (3) his public speech was of
such a character that it could serve as “evidence that
[he] gave other specific instructions to carry out
violent acts or threats.” Id. at 927.
In his Complaint, Plaintiff alleges that Mckesson
“le[]d the protest and violence that accompanied the
protest.” (Id. at ¶ 3). As support for this contention,
Plaintiff pleaded that Mckesson “was in charge of the
protests[,] and he was seen and heard giving orders
throughout the day and night of the protests.” (Id. at
¶ 17). Further, Plaintiff avers that Mckesson “did
nothing to calm the crowd” during the demonstration;
rather, Mckesson “incited the violence.” (Id. at ¶ 19).
All of these allegations are conclusory in nature,
however, and they do not give rise to a plausible claim
for relief against Mckesson. In order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
“authorized, directed, or ratified specific tortious
activity.” Id. Plaintiff, however, merely states—in a
conclusory fashion—that Mckesson “incited the
violence” and “g[ave] orders,” (id. at ¶¶ 17, 19), but
Plaintiff does not state in his Complaint how
Mckesson allegedly incited violence or what orders he
allegedly was giving. Therefore, the Complaint
contains a “[t]hreadbare recital[] of the elements” of a
cause of action against Mckesson, which Plaintiff only
has “supported [with] mere conclusory statements,”
and therefore Plaintiff’s Complaint does not “contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ” Iqbal, 556
U.S. at 678 (quoting Twombly, 550 U.S. at 570).

63a
Further, Plaintiff has not pleaded sufficient
factual allegations regarding Mckesson’s public
speech to state a cause of action against Mckesson
based on that speech. The only public speech to which
Plaintiff cites in his Complaint is a one-sentence
statement that Mckesson allegedly made to The New
York Times: “The police want protestors to be too
afraid to protest.” (Id. at ¶ 24). Mckesson’s statement
does not advocate—or make any reference
to—violence of any kind, and even if the statement
did, “mere advocacy of the use of force or violence does
not remove speech from the protection of the First
Amendment.” Claiborne Hardware, 458 U.S. at 927.
This statement falls far short of being “likely to incite
lawless action,” which Plaintiff would have to prove to
hold Mckesson liable based on his public speech. Id.
Nor can Plaintiff premise Mckesson’s liability on
the theory that he allegedly “did nothing to calm the
crowd.” Id. at ¶ 19). As the United States Supreme
Court stated in NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982), “[c]ivil liability may not be
imposed merely because an individual belonged to a
group, some members of which committed acts of
violence,” id. at 920.
Plaintiff therefore has failed to plead in his
Complaint “factual content that allows the court to
draw the reasonable inference that [Mckesson] is
liable for the misconduct alleged,” and thus Plaintiff’s
claims against Mckesson must be dismissed. Iqbal,
556 U.S. at 678.
B. Defendant’s Rule 9 Motion
The Court finds that “Black Lives Matter,” as
Plaintiff uses that term in his Complaint, refers to a

64a
social movement. Although many entities have
utilized the phrase “black lives matter” in their titles
or business designations, “Black Lives Matter” itself
is not an entity of any sort. Therefore, all claims
against “Black Lives Matter” must be dismissed
because social movements lack the capacity to be
sued.
1. Legal Standard
Although a motion to dismiss for lack of capacity
is not contemplated by the express provisions of Rule
12, such a motion is treated by courts as a motion to
dismiss pursuant to Rule 12(b)(6) when the issue can
be resolved by analyzing the face of the complaint. See
Klebanow v. N.Y. Produce Exch., 344 F.2d 294, 296
n.1 (2d Cir. 1965) (“Although the defense of lack of
capacity is not expressly mentioned in [R]ule 12(b),
the practice has grown up of examining it by a
12(b)(6) motion when the defect appears upon the face
of the complaint.”); Oden Metro Turfing, Inc. v. Cont’l
Cas. Co., No. 12-cv-01547, 2012 WL 5423704, at *2
(W.D. La. Oct. 10, 2012) (citing Klebanow, 344 F.2d
294); see also 5A Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 1294 (2017
Supp. 2017) (“[I]f the lack of capacity ... appears on
the face of the pleadings or is discernible there from,
the issue can be raised by a motion for failure to state
a claim for relief.”). The Court may treat a motion to
dismiss for lack of capacity as a motion to dismiss
pursuant to Rule 12(b)(6) even if the motion is
labelled incorrectly. See Oden Metro, 2012 WL
5423704, at *2.
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”

65a
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at
570). “Determining whether a complaint states a
plausible claim for relief [is] a context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679.
When conducting its inquiry, the Court must “accept[]
all well-pleaded facts as true and view[] those facts in
the light most favorable to the plaintiff.” Bustos, 599
F.3d at 461 (quoting True, 571 F.3d at 417). “[T]he
tenet that a court must accept as true all of the
allegations contained in a complaint,” however, “is
inapplicable to legal conclusions.” Iqbal, 556 U.S. at
678. When analyzing a motion to dismiss for failure to
state a claim, “courts may also consider matters of
which they may take judicial notice.” Lovelace v.
Software Spectrum Inc., 78 F.3d 1015, 1017-18 (5th
Cir. 1996).
If a party is not an individual or a corporation,
the capacity of that party to be sued “is determined ...
by the law of the state where the court is located.”
Fed. R. Civ. P. 17(b)(3). “Under Louisiana law, an
entity must qualify as a ‘juridical person’ to possess
the capacity to be sued.” Hall v. Louisiana, 974
F.Supp.2d 957, 962 (M.D. La. 2013). “A juridical
person is an entity to which the law attributes
personality, such as a corporation or a partnership.”
La. Civ. Code art. 24. “[F]or an unincorporated
association to possess juridical personality, the object
of the contract of association must necessarily be the
creation of an entity whose personality ‘is distinct
from that of its members.’” Ermert v. Hartford Ins.,
559 So.2d 467, 474 (La. 1990) (quoting La. Civ. Code
art. 24). “Unless such an intent exists, the parties do
not create a fictitious person[,] but instead simply
incur
obligations
among
themselves.”
Id.

66a
“Consequently, an unincorporated association, as a
juridical person distinct from its members, does not
come into existence or commence merely by virtue of
the fortuitous creation of a community of interest or
the fact that a number of individuals have simply
acted together”; rather, “there must also be an
agreement whereby two or more persons combine
certain attributes to create a separate entity for a
legitimate purpose.” Id.
2. Analysis
Mckesson, in his Rule 9 Motion, argues that the
Court should dismiss “Black Lives Matter” as a
Defendant in this case because it lacks the capacity to
be sued. According to Defendant, “Black Lives
Matter” “is a movement and not a juridical entity
capable of being sued.” (Doc. 43–1 at p. 2). The Court
finds that the capacity of “Black Lives Matter” to be
sued can be discerned from the face of the pleadings,
and therefore it will treat Defendant’s Rule 9 Motion
as a motion to dismiss for failure to state a claim
under Rule 12(b)(6). See Klebanow, 344 F.2d at 296
n.1.
Federal Rule of Evidence 201 permits a court to
“judicially notice a fact that is not subject to
reasonable dispute because it ... is generally known
within the trial court’s territorial jurisdiction.” Fed.
R. Evid. 201(b)(1). Courts previously have taken
judicial notice of the character, nature, or composition
of various social movements. See, e.g., United States v.
Parise, 159 F.3d 790, 801 (3d Cir. 1998) (holding that
the court could “easily take judicial notice” of the aims
and goals of the “union movement”); Attorney Gen. of
U.S. v. Irish N. Aid. Comm., 530 F. Supp. 241, 259
(S.D.N.Y. 1981) (“Under the doctrine of judicial

67a
notice, the Court can observe that the ‘Republican
movement’ consists of groups other than, and in
addition to, the IRA; but the Court can also notice
that the IRA is a ‘Republican movement’....”); see also
Baggett v. Bullitt, 377 U.S. 360, 376 n.13 (1964)
(noting that “[t]he lower court took judicial notice of
the fact that the Communist Party of the United
States ... was a part of the world Communist
movement dominated by the Soviet Union”).
In his Complaint, Plaintiff names “Black Lives
Matter” as a Defendant, describing “Black Lives
Matter” as a “national incorporated association with
chapter[s] in many states[,] which is amenable to
service of process through a managing member.” (Doc.
1 at ¶ 3). Plaintiff alleges that “Black Lives Matter”
was “created by Alicia Garza, Patrisse Cullors, and
Opal Tometi” and that the “leaders” of “Black Lives
Matter” are “Rashad Turner, Johnetta Elzie[,] and
DeRay Mckesson.” (Id. at ¶ 4).
The Court judicially notices that “Black Lives
Matter,” as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African-American
citizens by law enforcement officers. Fed. R. Evid.
201; cf. Parise, 159 F.3d at 801 (holding that the court
could “easily take judicial notice” of the aims and
goals of the “union movement”); Irish N. Aid. Comm.,
530 F. Supp. at 259 (“Under the doctrine of judicial
notice, the Court can observe that the ‘Republican
movement’ consists of groups other than, and in
addition to, the IRA; but the Court can also notice
that the IRA is a ‘Republican movement’ ....”); see also
Baggett, 377 U.S. at 376 n.13 (noting that “[t]he lower

68a
court took judicial notice of the fact that the
Communist Party of the United States ... was a part
of the world Communist movement dominated by the
Soviet Union”). Because “Black Lives Matter,” as that
term is used in the Complaint, is a social movement,
rather than an organization or entity of any sort, its
advent on social media merely was a “fortuitous
creation of a community of interest”; “Black Lives
Matter” was not created through a “contract of
association” and is not an “entity whose personality ‘is
distinct from that of its members,’” and therefore it is
not a “juridical person” that is capable of being sued.
Ermert, 559 So.2d at 474 (quoting La. Civ. Code art.
24).
The Court notes that the phrase “black lives
matter” has been utilized by various entities wishing
to identify themselves with the “Black Lives Matter”
movement. Plaintiff himself has identified one such
entity and seeks leave of court to add that entity as a
Defendant: Black Lives Matter Network, Inc. (See
Doc. 52–4 at ¶ 3). These entities undoubtedly are
“juridical persons” capable of being sued, and
therefore the issue of such an entity’s capacity would
not impede Plaintiff from filing suit against it. “Black
Lives Matter,” as a social movement, cannot be sued,
however, in a similar way that a person cannot
plausibly sue other social movements such as the
Civil Rights movement, the LGBT rights movement,
or the Tea Party movement. If he could state a
plausible claim for relief, a plaintiff could bring suit
against entities associated with those movements,
though, such as the National Association for the
Advancement of Colored People, the Human Rights
Campaign, or Tea Party Patriots, because those
entities are “juridical persons” within the meaning of

69a
Louisiana law. See La. Civ. Code art 24.
Nevertheless, Plaintiff merely has identified
“Black Lives Matter” as a Defendant in his
Complaint, and that term connotes a social movement
that is not a “juridical person” and that lacks the
capacity to be sued. See Ermert, 559 So.2d at 474.
Therefore, “Black Lives Matter” shall be dismissed as
a Defendant in this case because it lacks the capacity
to be sued. See id.
C. Plaintiff’s Motion to Amend
Following the filing of Defendant’s Rule 12
Motion and Defendant’s Rule 9 Motion, as well as the
oral argument on those Motions, Plaintiff sought
leave of court to amend his Complaint. Plaintiff
identifies two additional Defendants in his Proposed
Amended Complaint—“# BlackLivesMatter” and
Black Lives Matter Network, Inc.—and pleads
additional factual allegations. (See Doc. 52–4). In his
Proposed Amended Complaint, however, Plaintiff
nonetheless fails to state a plausible claim for relief
against any of the four named Defendants: “Black
Lives Matter”—a social movement—and “#
BlackLivesMatter”—a hashtag—both lack the
capacity to be sued, and Plaintiff has failed to state
plausible claims for relief against either Mckesson or
Black Lives Matter Network, Inc., that are supported
by anything more than conclusory allegations.
Therefore, because Plaintiff’s Proposed Amended
Complaint would be subject to dismissal in its
entirety, the Court shall deny Plaintiff leave of court
to amend his Complaint.
1. Legal Standard
If a party is not entitled to amend a pleading as a

70a
matter of course pursuant to Rule 15(a)(1), “a party
may amend its pleading only with the opposing
party’s written consent or the court’s leave.” Fed. R.
Civ. P. 15(a)(2). “The court should freely give leave
when justice so requires.” Id. “[A] district court may
refuse leave to amend,” however, “if the filing of the
amended complaint would be futile.” Varela v.
Gonzales, 773 F.3d 704, 707 (5th Cir. 2014). In other
words, the Court may deny Plaintiff’s Motion to
Amend “if the complaint as amended would be subject
to dismissal.” Ackerson v. Bean Dredging LLC, 589
F.3d 196, 208 (5th Cir. 2009).
2. Analysis
a. “# BlackLivesMatter”
Plaintiff, in his Proposed Amended Complaint,
seeks to add as a Defendant “# BlackLivesMatter.”
(See id. at ¶ 3). Plaintiff alleges that “#
BlackLivesMatter” is a “national unincorporated
association [that] is domiciled in California.” (Id.).
The Court judicially notices that the combination
of a “pound” or “number” sign (#) and a word or
phrase is referred to as a “hashtag” and that hashtags
are utilized on the social media website Twitter in
order to classify or categorize a user’s particular
“tweet,” although the use of hashtags has spread to
other social media websites and throughout popular
culture. See Fed. R. Evid. 201; see also TWTB, Inc. v.
Rampick, 152 F. Supp. 3d 549, 563 n.97 (E.D. La.
2016) (“A hashtag is ‘a word or phrase preceded by the
symbol # that classifies or categorizes the
accompanying text (such as a tweet).’” (quoting
Hashtag, Merriam-Webster Dictionary (2017),
https://www.merriam-webster.com/dictionary/hashta

71a
g)). The Court also judicially notices that “#
BlackLivesMatter” is a popular hashtag that is
frequently used on social media websites. See Fed. R.
Evid. 201.
Plaintiff therefore is attempting to sue a hashtag
for damages in tort. For reasons that should be
obvious, 1 a hashtag—which is an expression that
categorizes or classifies a person’s thought—is not a
“juridical person” and therefore lacks the capacity to
be sued. See La. Civ. Code art. 24. Amending the
Complaint to add “# BlackLivesMatter” as a
Defendant in this matter would be futile because such
claims “would be subject to dismissal”; a hashtag is
patently incapable of being sued. Ackerson, 589 F.3d
at 208.
b. “Black Lives Matter”
Plaintiff also seeks to supplement his allegations
regarding Defendant “Black Lives Matter.” In his
Proposed Amended Complaint, Plaintiff avers that
“Black Lives Matter” is a “chapter-based national
unincorporated association” that is “organized” under
the laws of the State of California, though it allegedly
is also a “partnership” that is a “citizen” of “California
and Delaware.” (Id.).
For the reasons stated previously in reference to
the Court’s analysis of Defendant’s Rule 9 Motion,
The Court notes that if Plaintiff were not bearing his own
costs, which otherwise would be borne by the taxpayers, 28
U.S.C. § 1915(e)(2)(B)(i) would permit the Court to dismiss this
claim as “frivolous”: a lawsuit that alleges that a
hashtag—which is, in essence, an idea—is liable in tort for
damages can be properly categorized as “fantastic or delusional.”
Neitzke v. Williams, 490 U.S. 319, 328 (1989).
1

72a
“Black Lives Matter” is a social movement that lacks
the capacity to be sued. See discussion supra Section
II.B.2. In fact, in his Proposed Amended Complaint,
Plaintiff himself refers to “Black Lives Matter” as a
“movement” on multiple occasions. (See, e.g., id. at ¶
11 (describing the “Black Lives Matter movement”);
id. at ¶ 45 (describing the “Black Lives Matter
movement”); id. at ¶ 48 (describing the “movement’s
rioters”)). Amending the Complaint to permit
Plaintiff to continue to pursue claims against “Black
Lives Matter” would be futile because such claims
“would be subject to dismissal.” Ackerson, 589 F.3d at
208. For the reasons stated previously, “Black Lives
Matter” is a social movement that is not a “juridical
person” and that lacks the capacity to be sued.
c. Mckesson
Plaintiff seeks to amend his complaint to include
additional factual allegations in relation to
Mckesson’s activities and public statements. Plaintiff
seeks to supplement his Complaint with allegations
that Mckesson (1) made a statement on a television
news program, in which he allegedly “justified the
violence” that occurred at a demonstration in
Baltimore, Maryland, (id. at ¶ 9); (2) engaged in a
private conversation that allegedly “shows an intent
to use protests to have ‘martial law’ declared
nationwide through protests,” (id. at ¶ 19); (3)
allegedly made a statement to a news website that
“people take to the streets as a last resort,”
which—according to Plaintiff—was a “ratification
and justification of ... violence,” (id. at ¶ 48); (4)
participated in various interviews or speeches during
which he allegedly described himself or was described
as a “leader” of the “Black Lives Matter” movement or

73a
a “participant” in various demonstrations, (see, e.g.,
id. at ¶¶ 10, 11, 13, 45, 55, 58); (5) “ratified all action
taken during the Baton Rouge protest,” (id. at ¶ 39);
and (6) “incited criminal conduct that cause[d]
injury,” (id. at ¶ 44).
These supplemental factual allegations do not
remedy Plaintiff’s failure to state a plausible claim for
relief against Mckesson. See discussion supra Section
II.A.2. Plaintiff’s allegations that Mckesson “ratified
all action,” (id. at ¶ 39), and “incited criminal
conduct,” (id. at ¶ 44), are nothing but “[t]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements,” which “do not
suffice” to survive a Rule 12(b)(6) motion to dismiss.
Iqbal, 556 U.S. at 678. Plaintiff’s Proposed Amended
Complaint is devoid of any facts, aside from these
broad conclusory allegations, that tend to suggest
that Mckesson made any statements or engaged in
any conduct that “authorized, directed, or ratified”
the unidentified demonstrator’s act of throwing a rock
at Plaintiff. Claiborne Hardware, 458 U.S. at 927.
Further, the additional public statements2 that
Plaintiff has pleaded do not support a plausible claim
for relief against Mckesson. Rather than including
Setting aside Plaintiff's description of it in mere
conclusory terms, the conversation in which Plaintiff alleges
that Mckesson "show[ed] an intent to use protests to have
`martial law' declared nationwide through protests," Doc. 52-4 at
¶ 19, is a private conversation that cannot give rise to liability in
tort for the actions of other demonstrators. See Claiborne
Hardware, 458 U.S. at 927 (holding that liability may only be
imposed on a person for the tortious acts of others with whom
the person associated if his "public speech" meets certain
criteria (emphasis added)).
2

74a
the actual statement that Mckesson allegedly made
on a television news program, Plaintiff merely pleads
that Mckesson “justified the violence,” (id. at ¶ 9); this
is a “[t]hreadbare recital[] of the elements of a cause
of action,” which is “supported by mere conclusory
statements.” Iqbal, 556 U.S. at 678. Mckesson’s
alleged statement that “people take to the streets as a
last resort,” (id. at ¶ 48), similarly cannot give rise to
a cause of action: it is not plausible that this
statement could be “likely to incite lawless action” or
be of such a character that it could serve as “evidence
that [he] gave other specific instructions” to the
unidentified demonstrator to throw a rock at
Plaintiff. Claiborne Hardware, 458 U.S. at 927.
Moreover, to premise Mckesson’s liability on the sole
basis of his public statements in which he identified
himself as a “leader” of the “Black Lives Matter”
movement
or
a
“participant”
in
various
demonstrations, (see, e.g., id. at ¶¶ 10, 11, 13, 45, 55,
58), would impermissibly impose liability on
Mckesson for merely exercising his right of
association. See id. at 925-26 (“[M]ere association
with [a] group—absent a specific intent to further an
unlawful aim embraced by that group—is an
insufficient predicate for liability.”).
Plaintiff therefore has failed to remedy the
deficiencies that the Court identified in his
Complaint, see discussion supra Section II.A.2, and
thus permitting Plaintiff to amend his Complaint to
add various factual allegations against Mckesson
would be futile because such claims nonetheless
“would be subject to dismissal.” Ackerson, 589 F.3d at
208.
d. Black Lives Matter Network, Inc.

75a
Plaintiff, in his Proposed Amended Complaint,
seeks to add Black Lives Matter Network, Inc., as a
Defendant in this case. Plaintiff discovered the
existence of Black Lives Matter Network, Inc., after
making a donation through a website that is allegedly
identified with the “Black Lives Matter” movement;
the receipt from the donation indicated that Black
Lives Matter Network, Inc., was the entity that
received the donation.
While Black Lives Matter Network, Inc., certainly
is an entity that has the capacity to be sued, see La.
Civ. Code art. 24, Plaintiff has failed to state a
plausible claim for relief against that entity in his
Proposed Amended Complaint. For an entity such as
Black Lives Matter Network, Inc., to be held liable in
tort for damages caused during a demonstration, a
plaintiff must demonstrate that the tortious act was
committed by one of the entity’s “agents ... within the
scope of their actual or apparent authority.”
Claiborne Hardware, 458 U.S. at 930. Such an entity
also may “be found liable for other conduct of which it
had knowledge and specifically ratified.” Id.
Plaintiff’s only attempt at characterizing the
unidentified tortfeasor as an agent of Black Lives
Matter Network, Inc., is located in paragraph 37 of
the Proposed Amended Complaint, in which Plaintiff
alleges that the tortfeasor was a “member of
Defendant Black Lives Matter, under the control and
custody of Defendants.” (Id. at ¶ 37). Not only does
Plaintiff specifically fail to mention Black Lives
Matter Network, Inc., whatsoever, but Plaintiff also
fails to allege that such an agency relationship
existed between the tortfeasor and “Defendants” with
anything more than a “[t]hreadbare recital[] of the

76a
elements” of agency, “supported by [a] mere
conclusory statement[].” Iqbal, 556 U.S. at 678.
Further, Plaintiff has failed to plead that Black Lives
Matter Network, Inc., in particular, “had knowledge
and specifically ratified” the unidentified tortfeasor’s
act of throwing a rock at Plaintiff, Claiborne
Hardware, 458 U.S. at 930; Plaintiff merely alleges,
in a conclusory fashion, that “Black Lives Matter
leadership ratified all action taken during the
protest,” (id. at ¶ 39), and that “Black Lives Matter
promoted and ratified” the tortious conduct that gave
rise to this suit, (id. at ¶ 44).
These allegations are insufficient to state a
plausible claim for relief against Black Lives Matter
Network, Inc. Not only are these allegations
“conclusory statements,” but they also do not identify
any connection between this particular entity—Black
Lives Matter Network, Inc.—and the particular
tortious activity. Iqbal, 556 U.S. at 678. As the
Supreme Court noted in Claiborne Hardware,
allowing Plaintiff to proceed against Black Lives
Matter Network, Inc., in this case—based solely on
these conclusory allegations—“would impermissibly
burden the rights of political association that are
protected by the First Amendment.” 458 U.S. at 931.
Therefore, allowing Plaintiff to amend his Complaint
to add Black Lives Matter Network, Inc., as a
Defendant in this matter would be futile because such
claims “would be subject to dismissal”;3 Plaintiff has
failed to state a plausible claim for relief against
Black Lives Matter Network, Inc., in his Proposed
Black Lives Matter Network, Inc., indeed has filed a
motion to dismiss in the event that the Court permitted Plaintiff
to amend his Complaint to add it as a Defendant. See Doc. 68.
3

77a
Amended Complaint. Ackerson, 589 F.3d at 208.
3. Conclusion
Therefore, the Court finds that Plaintiff has failed
to plead a plausible claim for relief against any of the
Defendants that he identified in his Proposed
Amended Complaint. The Court thus denies Plaintiff
leave to amend his Complaint because the “filing of
the amended complaint would be futile.” Varela, 773
F.3d at 707.
D. Dismissal with Prejudice
For the reasons stated above, the Court finds that
Plaintiff has failed to state a plausible claim for relief
against either Mckesson or “Black Lives Matter,” the
only Defendants named in Plaintiff’s initial
Complaint. See discussion supra Section II.A-.B.
Under normal circumstances, the Court would
dismiss this matter without prejudice to provide
Plaintiff with an opportunity to ameliorate the
deficiencies that the Court has identified in his
Complaint.
Plaintiff has had ample opportunity, however,
following the briefing and argument on Defendant’s
Rule 12 and Rule 9 Motions to demonstrate to the
Court that he can state a plausible claim for relief
against an individual or entity. In response to the
arguments raised by Mckesson in his Motions and by
the Court during oral argument on the Motions,
Plaintiff nonetheless produced a Proposed Amended
Complaint that not only fails to state a plausible
claim for relief against any of the named Defendants,
but that also attempts to hold a hashtag liable for
damages in tort. The Court therefore finds that
granting leave to Plaintiff to attempt to file a Second

78a
Proposed Amended Complaint would be futile. The
Court also notes that Plaintiff’s attempt to bring suit
against a social movement and a hashtag evinces
either a gross lack of understanding of the concept of
capacity or bad faith, which would be an independent
ground to deny Plaintiff leave to file a Second
Proposed Amended Complaint. The Court therefore
shall dismiss this matter with prejudice. See Cent.
Laborers’ Pension Fund v. Integrated Elec. Servs. Inc.,
497 F.3d 546, 556 (5th Cir. 2007) (citing Foman v.
Davis, 371 U.S. 178, 182 (1962)).
III. CONCLUSION
Accordingly,
IT IS ORDERED that Defendant DeRay
Mckesson’s Motion to Dismiss (Doc. 15) is GRANTED.
IT IS FURTHER ORDERED that Defendant
DeRay Mckesson’s Motion to Dismiss Pursuant to
Federal Rule of Civil Procedure 9(a) (Doc. 43) is
GRANTED.
IT IS FURTHER ORDERED that the Motion to
File Amended Complaint for Damages (Doc. 52) filed
by Plaintiff is DENIED.
IT IS FURTHER ORDERED that the
above-captioned matter is DISMISSED WITH
PREJUDICE.

79a

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-30864
OFFICER JOHN DOE, Police Officer,
Plaintiff – Appellant
v.
DERAY MCKESSON; BLACK LIVES MATTER;
BLACK LIVES MATTER NETWORK,
INCORPORATED,
Defendants - Appellees
Appeal from the United States District Court for the
Middle District of Louisiana
ON REQUEST FOR A POLL
Opinion 945 F.3d 818 (5th Cir. Dec. 16, 2019)
January 28, 2020
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
PER CURIAM:
The court having been polled at the request of one
of its members, and a majority of the judges who are
in regular service and not disqualified not having
voted in favor (Fed. R. Ap. P. 35 and 5th Cir. R. 35),
rehearing en banc is DENIED. In the en banc poll,
eight judges in favor of rehearing (Judge Stewart,
Judge Dennis, Judge Southwick, Judge Graves, Judge
Higginson, Judge Costa, Judge Willett, and Judge
Duncan), and eight judges voted against rehearing
(Chief Judge Owen, Judge Jones, Judge Smith, Judge

80a
Elrod, Judge Haynes, Judge Ho, Judge Engelhardt,
and Judge Oldham).
Judge Ho concurred with the Court’s denial of
rehearing en banc, his Concurrence is attached. Judge
Dennis, joined by Judge Graves, and Judge
Higginson, joined by Judge Dennis, dissent from the
Court’s denial of rehearing en banc, their Dissents are
attached.
ENTERED FOR THE COURT:
E. Grady Jolly
United States Circuit Judge
JAMES C. HO, Circuit Judge, concurring in denial of
rehearing en banc:
I agree with my colleagues who voted to grant
rehearing en banc that this lawsuit by a police officer
against DeRay Mckesson, a leader of the Black Lives
Matter movement, should not proceed.
I
nevertheless voted to deny rehearing en banc. I write
to briefly explain why, in the hope that this
explanation might help finally bring this suit to an
end.
I.
Police officers and firefighters dedicate their lives
to protecting others, often putting themselves in
harm’s way. These are difficult and dangerous jobs,
and citizens owe a debt of gratitude to those who are
willing and able to perform them. What’s more, police
officers and firefighters assume the risk that they
may be injured in the line of duty. So they are not
allowed to recover damages from those responsible for

81a
their injuries, under a common law rule known as the
professional rescuer doctrine.
“The professional rescuer doctrine, the fireman’s
rule, is a common law rule that either bars recovery
by a professional rescuer injured in responding to an
emergency or requires the rescuer to prove a higher
degree of culpability in order to recover.” Gallup v.
Exxon Corp., 70 F. App’x 737, 738 (5th Cir. 2003)
(collecting Louisiana cases). “The Professional
Rescuer’s Doctrine is a jurisprudential rule that
essentially states that a professional rescuer, such as
a fireman or a policeman, who is injured in the
performance of his duties, ‘assumes the risk’ of such
an injury and is not entitled to damages”—
particularly when the “risks arise from the very
emergency that the professional rescuer was hired to
remedy.” Gann v. Matthews, 873 So.2d 701, 705–6
(La. Ct. App. 2004).
This doctrine would seem to require immediate
dismissal of this suit. After all, there is no dispute
that the officer was seriously injured in the line of
duty—specifically, while policing a Black Lives
Matter protest that unlawfully obstructed a public
highway and then turned violent. The officer deserves
our profound thanks, sympathy, and respect. But his
case would appear to fall squarely within the scope of
the doctrine.
None of the panel opinions in this case addressed
the
professional
rescuer
doctrine,
however—presumably because Mckesson never
raised it. I imagine that, if given the chance on
remand, he will invoke the doctrine at last, and that
the district court will terminate this suit (again)
accordingly.

82a
Had Mckesson raised this doctrine at an earlier
stage in the suit, there would have been no need to
answer the more challenging First Amendment
questions that now animate his petition for rehearing
en banc. But he did not. So, like the panel, I turn to
those questions now.
II.
Because Mckesson has thus far neglected to
invoke the professional rescuer doctrine, the panel
confronted novel and interesting First Amendment
issues that are arguably worthy of rehearing en banc.
But I take some comfort in the fact that, upon closer
review of the panel opinions, the constitutional
concerns that have generated the most alarm may not
be as serious as feared.
The First Amendment indisputably protects the
right of every American to condemn police
misconduct.1 And that protection secures the citizen
protestor against not only criminal penalty, but civil
liability as well. See, e.g., NAACP v. Claiborne
Hardware Co., 458 U.S. 886, 920 (1982).
But there are important differences between the
theory of liability held invalid in Claiborne Hardware
and the tort liability permitted by the panel majority
here. In Claiborne Hardware, the defendants were
sued for leading a boycott of white merchants. State
courts subsequently held the defendants liable for all
of the economic damages caused by their boycott.
Indeed, it is important to condemn such misconduct when
it occurs. See, e.g., United States v. Taffaro, 919 F.3d 947, 949-51
(5th Cir. 2019) (Ho, J., concurring in the judgment); Wilson v.
City of Southlake, 936 F.3d 326, 333-34 (5th Cir. 2019) (Ho, J.,
concurring in the judgment).
1

83a
Notably, the theory of liability rejected in Claiborne
Hardware was inherently premised on the content of
expressive activity. If the defendants had advocated
in favor of the white merchants, no court would have
held them liable for such speech. So the tort liability
theory adopted by the state courts necessarily turned
on the content of the defendants’ expressive activities.
And the Supreme Court rejected this content-based
theory of liability as a violation of the First
Amendment. See, e.g., id. at 914 (“[T]he petitioners
certainly foresaw—and directly intended—that the
merchants would sustain economic injury as a result
of their campaign …. [But t]he right of the States to
regulate economic activity could not justify a complete
prohibition against a nonviolent, politically motivated
boycott designed to force governmental and economic
change and to effectuate rights guaranteed by the
Constitution itself.”).
By contrast, the theory of liability adopted in this
case appears to be neutral as to the content of the
Black Lives Matter protest. Unlike Claiborne
Hardware, liability here turns not on the content of
the expressive activity, but on the unlawful
obstruction of the public highway and the injuries
that foreseeably resulted. This is an important
distinction. As Claiborne Hardware itself observed:
“While the State legitimately may impose damages
for the consequences of violent conduct, it may not
award compensation for the consequences of
nonviolent, protected activity.” Id. at 918. “Only those
losses proximately caused by unlawful conduct may
be recovered.” Id.
So in sum: Content-based damages are generally
impermissible, as Claiborne Hardware illustrates.

84a
But content-neutral rules typically survive First
Amendment challenge. See, e.g., Ward v. Rock Against
Racism, 491 U.S. 781, 791 (1989) (“Our cases make
clear … that even in a public forum the government
may impose reasonable restrictions on the time,
place, or manner of protected speech, provided the
restrictions ‘are justified without reference to the
content of the regulated speech, that they are
narrowly tailored to serve a significant governmental
interest, and that they leave open ample alternative
channels for communication of the information.’”)
(collecting cases).
Applying that framework here, I do not
understand the panel majority to suggest that
Mckesson may be held liable for lawfully protesting
police— that would be a textbook violation of
established First Amendment doctrine, including
Claiborne Hardware—but rather for injuries
following the unlawful obstruction of a public
highway. As the panel explained, “the criminal
conduct allegedly ordered by Mckesson was not itself
protected by the First Amendment, as Mckesson
ordered the demonstrators to violate a reasonable
time, place, and manner restriction by blocking the
public highway. As such, no First Amendment
protected activity is suppressed by allowing the
consequences of Mckesson’s conduct to be addressed
by state tort law.” Doe v. Mckesson, 945 F.3d 818, 832
(5th Cir. 2019) (citation omitted). In the face of such
limiting language, any First Amendment concern
about the potential reach of the panel majority
opinion strikes me as uncertain and speculative.2
2 By contrast, there was no such ambiguity in a recent
decision of our court—one that presented even starker First

85a
So if I understand the panel majority’s theory of
liability correctly, it may be expansive—and it may be
wrong as a matter of Louisiana law, as Judge
Higginson’s typically thoughtful dissent suggests. But
it applies with equal force to pro-police protestors
(just as it would, say, to pro-life and pro-choice
protestors alike) who unlawfully obstruct a public
highway and then break out into violence. It is far
from obvious, then, that the First Amendment
principles articulated in Claiborne Hardware would
have any bearing here (and we do not ordinarily grant
en banc rehearing to resolve questions of state law).
***

Amendment concerns—yet we nevertheless denied rehearing en
banc. See Zimmerman v. City of Austin, 888 F.3d 163 (5th Cir.
2018). I say starker because the First Amendment surely
protects political speech at least as much as it protects
protests—and because a state surely has a greater interest in
protecting police officers from assault than in preventing
citizens from donating over $350 to a city council race. As the
ACLU once noted, “[c]ontributions are crucially important in
determining the level of political debate and in implementing
the freedom of association guaranteed by the First Amendment
…. If anything, Americans spend too little to finance the process
by which their government is chosen.” Brief of the Appellants, at
27-28, Buckley v. Valeo, 424 U.S. 1 (1976). See also Buckley, 424
U.S. at 288 (Marshall, J., concurring in part and dissenting in
part) (“[A]ll Members of the Court agree … money is essential for
effective communication in a political campaign.”); Thompson v.
Hebdon, 140 S. Ct. 348, 350 (2019) (per curiam) (“JUSTICE
BREYER’s opinion for the plurality observed that ‘contribution
limits that are too low can … harm the electoral process by
preventing challengers from mounting effective campaigns
against incumbent officeholders, thereby reducing democratic
accountability.”) (quoting Randall v. Sorrell, 548 U.S. 230, 249
(2006)).

86a
Civil disobedience enjoys a rich tradition in our
nation’s history. But there is a difference between
civil disobedience—and civil disobedience without
consequence 3 Citizens may protest. But by
protesting, the citizen does not suddenly gain
immunity to violate traffic rules or other laws that the
rest of us are required to follow. The First
Amendment protects protest, not trespass.
That said, this lawsuit should not proceed for an
entirely different reason—the professional rescuer
doctrine. I trust the district court will faithfully apply
that doctrine if and when Mckesson invokes it, and
dismiss the suit on remand, just as it did before. It is
for that reason that I am comfortable concurring in
the denial of rehearing en banc.
JAMES L. DENNIS, Circuit Judge, joined by
JAMES E. GRAVES, Circuit Judge, dissenting:
I respectfully dissent from the court’s refusal to
rehear en banc a 2-1 panel opinion that not only
misapplies Louisiana’s duty-risk analysis, as Judge
Indeed, for the civil disobedient, the consequence is the
point. See, e.g., Henry David Thoreau, Civil Disobedience (1849)
(“Under a government which imprisons any unjustly, the true
place for a just man is also a prison.”); Martin Luther King Jr.,
Letter from a Birmingham Jail (1963) (“Of course, there is
nothing new about this kind of civil disobedience. It was seen
sublimely in the refusal of Shadrach, Meshach, and Abednego to
obey the laws of Nebuchadnezzar because a higher moral law
was involved. It was practiced superbly by the early Christians,
who were willing to face hungry lions and the excruciating pain
of chopping blocks before submitting to certain unjust laws of
the Roman Empire. To a degree, academic freedom is a reality
today because Socrates practiced civil disobedience.”).
3

87a
Higginson’s dissent, infra, points out, but also fails to
uphold the clearly established First Amendment
principles enshrined in NAACP v. Claiborne
Hardware Co., 458 U.S. 886 (1982). Claiborne
Hardware reaffirmed this country’s “profound
national commitment to the principle that debate on
public issues should be uninhibited, robust, and
wide-open.” Claiborne, 458 U.S. at 913 (cleaned up).
Thus, when violence or threats of violence “occur[] in
the context of constitutionally protected activity, …
precision of regulation is demanded,” including an
inquiry into whether the defendant “authorized,
ratified, or directly threatened acts of violence.” Id. at
916, 929. The panel majority demands no such
precision. Instead, it appears to apply a freewheeling
form of strict liability having no resemblance to
Louisiana law’s careful duty-risk analysis, concluding
that, because of his association with the
demonstrators or his failure to anticipate and prevent
the rock throwing incident, Mckesson can be held
liable—despite the First Amendment protection
historically afforded protest activity—for the acts of a
“mystery attacker.” Doe v. Mckesson, 945 F.3d 818,
842 (5th Cir. 2019) (Willett, J., dissenting). The
majority of our colleagues have thus grievously failed
to do what should have been done: Take up this case,
apply the longstanding protections of the First
Amendment, and conclude, as the district court did,
that Doe’s lawsuit against DeRay Mckesson should be
dismissed. See Doe v. Mckesson, 272 F. Supp. 3d 841,
852-53 (M.D. La. 2017).

88a
STEPHEN A. HIGGINSON, Circuit Judge, joined
by JAMES L. DENNIS, Circuit Judge, dissenting:
The panel opinion holds that the First
Amendment affords no protection to McKesson
because he was negligent under Louisiana law. I do
not believe the Louisiana Supreme Court would
recognize a negligence claim in this situation. When a
negligence claim is based on the violation of a statute,
Louisiana courts allow recovery only if the plaintiff’s
injury falls within “the scope of protection intended by
the legislature.” Lazard v. Foti, 859 So. 2d 656, 661
(La. 2003). An assault on a police officer by a
third-party is not the “particular risk” addressed by
the highway obstruction statute. Id. Absent the
breach of this statutory duty, it is unclear on what
basis the panel opinion finds that the protest was
foreseeably violent.
To the extent that the panel opinion creates a new
Louisiana tort duty, this is “a policy decision” for
Louisiana courts—not this court—to make. See
Posecai v. Wal-Mart Stores, Inc., 752 So. 2d 762, 766
(La. 1999); see also Meador v. Apple, 911 F.3d 260, 267
(5th Cir. 2018). Even if we could make this policy
decision ourselves, the panel opinion does not weigh
the “moral, social, and economic factors” the
Louisiana Supreme Court has identified as relevant,
including “the nature of defendant’s activity” and “the
historical development of precedent.” Posecai, 752 So.
2d at 766. In light of the vital First Amendment
concerns at stake, I respectfully suggest that these
considerations counsel against our court recognizing a
new Louisiana state law negligence duty here, at least
in a case where argument from counsel has not been

89a
received. Protestors of all types and causes have been
blocking streets in Louisiana for decades without
Louisiana courts recognizing any similar claim.
For these reasons, I dissent.

90a
In the United States Court of Appeals for the Fifth
Circuit
No. 17-30864
OFFICER JOHN DOE, Police Officer,
Plaintiff-Appellant
v.
DERAY MCKESSON; BLACK LIVES
MATTER; BLACK LIVES MATTER NETWORK,
INCORPORATED, Defendants-Appellees
Appeal from the United States District Court
for the Middle District of Louisiana
ON PETITION FOR PANEL REHEARING
August 8, 2019
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
The petition for panel rehearing is hereby
GRANTED. We WITHDRAW the court’s prior opinion
of April 24, 2019, and substitute the following
opinion.
During a public protest against police misconduct
in Baton Rouge, Louisiana, an unidentified individual
hit Officer John Doe with a heavy object, causing him
serious physical injuries. Following this incident,
Officer Doe brought suit against “Black Lives
Matter,” the group associated with the protest, and
DeRay Mckesson, one of the leaders of Black Lives
Matter and the organizer of the protest. Officer Doe

91a
later sought to amend his complaint to add Black
Lives Matter Network, Inc. and # BlackLivesMatter
as defendants. The district court dismissed Officer
Doe’s claims on the pleadings under Federal Rule of
Civil Procedure 12(b)(6), and denied his motion to
amend his complaint as futile. Because we conclude
that the district court erred in dismissing the case
against Mckesson on the basis of the pleadings, we
REMAND for further proceedings relative to
Mckesson. We further hold that the district court
properly dismissed the claims against Black Lives
Matter. 1 We thus REVERSE in part, AFFIRM in
part, and REMAND for further proceedings not
inconsistent with this opinion.
I.
On July 9, 2016, a protest took place by blocking a
public highway in front of the Baton Rouge Police
Department headquarters.2 This demonstration was
one in a string of protests across the country, often
associated with Black Lives Matter, concerning police
practices. The Baton Rouge Police Department
prepared by organizing a front line of officers in riot
gear. These officers were ordered to stand in front of
other officers prepared to make arrests. Officer Doe
was one of the officers ordered to make arrests.
DeRay Mckesson, associated with Black Lives
Matter, was the prime leader and an organizer of the
protest.
In the presence of Mckesson, some protesters
1 We do not address any of the allegations raised by the
Proposed Amended Complaint. See note 5, infra.

This case comes to us on a motion to dismiss, so we treat
all well-pleaded facts as true.
2

92a
began throwing objects at the police officers.
Specifically, protestors began to throw full water
bottles, which had been stolen from a nearby
convenience store. The dismissed complaint further
alleges that Mckesson did nothing to prevent the
violence or to calm the crowd, and, indeed, alleges
that Mckesson “incited the violence on behalf of
[Black Lives Matter].” The complaint specifically
alleges that Mckesson led the protestors to block the
public highway. The police officers began making
arrests of those blocking the highway and
participating in the violence.
At some point, an unidentified individual picked
up a piece of concrete or a similar rock-like object and
threw it at the officers making arrests. The object
struck Officer Doe’s face. Officer Doe was knocked to
the ground and incapacitated. Officer Doe’s injuries
included loss of teeth, a jaw injury, a brain injury, a
head injury, lost wages, “and other compensable
losses.”
Following the Baton Rouge protest, Officer Doe
brought suit, naming Mckesson and Black Lives
Matter as defendants. According to his complaint, the
defendants are liable on theories of negligence,
respondeat superior, and civil conspiracy. Mckesson
subsequently filed two motions: (1) a Rule 12(b)(6)
motion, asserting that Officer Doe failed to state a
plausible claim for relief against Mckesson and (2) a
Rule 9(a)(2) motion, asserting that Black Lives
Matter is not an entity with the capacity to be sued.
Officer Doe responded by filing a motion to
amend. He sought leave to amend his complaint to
add factual allegations to his complaint and Black
Lives Matter Network, Inc. and # BlackLivesMatter

93a
as defendants.
II.
The district court granted both of Mckesson’s
motions, treating the Rule 9(a)(2) motion as a Rule
12(b)(6) motion, and denied Officer Doe’s motion for
leave to amend, concluding that his proposed
amendment would be futile. With respect to Officer
Doe’s claims against # BlackLivesMatter, the district
court took judicial notice that it is a “hashtag” and
therefore an “expression” that lacks the capacity to be
sued. With respect to Officer Doe’s claims against
Black Lives Matter Network, Inc. the district court
held that Officer Doe’s allegations were insufficient to
state a plausible claim for relief against this entity.
Emphasizing the fact that Officer Doe attempted to
add a social movement and a “hashtag” as
defendants, the district court dismissed his case with
prejudice. Officer Doe timely appealed.
III.
When considering a motion to dismiss under Rule
12(b)(6), we will not affirm dismissal of a claim unless
the plaintiff can prove no set of facts in support of his
claim that would entitle him to relief. Alexander v.
Verizon Wireless Servs., L.L.C., 875 F.3d 243, 249 (5th
Cir. 2017). “We take all factual allegations as true
and construe the facts in the light most favorable to
the plaintiff.” Id. (citing Kelly v. Nichamoff, 868 F.3d
371, 374 (5th Cir. 2017)). To survive, a complaint
must consist of more than “labels and conclusions” or
“naked assertions devoid of further factual
enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007) (internal quotation marks and

94a
brackets omitted)). Instead, “the plaintiff must plead
enough facts to nudge the claims across the line from
conceivable to plausible.” Hinojosa v. Livingston, 807
F.3d 657, 684 (5th Cir. 2015) (internal quotation
marks, brackets, and ellipses omitted) (quoting Iqbal,
556 U.S. at 680).3
A district court’s denial of a motion to amend is
generally reviewed for abuse of discretion. Thomas v.
Chevron U.S.A., Inc., 832 F.3d 586, 590 (5th Cir.
2016). However, where the district court’s denial of
leave to amend was based solely on futility, we
instead apply a de novo standard of review identical
Federal Rule of Civil Procedure Rule 9(a)(2) states that, if
a party wishes to raise an issue regarding lack of capacity to be
sued, “a party must do so by a specific denial.” Rule 12(b) does
not specifically authorize a motion to dismiss based on a lack of
capacity. Nonetheless, we have permitted Rule 12(b) motions
arguing lack of capacity. See, e.g., Darby v. Pasadena Police
Dep’t, 939 F.2d 311 (5th Cir. 1992). Where the issue appears on
the face of the complaint, other courts have done the same and
treated it as a Rule 12(b)(6) motion. See, e.g., Klebanow v. N.Y.
Produce Exch., 344 F.2d 294, 296 n.1 (2d Cir. 1965) (“Although
the defense of lack of capacity is not expressly mentioned in
[R]ule 12(b), the practice has grown up of examining it by a
12(b)(6) motion when the defect appears upon the face of the
complaint.”); Coates v. Brazoria Cty. Tex., 894 F.Supp.2d 966,
968 (S.D. Tex. 2012) (“Whether a party has the capacity to sue or
be sued is a legal question that may be decided at the Rule 12
stage.”); see also 5A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 1294 (3d ed. 2018) (“An
effective denial of capacity … creates an issue of fact. Such a
denial may be made in the responsive pleading or, if the lack of
capacity … appears on the face of the pleadings or is discernible
there from, the issue can be raised by a motion to dismiss for
failure to state a claim for relief.” (footnotes omitted)). Thus, we
review the district court’s dismissal for lack of capacity de novo
and apply the Rule 12(b)(6) standard.
3

95a
in practice to the Rule 12(b)(6) standard. Id. When a
party seeks leave from the court to amend and justice
requires it, the district court should freely give it.
Fed. R. Civ. P. 15(a)(2).

IV.
A.
We begin by addressing Officer Doe’s claims
against DeRay Mckesson. The district court did not
reach the merits of Officer Doe’s underlying state tort
claims, but instead found that Officer Doe failed to
plead facts that took Mckesson’s conduct outside of
the bounds of First Amendment protected speech and
association. Because we ultimately find that
Mckesson’s conduct at this pleading stage was not
necessarily protected by the First Amendment, we
will begin by addressing the plausibility of Officer
Doe’s state tort claims. We will address each of Officer
Doe’s specific theories of liability in turn—vicarious
liability, negligence, and civil conspiracy, beginning
with vicarious liability.
1.
Louisiana Civil Code article 2320 provides that
“[m]asters and employers are answerable for the
damage occasioned by their servants and overseers,
in the exercise of the functions which they are
employed.” A “servant,” as used in the Civil Code,
“includes anyone who performs continuous service for
another and whose physical movements are subject to
the control or right to control of the other as to the
manner of performing the service.” Ermert v.

96a
Hartford Ins. Co., 559 So. 2d 467, 476 (La. 1990).
Officer Doe’s vicarious liability theory fails at the
point of our beginning because he does not allege facts
that support an inference that the unknown assailant
“perform[ed] a continuous service” for or that the
assailant’s “physical movements [were] subject to the
control or right to control” of Mckesson. Therefore,
under the pleadings, Mckesson cannot be held liable
under a vicarious liability theory.
2.
We now move on to address Officer Doe’s civil
conspiracy theory. Civil conspiracy is not itself an
actionable tort. Ross v. Conoco, Inc., 828 So. 2d 546,
552 (La. 2002). Instead, it assigns liability arising
from the existence of an underlying unlawful act. Id.
In order to impose liability for civil conspiracy in
Louisiana, a plaintiff must prove that (1) an
agreement existed with one or more persons to
commit an illegal or tortious act; (2) the act was
actually committed; (3) the act resulted in plaintiff’s
injury; and (4) there was an agreement as to the
intended outcome or result. Crutcher-Tufts Res., Inc.
v. Tufts, 992 So. 2d 1091, 1094 (La. Ct. App. 2008); see
also La. Civ. Code art. 2324. “Evidence of … a
conspiracy can be actual knowledge, overt actions
with another, such as arming oneself in anticipation
of apprehension, or inferred from the knowledge of
the alleged co-conspirator of the impropriety of the
actions taken by the other co-conspirator.” Stephens v.
Bail Enf’t, 690 So. 2d 124, 131 (La. Ct. App. 1997).
Officer Doe’s complaint is vague about the
underlying conspiracy to which Mckesson agreed, or
with whom such an agreement was made. In his
complaint, Officer Doe refers to a conspiracy “to incite

97a
a riot/protest.” Disregarding Officer Doe’s conclusory
allegations, we find that Officer Doe has not alleged
facts that would support a plausible claim that
Mckesson can be held liable for his injuries on a
theory of civil conspiracy. Although Officer Doe has
alleged facts that support an inference that Mckesson
agreed with unnamed others to demonstrate illegally
on a public highway, he has not pled facts that would
allow a jury to conclude that Mckesson colluded with
the unknown assailant to attack Officer Doe or knew
of the attack and specifically ratified it. The closest
that Officer Doe comes to such an allegation is when
he states that Mckesson was “giving orders”
throughout the demonstration. But we cannot infer
from this quite unspecific allegation that Mckesson
ordered the unknown assailant to attack Officer Doe.
Lacking an allegation of this pleading quality, Officer
Doe’s conspiracy claim must and does fail.
3.
Finally, we turn to Officer Doe’s negligence
theory. Officer Doe alleges that Mckesson was
negligent for organizing and leading the Baton Rouge
demonstration because he “knew or should have
known” that the demonstration would turn violent.
We agree as follows.
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.” The Louisiana Supreme Court has adopted
a “duty-risk” analysis for assigning tort liability
under a negligence theory. This theory requires a
plaintiff to establish that (1) the plaintiff suffered an
injury; (2) the defendant owed a duty of care to the
plaintiff; (3) the duty was breached by the defendant;

98a
(4) the conduct in question was the cause-in-fact of
the resulting harm; and (5) the risk of harm was
within the scope of protection afforded by the duty
breached. Lazard v. Foti, 859 So. 2d 656, 659 (La.
2003). Whether a defendant owes a plaintiff a duty is
a question of law. See Posecai v. Wal-Mart Stores,
Inc., 752 So. 2d 762, 766 (La. 1999); Bursztajn v.
United States, 367 F.3d 485, 489 (5th Cir. 2004)
(“Under Louisiana law, the existence of a duty
presents a question of law that ‘varies depending on
the facts, circumstances, and context of each case and
is limited by the particular risk, harm, and plaintiff
involved.’” (quoting Dupre v. Chevron U.S.A., Inc., 20
F.3d 154, 157 (5th Cir. 1994))). There is a “universal
duty on the part of the defendant in negligence cases
to use reasonable care so as to avoid injury to
another.” Boykin v. La. Transit Co., 707 So. 2d 1225,
1231 (La. 1998). Louisiana courts elucidate specific
duties of care based on consideration of “various
moral, social, and economic factors, including the
fairness of imposing liability; the economic impact on
the defendant and on similarly situated parties; the
need for an incentive to prevent future harm; the
nature of defendant’s activity; the potential for an
unmanageable flow of litigation; the historical
development of precedent; and the direction in which
society and its institutions are evolving.” Posecai, 752
So. 2d at 766.
We first note that this case comes before us from
a dismissal on the pleadings alone. In this context, we
find that Officer Doe has plausibly alleged that
Mckesson breached his duty of reasonable care in the
course of organizing and leading the Baton Rouge
demonstration. The complaint specifically alleges
that it was Mckesson himself who intentionally led

99a
the demonstrators to block the highway. Blocking a
public highway is a criminal act under Louisiana law.
See La. Rev. Stat. Ann. § 14:97. As such, it was
patently foreseeable that the Baton Rouge police
would be required to respond to the demonstration by
clearing the highway and, when necessary, making
arrests. Given the intentional lawlessness of this
aspect of the demonstration, Mckesson should have
known that leading the demonstrators onto a busy
highway was most nearly certain to provoke a
confrontation between police and the mass of
demonstrators, yet he ignored the foreseeable danger
to officers, bystanders, and demonstrators, and
notwithstanding, did so anyway. By ignoring the
foreseeable risk of violence that his actions created,
Mckesson failed to exercise reasonable care in
conducting his demonstration.
Officer Doe has also plausibly alleged that
Mckesson’s breach of duty was the cause-in-fact of
Officer Doe’s injury and that the injury was within
the scope of the duty breached by Mckesson. It may
have been an unknown demonstrator who threw the
hard object at Officer Doe, but by leading the
demonstrators onto the public highway and
provoking a violent confrontation with the police,
Mckesson’s negligent actions were the “but for”
causes of Officer Doe’s injuries. See Roberts v. Benoit,
605 So. 2d 1032, 1052 (La. 1992) (“To meet the
cause-in-fact element, a plaintiff must prove only that
the conduct was a necessary antecedent of the
accident, that is, but for the defendant’s conduct, the
incident probably would not have occurred.”).
Furthermore, as the purpose of imposing a duty on
Mckesson in this situation is to prevent foreseeable
violence to the police and bystanders, Officer Doe’s

100a
injury, as alleged in the pleadings, was within the
scope of the duty of care allegedly breached by
Mckesson.
We iterate what we have previously noted: Our
ruling at this point is not to say that a finding of
liability will ultimately be appropriate. At the motion
to dismiss stage, however, we are simply required to
decide whether Officer Doe’s claim for relief is
sufficiently plausible to allow him to proceed to
discovery. We find that it is.
B.
Having concluded that Officer Doe has stated a
plausible claim for relief against Mckesson under
state tort law, we will now take a step back and
address the district court’s determination that Officer
Doe’s complaint should be dismissed based on the
First Amendment. The Supreme Court has made
clear that “[t]he First Amendment does not protect
violence.” N.A.A.C.P. v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). Nonetheless, the district court
dismissed the complaint on First Amendment
grounds, reasoning that “[i]n order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
‘authorized, directed, or ratified specific tortious
activity.’” See id. at 927. The district court then went
on to find that there were no plausible allegations
that Mckesson had done so in his complaint.
The district court appears to have assumed that
in order to state a claim that Mckesson was liable for
his injuries, Officer Doe was required to allege facts

101a
that created an inference that Mckesson directed,
authorized, or ratified the unknown assailant’s
specific conduct in attacking Officer Doe. This
assumption, however, does not fit the situation we
address today. Even if we assume that Officer Doe
seeks to hold Mckesson “liable for the unlawful
conduct of others” within the meaning of Claiborne
Hardware, the First Amendment would not require
dismissal of Officer Doe’s complaint. Id. In order to
counter Mckesson’s First Amendment defense at the
pleading stage Officer Doe simply needed to plausibly
allege that his injuries were one of the “consequences”
of “tortious activity,” which itself was “authorized,
directed, or ratified” by Mckesson in violation of his
duty of care. See id. (“[A] finding that [the defendant]
authorized, directed, or ratified specific tortious
activity would justify holding him responsible for the
consequences of that activity.”). Our discussion above
makes clear that Officer Doe’s complaint does allege
that Mckesson directed the demonstrators to engage
in the criminal act of occupying the public highway,
which quite consequentially provoked a confrontation
between the Baton Rouge police and the protesters,
and that Officer Doe’s injuries were the foreseeable
result of the tortious and illegal conduct of blocking a
busy highway.
We focus here on the fact that Mckesson
“directed … specific tortious activity” because we hold
that Officer Doe has adequately alleged that his
injuries were the result of Mckesson’s own tortious
conduct in organizing a foreseeably violent protest. In
Mckesson’s petition for rehearing, he expresses
concern that the panel opinion permits Officer Doe to
hold him liable for the tortious conduct of others even
though Officer Doe merely alleged that he was

102a
negligent, and not that he specifically intended that
violence would result. We think that Mckesson’s
criticisms are misplaced. We perceive no
Constitutional issue with Mckesson being held liable
for injuries caused by a combination of his own
negligent conduct and the violent actions of a another
that were foreseeable as a result of that negligent
conduct. The permissibility of such liability is a
standard aspect of state law. See Restatement (Third)
of Torts: Liability for Physical and Emotional Harm §
19 (2010) (“The conduct of a defendant can lack
reasonable care insofar as it foreseeably combines
with or permits the improper conduct of the plaintiff
or a third party.”). There is no indication in Claiborne
Hardware or subsequent decisions that the Supreme
Court intended to restructure state tort law by
eliminating this principle of negligence liability.
We of course acknowledge that Mckesson’s
negligent conduct took place in the context of a
political protest. It is certainly true that “the presence
of activity protected by the First Amendment imposes
restraints on the grounds that may give rise to
damages liability and on the persons who may be held
accountable for those damages.” Claiborne Hardware,
468 U.S. at 916–17. But Claiborne Hardware does not
insulate the petitioner from liability for his own
negligent conduct simply because he, and those he
associated with, also intended to communicate a
message. See id. at 916 (“[T]he use of weapons,
gunpowder, and gasoline may not constitutionally
masquerade under the guise of advocacy.”) (internal
quotation marks and citations omitted). Furthermore,
although we do not understand the petitioner to be
arguing that the Baton Rouge police violated the
demonstrators’ First Amendment
rights by

103a
attempting to remove them from the highway, we
note that the criminal conduct allegedly ordered by
Mckesson was not itself protected by the First
Amendment, as Mckesson ordered the demonstrators
to violate a reasonable time, place, and manner
restriction by blocking the public highway. See Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 293
(1984) (reasonable time, place, and manner
restrictions do not violate the First Amendment). As
such, no First Amendment protected activity is
suppressed by allowing the consequences of
Mckesson’s conduct to be addressed by state tort law.
Thus, on the pleadings, which must be read in a
light most favorable to Officer Doe, the First
Amendment is not a bar to Officer Doe’s negligence
theory. The district court erred by dismissing Officer
Doe’s complaint—at the pleading stage—as barred by
the First Amendment.4
C.
Now we turn our attention to whether Officer Doe
has stated a claim against Black Lives Matter. The
We emphasize, however, that our opinion does not suggest
that the First Amendment allows a person to be punished, or
held civilly liable, simply because of his associations with others,
unless it is established that the group that the person associated
with “itself possessed unlawful goals and that the individual
held a specific intent to further those illegal aims.” Claiborne
Hardware, 458 U.S. at 920. But we also observe that, in any
event, Officer Doe’s allegations are sufficient to state a claim
that Black Lives Matter “possessed unlawful goals” and that
Mckesson “held a specific intent to further those illegal aims.”
See id. Officer Doe alleges that Black Lives Matter “plann[ed] to
block a public highway,” and, in his amended complaint, that
Mckesson and Black Lives Matter traveled to Baton Rouge “for
the purpose of … rioting.” (emphasis added).
4

104a
district court took judicial notice that “‘Black Lives
Matter,’ as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African-American
citizens by law enforcement officers.” Based on this
conclusion, the district court held that Black Lives
Matter is not a “juridical person” capable of being
sued. See Ermert, 559 So. 2d at 474. We first address
the district court’s taking of judicial notice, then
Black Lives Matter’s alleged capacity to be sued.
Federal Rule of Evidence 201 provides that a
court may take judicial notice of an “adjudicative fact”
if the fact is “not subject to reasonable dispute” in that
it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate
and ready determination by resort to sources whose
accuracy cannot be questioned. Fed. R. Evid. 201(b).
“Rule 201 authorizes the court to take notice only of
‘adjudicative facts,’ not legal determinations.” Taylor
v. Charter Med. Corp., 162 F.3d 827, 831 (5th Cir.
1998). In Taylor, we held that another court’s state
actor determination was not an “adjudicative fact”
within the meaning of Rule 201 because “[w]hether a
private party is a state actor for the purposes of §
1983 is a mixed question of fact and law and is thus
subject to our de novo review.” Id. at 830–31. We
further held that the state-actor determination was
not beyond reasonable dispute where it “was, in fact,
disputed by the parties” in the related case. Id. at 830.
We think that the district court was incorrect to
take judicial notice of a mixed question of fact and law
when it concluded that Black Lives Matter is a “social
movement, rather than an organization or entity of

105a
any sort.” The legal status of Black Lives Matter is
not immune from reasonable dispute; and, indeed, it
is disputed by the parties—Doe claiming that Black
Lives Matter is a national unincorporated
association, and Mckesson claiming that it is a
movement or at best a community of interest. This
difference is sufficient under our case law to preclude
judicial notice.
We should further say that we see the cases
relied on by the district court as distinguishable. Each
deals with judicial notice of an aspect of an entity, not
its legal form. See United States v. Parise, 159 F.3d
790, 801 (3d Cir. 1998) (holding that the court could
take judicial notice of the aims and goals of a
movement); Atty. Gen. of U.S. v. Irish N. Aid. Comm.,
530 F. Supp. 241, 259–60 (S.D.N.Y. 1981) (stating the
court could take “notice that the IRA is a ‘Republican
movement,’ at least insofar as it advocates a united
Ireland” (emphasis added)); see also Baggett v. Bullitt,
377 U.S. 360, 376 n.13 (1964) (noting that “[t]he lower
court took judicial notice of the fact that the
Communist Party of the United States . . . was a part
of the world Communist movement” (emphasis
added)).
Now, we move on to discuss the merits of Officer
Doe’s contention that Black Lives Matter is a suable
entity. He alleges that Black Lives Matter “is a
national incorporated association with chapter [sic] in
many states.” Under Federal Rule of Civil Procedure
17(b), the capacity of an entity “to sue or be sued is
determined . . . by the law of the state where the court
is located.” Under Article 738 of the Louisiana Code of
Civil Procedure, “an unincorporated association has
the procedural capacity to be sued in its own name.”

106a
The Louisiana Supreme Court has held that “an
unincorporated association is created in the same
manner as a partnership, by a contract between two
or more persons to combine their efforts, resources,
knowledge or activities for a purpose other than profit
or commercial benefit.” Ermert, 559 So. 2d at 473.
“Interpretation of a contract is the determination of
the common intent of the parties.” La. Civ. Code Ann.
art. 2045. To show intent, “the object of the contract of
association must necessarily be the creation of an
entity whose personality ‘is distinct from that of its
members.’” Ermert, 559 So. 2d at 474 (quoting La.
Civ. Code Ann. art. 24). Louisiana law does not
provide for a public display of the parties’ intent. Id.
Louisiana courts have looked to various factors
as indicative of an intent to create an unincorporated
association, including requiring dues, having
insurance, ownership of property, governing
agreements, or the presence of a formal membership
structure. See Bogue Lusa Waterworks Dist. v. La.
Dep’t of Envtl. Quality, 897 So. 2d 726, 728-729 (La.
Ct. App. 2004) (relying on organization’s unfiled
articles of incorporation); Friendship Hunting Club v.
Lejeune, 999 So. 2d 216, 223 (La. Ct. App. 2008)
(relying on organization’s required dues and
possession of an insurance policy); see also Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc.,
686 F.Supp.2d 663, 675 (E.D. La. 2010) (relying on
organization’s formal and determinate membership
structure). Lacking at least some of these indicators,
Louisiana courts have been unwilling to find an
intent to create an unincorporated association. See,
e.g., Ermert, 559 So. 2d at 474–475 (finding that
hunting group was not an unincorporated association
because it did not own or lease the property that it

107a
was based on, required the permission of one of its
alleged members to use the property, and lacked
formal rules or bylaws).
Officer Doe has not shown in his complaint a
plausible inference that Black Lives Matter is an
unincorporated association. His only allegations are
that Black Lives Matter: (1) was created by three
women; (2) has several leaders, including Mckesson;
(3) has chapters in many states; and (4) was involved
in numerous protests in response to police practices.
He does not allege that it possesses property, has a
formal membership, requires dues, or possesses a
governing agreement. As such, the complaint lacks
any indication that Black Lives Matter possesses the
traits that Louisiana courts have regarded as
indicative of an intent to establish a juridical entity.
We have no doubt that Black Lives Matter involves a
number of people working in concert, but “an
unincorporated association . . . . does not come into
existence or commence merely by virtue of the
fortuitous creation of a community of interest or the
fact that a number of individuals have simply acted
together.” Id. at 474. Therefore, we find that the
district court did not err in concluding that Officer
Doe’s complaint has failed plausibly to allege that
Black Lives Matter is an entity capable of being
sued.5
V.
In sum, we hold that Officer Doe has not
We do not address as to whether Officer Doe could state a
claim against an entity whose capacity to be sued was plausibly
alleged, nor do we address whether Mckesson could be held
liable for the actions of that entity under state law.
5

108a
adequately alleged that Mckesson was vicariously
liable for the conduct of the unknown assailant or
that Mckesson entered into a civil conspiracy with the
purpose of injuring Officer Doe. We do find, however,
that Officer Doe adequately alleged that Mckesson is
liable in negligence for organizing and leading the
Baton Rouge demonstration to illegally occupy a
highway. We further find that in this context the
district court erred in dismissing the suit on First
Amendment grounds. As such, Officer Doe has
pleaded a claim for relief against DeRay Mckesson in
his active complaint.6 We also hold that the district
court erred by taking judicial notice of the legal status
of “Black Lives Matter,” but nonetheless find that
Officer Doe did not plead facts that would allow us to
conclude that Black Lives Matter is an entity capable
of being sued.7 Therefore, the judgment of the district
court is AFFIRMED in part, REVERSED in part, and
6 Officer Doe has complained of the lack of discovery in this
case, particularly related to his claims against the corporate
defendants. Officer Doe is free to argue before the district court
that he is entitled to discovery. The district court may then
decide whether, in the light of our remand, discovery would be
appropriate.

Because we find that Officer Doe has successfully pled a
claim, we do not reach the district court’s denial of Officer Doe’s
motion for leave to amend. See Lormand v. US Unwired, Inc.,
565 F.3d 228, 268 n.36 (5th Cir. 2009) (citing Xerox Corp. v.
Genmoora Corp., 888 F.2d 345, 358 n.70 (5th Cir. 1989)). It
follows that we do not address any of the allegations in the
Proposed Amended Complaint or the parties it seeks to add. On
remand, Officer Doe may seek leave to amend his complaint to
add new parties and plead additional facts to support his
negligence claim. The district court should determine whether to
grant this motion, and any new motions for leave to amend, in
the light of our opinion.
7

109a
the case is REMANDED for further proceedings not
inconsistent with this opinion.8
AFFIRMED in part, REVERSED in part, and
REMANDED.

On appeal, Officer Doe also argues that the district court
erred in denying his request to proceed anonymously as John
Doe. He argues that the public nature of his job puts him and his
family in danger of additional violence. At the district court, he
listed a number of examples of acts of violence against police
officers by individuals who may have some connection with
Black Lives Matter. In its order, the district court walked
through three factors common to anonymous-party suits that we
have said “deserve considerable weight.” Doe v. Stegall, 653 F.2d
180, 186 (5th Cir. 1981). These are: (1) whether the plaintiff is
“challeng[ing] governmental activity”; (2) whether the plaintiff
will be required to disclose information “of the utmost intimacy”;
and (3) whether the plaintiff will be “compelled to admit [his]
intention to engage in illegal conduct, thereby risking criminal
prosecution.” Id. at 185. The district court concluded that none of
these factors applied to the facts of this case. In response to
Officer Doe’s argument regarding potential future violence, the
district court noted that the incidents Officer Doe listed did not
involve Officer Doe and were not related to this lawsuit. In fact,
at oral argument before the district court regarding his motion,
Officer Doe conceded that he had received no particularized
threats of violence since filing his lawsuit. The district court
instead saw the incidents Officer Doe listed as evidence of “the
generalized threat of violence that all police officers face.” As a
result, the district found that Doe had not demonstrated a
privacy interest that outweighs the “customary and
constitutionally embedded presumption of openness in judicial
proceedings.” Id. at 186. We agree with the district court and
affirm the denial of Doe’s motion to proceed anonymously. In so
holding, we emphasize what the Supreme Court said decades
ago: “What transpires in the court room is public property.”
Craig v. Harney, 331 U.S. 367, 374 (1947).
8

110a
In the United States Court of Appeals for the Fifth
Circuit
No. 17-30864
OFFICER JOHN DOE, Police Officer,
Plaintiff-Appellant
v.
DERAY MCKESSON; BLACK LIVES MATTER;
BLACK LIVES MATTER NETWORK,
INCORPORATED, Defendants-Appellees
Appeal from the United States District Court for
the Middle District of Louisiana
April 24, 2019
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
During a public protest against police misconduct
in Baton Rouge, Louisiana, an unidentified individual
hit Officer John Doe with a heavy object, causing him
serious physical injuries. Following this incident,
Officer Doe brought suit against “Black Lives
Matter,” the group associated with the protest, and
DeRay Mckesson, one of the leaders of Black Lives
Matter and the organizer of the protest. Officer Doe
later sought to amend his complaint to add Black
Lives Matter Network, Inc. and # BlackLivesMatter
as defendants. The district court dismissed Officer
Doe’s claims on the pleadings under Federal Rule of
Civil Procedure 12(b)(6), and denied his motion to
amend his complaint as futile. Because we conclude

111a
that the district court erred in dismissing the case
against Mckesson on the basis of the pleadings, we
REMAND for further proceedings relative to
Mckesson. We further hold that the district court
properly dismissed the claims against Black Lives
Matter. 1 We thus REVERSE in part, AFFIRM in
part, and REMAND for further proceedings not
inconsistent with this opinion.
I.
On July 9, 2016, a protest took place by blocking a
public highway in front of the Baton Rouge Police
Department headquarters.2 This demonstration was
one in a string of protests across the country, often
associated with Black Lives Matter, concerning police
practices. The Baton Rouge Police Department
prepared by organizing a front line of officers in riot
gear. These officers were ordered to stand in front of
other officers prepared to make arrests. Officer Doe
was one of the officers ordered to make arrests.
DeRay Mckesson, associated with Black Lives
Matter, was the prime leader and an organizer of the
protest.
In the presence of Mckesson, some protesters
began throwing objects at the police officers.
Specifically, protestors began to throw full water
bottles, which had been stolen from a nearby
convenience store. The dismissed complaint further
alleges that Mckesson did nothing to prevent the
violence or to calm the crowd, and, indeed, alleges
1 We do not address any of the allegations raised by the
Proposed Amended Complaint. See note 5, infra.

This case comes to us on a motion to dismiss, so we treat
all well-pleaded facts as true.
2

112a
that Mckesson “incited the violence on behalf of
[Black Lives Matter].” The complaint specifically
alleges that Mckesson led the protestors to block the
public highway. The police officers began making
arrests of those blocking the highway and
participating in the violence.
At some point, an unidentified individual picked
up a piece of concrete or a similar rock-like object and
threw it at the officers making arrests. The object
struck Officer Doe’s face. Officer Doe was knocked to
the ground and incapacitated. Officer Doe’s injuries
included loss of teeth, a jaw injury, a brain injury, a
head injury, lost wages, “and other compensable
losses.”
Following the Baton Rouge protest, Officer Doe
brought suit, naming Mckesson and Black Lives
Matter as defendants. According to his complaint, the
defendants are liable on theories of negligence,
respondeat superior, and civil conspiracy. Mckesson
subsequently filed two motions: (1) a Rule 12(b)(6)
motion, asserting that Officer Doe failed to state a
plausible claim for relief against Mckesson and (2) a
Rule 9(a)(2) motion, asserting that Black Lives
Matter is not an entity with the capacity to be sued.
Officer Doe responded by filing a motion to
amend. He sought leave to amend his complaint to
add factual allegations to his complaint and Black
Lives Matter Network, Inc. and # BlackLivesMatter
as defendants.
II.
The district court granted both of Mckesson’s
motions, treating the Rule 9(a)(2) motion as a Rule
12(b)(6) motion, and denied Officer Doe’s motion for

113a
leave to amend, concluding that his proposed
amendment would be futile. With respect to Officer
Doe’s claims against # BlackLivesMatter, the district
court took judicial notice that it is a “hashtag” and
therefore an “expression” that lacks the capacity to be
sued. With respect to Officer Doe’s claims against
Black Lives Matter Network, Inc. the district court
held that Officer Doe’s allegations were insufficient to
state a plausible claim for relief against this entity.
Emphasizing the fact that Officer Doe attempted to
add a social movement and a “hashtag” as
defendants, the district court dismissed his case with
prejudice. Officer Doe timely appealed.
III.
When considering a motion to dismiss under Rule
12(b)(6), we will not affirm dismissal of a claim unless
the plaintiff can prove no set of facts in support of his
claim that would entitle him to relief. Alexander v.
Verizon Wireless Servs., L.L.C., 875 F.3d 243, 249 (5th
Cir. 2017). “We take all factual allegations as true
and construe the facts in the light most favorable to
the plaintiff.” Id. (citing Kelly v. Nichamoff, 868 F.3d
371, 374 (5th Cir. 2017)). To survive, a complaint
must consist of more than “labels and conclusions” or
“naked assertions devoid of further factual
enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007) (internal quotation marks and
brackets omitted)). Instead, “the plaintiff must plead
enough facts to nudge the claims across the line from
conceivable to plausible.” Hinojosa v. Livingston, 807
F.3d 657, 684 (5th Cir. 2015) (internal quotation
marks, brackets, and ellipses omitted) (quoting Iqbal,

114a
556 U.S. at 680).3
A district court’s denial of a motion to amend is
generally reviewed for abuse of discretion. Thomas v.
Chevron U.S.A., Inc., 832 F.3d 586, 590 (5th Cir.
2016). However, where the district court’s denial of
leave to amend was based solely on futility, we
instead apply a de novo standard of review identical
in practice to the Rule 12(b)(6) standard. Id. When a
party seeks leave from the court to amend and justice
requires it, the district court should freely give it.
Fed. R. Civ. P. 15(a)(2).
IV.
Federal Rule of Civil Procedure Rule 9(a)(2) states that, if
a party wishes to raise an issue regarding lack of capacity to be
sued, “a party must do so by a specific denial.” Rule 12(b) does
not specifically authorize a motion to dismiss based on a lack of
capacity. Nonetheless, we have permitted Rule 12(b) motions
arguing lack of capacity. See, e.g., Darby v. Pasadena Police
Dep’t, 939 F.2d 311 (5th Cir. 1992). Where the issue appears on
the face of the complaint, other courts have done the same and
treated it as a Rule 12(b)(6) motion. See, e.g., Klebanow v. N.Y.
Produce Exch., 344 F.2d 294, 296 n.1 (2d Cir. 1965) (“Although
the defense of lack of capacity is not expressly mentioned in
[R]ule 12(b), the practice has grown up of examining it by a
12(b)(6) motion when the defect appears upon the face of the
complaint.”); Coates v. Brazoria Cty. Tex., 894 F.Supp.2d 966,
968 (S.D. Tex. 2012) (“Whether a party has the capacity to sue or
be sued is a legal question that may be decided at the Rule 12
stage.”); see also 5A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 1294 (3d ed. 2018) (“An
effective denial of capacity … creates an issue of fact. Such a
denial may be made in the responsive pleading or, if the lack of
capacity . . . appears on the face of the pleadings or is discernible
there from, the issue can be raised by a motion to dismiss for
failure to state a claim for relief.” (footnotes omitted)). Thus, we
review the district court’s dismissal for lack of capacity de novo
and apply the Rule 12(b)(6) standard.
3

115a
A.
We begin by addressing Officer Doe’s claims
against DeRay Mckesson. The district court did not
reach the merits of Officer Doe’s underlying state tort
claims, but instead found that Officer Doe failed to
plead facts that took Mckesson’s conduct outside of
the bounds of First Amendment protected speech and
association. Because we ultimately find that
Mckesson’s conduct at this pleading stage was not
necessarily protected by the First Amendment, we
will begin by addressing the plausibility of Officer
Doe’s state tort claims. We will address each of Officer
Doe’s specific theories of liability in turn—vicarious
liability, negligence, and civil conspiracy, beginning
with vicarious liability.
1.
Louisiana Civil Code article 2320 provides that
“[m]asters and employers are answerable for the
damage occasioned by their servants and overseers,
in the exercise of the functions which they are
employed.” A “servant,” as used in the Civil Code,
“includes anyone who performs continuous service for
another and whose physical movements are subject to
the control or right to control of the other as to the
manner of performing the service.” Ermert v.
Hartford Ins. Co., 559 So. 2d 467, 476 (La. 1990).
Officer Doe’s vicarious liability theory fails at the
point of our beginning because he does not allege facts
that support an inference that the unknown assailant
“perform[ed] a continuous service” for or that the
assailant’s “physical movements [were] subject to the
control or right to control” of Mckesson. Therefore,
under the pleadings, Mckesson cannot be held liable
under a vicarious liability theory.

116a
2.
We now move on to address Officer Doe’s civil
conspiracy theory. Civil conspiracy is not itself an
actionable tort. Ross v. Conoco, Inc., 828 So. 2d 546,
552 (La. 2002). Instead, it assigns liability arising
from the existence of an underlying unlawful act. Id.
In order to impose liability for civil conspiracy in
Louisiana, a plaintiff must prove that (1) an
agreement existed with one or more persons to
commit an illegal or tortious act; (2) the act was
actually committed; (3) the act resulted in plaintiff’s
injury; and (4) there was an agreement as to the
intended outcome or result. Crutcher-Tufts Res., Inc.
v. Tufts, 992 So. 2d 1091, 1094 (La. Ct. App. 2008); see
also La. Civ. Code art. 2324. “Evidence of . . . a
conspiracy can be actual knowledge, overt actions
with another, such as arming oneself in anticipation
of apprehension, or inferred from the knowledge of
the alleged co-conspirator of the impropriety of the
actions taken by the other co-conspirator.” Stephens v.
Bail Enf’t, 690 So. 2d 124, 131 (La. Ct. App. 1997).
Officer Doe’s complaint is vague about the
underlying conspiracy to which Mckesson agreed, or
with whom such an agreement was made. In his
complaint, Officer Doe refers to a conspiracy “to incite
a riot/protest.” Disregarding Officer Doe’s conclusory
allegations, we find that Officer Doe has not alleged
facts that would support a plausible claim that
Mckesson can be held liable for his injuries on a
theory of civil conspiracy. Although Officer Doe has
alleged facts that support an inference that Mckesson
agreed with unnamed others to demonstrate illegally
on a public highway, he has not pled facts that would
allow a jury to conclude that Mckesson colluded with

117a
the unknown assailant to attack Officer Doe, knew of
the attack and ratified it, or agreed with other named
persons that attacking the police was one of the goals
of the demonstration. The closest that Officer Doe
comes to such an allegation is when he states that
Mckesson was “giving orders” throughout the
demonstration. But we cannot infer from this quite
unspecific allegation that Mckesson ordered the
unknown assailant to attack Officer Doe. Lacking an
allegation of this pleading quality, Officer Doe’s
conspiracy claim must and does fail.
3.
Finally, we turn to Officer Doe’s negligence
theory. Officer Doe alleges that Mckesson was
negligent for organizing and leading the Baton Rouge
demonstration because he “knew or should have
known” that the demonstration would turn violent.
We agree as follows.
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.” The Louisiana Supreme Court has adopted
a “duty-risk” analysis for assigning tort liability
under a negligence theory. This theory requires a
plaintiff to establish that (1) the plaintiff suffered an
injury; (2) the defendant owed a duty of care to the
plaintiff; (3) the duty was breached by the defendant;
(4) the conduct in question was the cause-in-fact of
the resulting harm; and (5) the risk of harm was
within the scope of protection afforded by the duty
breached. Lazard v. Foti, 859 So. 2d 656, 659 (La.
2003). Whether a defendant owes a plaintiff a duty is
a question of law. See Posecai v. Wal-Mart Stores,
Inc., 752 So. 2d 762, 766 (La. 1999); Bursztajn v.

118a
United States, 367 F.3d 485, 489 (5th Cir. 2004)
(“Under Louisiana law, the existence of a duty
presents a question of law that ‘varies depending on
the facts, circumstances, and context of each case and
is limited by the particular risk, harm, and plaintiff
involved.’” (quoting Dupre v. Chevron U.S.A., Inc., 20
F.3d 154, 157 (5th Cir. 1994))). There is a “universal
duty on the part of the defendant in negligence cases
to use reasonable care so as to avoid injury to
another.” Boykin v. La. Transit Co., 707 So. 2d 1225,
1231 (La. 1998). Louisiana courts elucidate specific
duties of care based on consideration of “various
moral, social, and economic factors, including the
fairness of imposing liability; the economic impact on
the defendant and on similarly situated parties; the
need for an incentive to prevent future harm; the
nature of defendant’s activity; the potential for an
unmanageable flow of litigation; the historical
development of precedent; and the direction in which
society and its institutions are evolving.” Posecai, 752
So. 2d at 766.
We first note that this case comes before us from
a dismissal on the pleadings alone. In this context, we
find that Officer Doe has plausibly alleged that
Mckesson breached his duty of reasonable care in the
course of organizing and leading the Baton Rouge
demonstration. The complaint specifically alleges
that it was Mckesson himself who intentionally led
the demonstrators to block the highway. Blocking a
public highway is a criminal act under Louisiana law.
See La. Rev. Stat. Ann. § 14:97. As such, it was
patently foreseeable that the Baton Rouge police
would be required to respond to the demonstration by
clearing the highway and, when necessary, making
arrests. Given the intentional lawlessness of this

119a
aspect of the demonstration, Mckesson should have
known that leading the demonstrators onto a busy
highway was most nearly certain to provoke a
confrontation between police and the mass of
demonstrators, yet he ignored the foreseeable danger
to officers, bystanders, and demonstrators, and
notwithstanding, did so anyway. By ignoring the
foreseeable risk of violence that his actions created,
Mckesson failed to exercise reasonable care in
conducting his demonstration.
Officer Doe has also plausibly alleged that
Mckesson’s breach of duty was the cause-in-fact of
Officer Doe’s injury and that the injury was within
the scope of the duty breached by Mckesson. It may
have been an unknown demonstrator who threw the
hard object at Officer Doe, but by leading the
demonstrators onto the public highway and
provoking a violent confrontation with the police,
Mckesson’s negligent actions were the “but for”
causes of Officer Doe’s injuries. See Roberts v. Benoit,
605 So. 2d 1032, 1052 (La. 1992) (“To meet the
cause-in-fact element, a plaintiff must prove only that
the conduct was a necessary antecedent of the
accident, that is, but for the defendant’s conduct, the
incident probably would not have occurred.”).
Furthermore, as the purpose of imposing a duty on
Mckesson in this situation is to prevent foreseeable
violence to the police and bystanders, Officer Doe’s
injury, as alleged in the pleadings, was within the
scope of the duty of care allegedly breached by
Mckesson.
We iterate what we have previously noted: Our
ruling at this point is not to say that a finding of
liability will ultimately be appropriate. At the motion

120a
to dismiss stage, however, we are simply required to
decide whether Officer Doe’s claim for relief is
sufficiently plausible to allow him to proceed to
discovery. We find that it is.
B.
Having concluded that Officer Doe has stated a
plausible claim for relief against Mckesson under
state tort law, we will now take a step back and
address the district court’s determination that Officer
Doe’s complaint should be dismissed based on the
First Amendment. The Supreme Court has made
clear that “[t]he First Amendment does not protect
violence.” N.A.A.C.P. v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). Nonetheless, the district court
dismissed the complaint on First Amendment
grounds, reasoning that “[i]n order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
‘authorized, directed, or ratified specific tortious
activity.’” See id. at 927. The district court then went
on to find that there were no plausible allegations
that Mckesson had done so in his complaint.
We respectfully disagree. The district court
appears to have assumed that in order to state a
claim that Mckesson was liable for his injuries,
Officer Doe was required to allege facts that created
an inference that Mckesson directed, authorized, or
ratified the unknown assailant’s specific conduct in
attacking Officer Doe. This assumption, however,
does not fit the situation we address today. Assuming
that the First Amendment is applicable to Mckesson’s
conduct, in order to counter its applicability at the

121a
pleading stage Officer Doe simply needed to plausibly
allege that his injuries were one of the “consequences”
of “tortious activity,” which itself was “authorized,
directed, or ratified” by Mckesson in violation of his
duty of care. See id. (“[A] finding that [the defendant]
authorized, directed, or ratified specific tortious
activity would justify holding him responsible for the
consequences of that activity.”). Our discussion above
makes clear that Officer Doe’s complaint does allege
that Mckesson directed the demonstrators to engage
in the criminal act of occupying the public highway,
which quite consequentially provoked a confrontation
between the Baton Rouge police and the protesters,
and that Officer Doe’s injuries were the foreseeable
result of the tortious and illegal conduct of blocking a
busy highway. Thus, on the pleadings, which must be
read in a light most favorable to Officer Doe, the First
Amendment is not a bar to Officer Doe’s negligence
theory. The district court erred by dismissing Officer
Doe’s complaint—at the pleading stage—as barred by
the First Amendment.
C.
Now we turn our attention to whether Officer Doe
has stated a claim against Black Lives Matter. The
district court took judicial notice that “‘Black Lives
Matter,’ as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African-American
citizens by law enforcement officers.” Based on this
conclusion, the district court held that Black Lives
Matter is not a “juridical person” capable of being
sued. See Ermert, 559 So. 2d at 474. We first address
the district court’s taking of judicial notice, then

122a
Black Lives Matter’s alleged capacity to be sued.
Federal Rule of Evidence 201 provides that a
court may take judicial notice of an “adjudicative fact”
if the fact is “not subject to reasonable dispute” in that
it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate
and ready determination by resort to sources whose
accuracy cannot be questioned. Fed. R. Evid. 201(b).
“Rule 201 authorizes the court to take notice only of
‘adjudicative facts,’ not legal determinations.” Taylor
v. Charter Med. Corp., 162 F.3d 827, 831 (5th Cir.
1998). In Taylor, we held that another court’s state
actor determination was not an “adjudicative fact”
within the meaning of Rule 201 because “[w]hether a
private party is a state actor for the purposes of §
1983 is a mixed question of fact and law and is thus
subject to our de novo review.” Id. at 830–31. We
further held that the state-actor determination was
not beyond reasonable dispute where it “was, in fact,
disputed by the parties” in the related case. Id. at 830.
We think that the district court was incorrect to
take judicial notice of a mixed question of fact and law
when it concluded that Black Lives Matter is a “social
movement, rather than an organization or entity of
any sort.” The legal status of Black Lives Matter is
not immune from reasonable dispute; and, indeed, it
is disputed by the parties—Doe claiming that Black
Lives Matter is a national unincorporated
association, and Mckesson claiming that it is a
movement or at best a community of interest. This
difference is sufficient under our case law to preclude
judicial notice.
We should further say that we see the cases
relied on by the district court as distinguishable. Each

123a
deals with judicial notice of an aspect of an entity, not
its legal form. See United States v. Parise, 159 F.3d
790, 801 (3d Cir. 1998) (holding that the court could
take judicial notice of the aims and goals of a
movement); Atty. Gen. of U.S. v. Irish N. Aid. Comm.,
530 F. Supp. 241, 259–60 (S.D.N.Y. 1981) (stating the
court could take “notice that the IRA is a ‘Republican
movement,’ at least insofar as it advocates a united
Ireland” (emphasis added)); see also Baggett v. Bullitt,
377 U.S. 360, 376 n.13 (1964) (noting that “[t]he lower
court took judicial notice of the fact that the
Communist Party of the United States … was a part
of the world Communist movement” (emphasis
added)).
Now, we move on to discuss the merits of Officer
Doe’s contention that Black Lives Matter is a suable
entity. He alleges that Black Lives Matter “is a
national incorporated association with chapter [sic] in
many states.” Under Federal Rule of Civil Procedure
17(b), the capacity of an entity “to sue or be sued is
determined … by the law of the state where the court
is located.” Under Article 738 of the Louisiana Code of
Civil Procedure, “an unincorporated association has
the procedural capacity to be sued in its own name.”
The Louisiana Supreme Court has held that “an
unincorporated association is created in the same
manner as a partnership, by a contract between two
or more persons to combine their efforts, resources,
knowledge or activities for a purpose other than profit
or commercial benefit.” Ermert, 559 So. 2d at 473.
“Interpretation of a contract is the determination of
the common intent of the parties.” La. Civ. Code Ann.
art. 2045. To show intent, “the object of the contract of
association must necessarily be the creation of an
entity whose personality ‘is distinct from that of its

124a
members.’” Ermert, 559 So. 2d at 474 (quoting La.
Civ. Code Ann. art. 24). Louisiana law does not
provide for a public display of the parties’ intent. Id.
Louisiana courts have looked to various factors
as indicative of an intent to create an unincorporated
association, including requiring dues, having
insurance, ownership of property, governing
agreements, or the presence of a formal membership
structure. See Bogue Lusa Waterworks Dist. v. La.
Dep’t of Envtl. Quality, 897 So. 2d 726, 728-729 (La.
Ct. App. 2004) (relying on organization’s unfiled
articles of incorporation); Friendship Hunting Club v.
Lejeune, 999 So. 2d 216, 223 (La. Ct. App. 2008)
(relying on organization’s required dues and
possession of an insurance policy); see also Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc.,
686 F.Supp.2d 663, 675 (E.D. La. 2010) (relying on
organization’s formal and determinate membership
structure). Lacking at least some of these indicators,
Louisiana courts have been unwilling to find an
intent to create an unincorporated association. See,
e.g., Ermert, 559 So. 2d at 474–475 (finding that
hunting group was not an unincorporated association
because it did not own or lease the property that it
was based on, required the permission of one of its
alleged members to use the property, and lacked
formal rules or bylaws).
Officer Doe has not shown in his complaint a
plausible inference that Black Lives Matter is an
unincorporated association. His only allegations are
that Black Lives Matter: (1) was created by three
women; (2) has several leaders, including Mckesson;
(3) has chapters in many states; and (4) was involved
in numerous protests in response to police practices.

125a
He does not allege that it possesses property, has a
formal membership, requires dues, or possesses a
governing agreement. As such, the complaint lacks
any indication that Black Lives Matter possesses the
traits that Louisiana courts have regarded as
indicative of an intent to establish a juridical entity.
We have no doubt that Black Lives Matter involves a
number of people working in concert, but “an
unincorporated association …. does not come into
existence or commence merely by virtue of the
fortuitous creation of a community of interest or the
fact that a number of individuals have simply acted
together.” Id. at 474. Therefore, we find that the
district court did not err in concluding that Officer
Doe’s complaint has failed plausibly to allege that
Black Lives Matter is an entity capable of being sued.
V.
In sum, we hold that Officer Doe has not
adequately alleged that Mckesson was vicariously
liable for the conduct of the unknown assailant or
that Mckesson entered into a civil conspiracy with the
purpose of injuring Officer Doe. We do find, however,
that Officer Doe adequately alleged that Mckesson is
liable in negligence for organizing and leading the
Baton Rouge demonstration to illegally occupy a
highway. We further find that in this context the
district court erred in dismissing the suit on First
Amendment grounds. As such, Officer Doe has
pleaded a claim for relief against DeRay Mckesson in
his active complaint.4 We also hold that the district
4 Officer Doe has complained of the lack of discovery in this
case, particularly related to his claims against the corporate
defendants. Officer Doe is free to argue before the district court
that he is entitled to discovery. The district court may then

126a
court erred by taking judicial notice of the legal status
of “Black Lives Matter,” but nonetheless find that
Officer Doe did not plead facts that would allow us to
conclude that Black Lives Matter is an entity capable
of being sued.5 Therefore, the judgment of the district
court is AFFIRMED in part, REVERSED in part, and
the case is REMANDED for further proceedings not
inconsistent with this opinion.6
decide whether, in the light of our remand, discovery would be
appropriate.
Because we find that Officer Doe has successfully pled a
claim, we do not reach the district court’s denial of Officer Doe’s
motion for leave to amend. See Lormand v. US Unwired, Inc.,
565 F.3d 228, 268 n.36 (5th Cir. 2009) (citing Xerox Corp. v.
Genmoora Corp., 888 F.2d 345, 358 n.70 (5th Cir. 1989)). It
follows that we do not address any of the allegations in the
Proposed Amended Complaint or the parties it seeks to add. On
remand, Officer Doe may seek leave to amend his complaint to
add new parties and plead additional facts to support his
negligence claim. The district court should determine whether to
grant this motion, and any new motions for leave to amend, in
the light of our opinion.
5

6 On appeal, Officer Doe also argues that the district court
erred in denying his request to proceed anonymously as John
Doe. He argues that the public nature of his job puts him and his
family in danger of additional violence. At the district court, he
listed a number of examples of acts of violence against police
officers by individuals who may have some connection with
Black Lives Matter. In its order, the district court walked
through three factors common to anonymous-party suits that we
have said “deserve considerable weight.” Doe v. Stegall, 653 F.2d
180, 186 (5th Cir. 1981). These are: (1) whether the plaintiff is
“challeng[ing] governmental activity”; (2) whether the plaintiff
will be required to disclose information “of the utmost intimacy”;
and (3) whether the plaintiff will be “compelled to admit [his]
intention to engage in illegal conduct, thereby risking criminal
prosecution.” Id. at 185. The district court concluded that none of
these factors applied to the facts of this case. In response to

127a
AFFIRMED in part, REVERSED in part, and
REMANDED.

Officer Doe’s argument regarding potential future violence, the
district court noted that the incidents Officer Doe listed did not
involve Officer Doe and were not related to this lawsuit. In fact,
at oral argument before the district court regarding his motion,
Officer Doe conceded that he had received no particularized
threats of violence since filing his lawsuit. The district court
instead saw the incidents Officer Doe listed as evidence of “the
generalized threat of violence that all police officers face.” As a
result, the district found that Doe had not demonstrated a
privacy interest that outweighs the “customary and
constitutionally embedded presumption of openness in judicial
proceedings.” Id. at 186. We agree with the district court and
affirm the denial of Doe’s motion to proceed anonymously. In so
holding, we emphasize what the Supreme Court said decades
ago: “What transpires in the court room is public property.”
Craig v. Harney, 331 U.S. 367, 374 (1947).

